<html>
<title> - COMMERCIAL AND PASSENGER VESSEL SAFETY: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  COMMERCIAL AND PASSENGER VESSEL SAFETY: CHALLENGES AND OPPORTUNITIES

=======================================================================

                                (116-43)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-571 PDF             WASHINGTON : 2020                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
RICK LARSEN, Washington                  Arkansas
GRACE F. NAPOLITANO, California      BOB GIBBS, Ohio
DANIEL LIPINSKI, Illinois            DANIEL WEBSTER, Florida
STEVE COHEN, Tennessee               THOMAS MASSIE, Kentucky
ALBIO SIRES, New Jersey              MARK MEADOWS, North Carolina
JOHN GARAMENDI, California           SCOTT PERRY, Pennsylvania
HENRY C. ``HANK'' JOHNSON, Jr.,      RODNEY DAVIS, Illinois
    Georgia                          ROB WOODALL, Georgia
ANDRE CARSON, Indiana                JOHN KATKO, New York
DINA TITUS, Nevada                   BRIAN BABIN, Texas
SEAN PATRICK MALONEY, New York       GARRET GRAVES, Louisiana
JARED HUFFMAN, California            DAVID ROUZER, North Carolina
JULIA BROWNLEY, California           MIKE BOST, Illinois
FREDERICA S. WILSON, Florida         RANDY K. WEBER, Sr., Texas
DONALD M. PAYNE, Jr., New Jersey     DOUG LaMALFA, California
ALAN S. LOWENTHAL, California        BRUCE WESTERMAN, Arkansas
MARK DeSAULNIER, California          LLOYD SMUCKER, Pennsylvania
STACEY E. PLASKETT, Virgin Islands   PAUL MITCHELL, Michigan
STEPHEN F. LYNCH, Massachusetts      BRIAN J. MAST, Florida
SALUD O. CARBAJAL, California, Vice  MIKE GALLAGHER, Wisconsin
    Chair                            GARY J. PALMER, Alabama
ANTHONY G. BROWN, Maryland           BRIAN K. FITZPATRICK, Pennsylvania
ADRIANO ESPAILLAT, New York          JENNIFFER GONZALEZ-COLON,
TOM MALINOWSKI, New Jersey             Puerto Rico
GREG STANTON, Arizona                TROY BALDERSON, Ohio
DEBBIE MUCARSEL-POWELL, Florida      ROSS SPANO, Florida
LIZZIE FLETCHER, Texas               PETE STAUBER, Minnesota
COLIN Z. ALLRED, Texas               CAROL D. MILLER, West Virginia
SHARICE DAVIDS, Kansas               GREG PENCE, Indiana
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
Vacancy
                                ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                 SEAN PATRICK MALONEY, New York, Chair
RICK LARSEN, Washington              BOB GIBBS, Ohio
STACEY E. PLASKETT, Virgin Islands   DON YOUNG, Alaska
JOHN GARAMENDI, California           RANDY K. WEBER, Sr., Texas
ALAN S. LOWENTHAL, California        BRIAN J. MAST, Florida
ANTHONY G. BROWN, Maryland           MIKE GALLAGHER, Wisconsin
CHRIS PAPPAS, New Hampshire, Vice    CAROL D. MILLER, West Virginia
    Chair                            SAM GRAVES, Missouri (Ex Officio)
Vacancy
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chairman, Subcommittee on Coast Guard 
  and Maritime Transportation:

    Opening statement delivered by Hon. Rick Larsen..............     1
    Prepared statement...........................................     3
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     4
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6

                               WITNESSES
                                Panel 1

Rear Admiral Richard V. Timme, Assistant Commandant for 
  Prevention Policy, U.S. Coast Guard:

    Oral statement...............................................     8
    Prepared statement...........................................     9
Hon. Richard A. Balzano, Deputy Administrator, Maritime 
  Administration:

    Oral statement...............................................    11
    Prepared statement...........................................    13
Brian Curtis, Director, Office Of Marine Safety, National 
  Transportation Safety Board:

    Oral statement...............................................    15
    Prepared statement...........................................    17

                                Panel 2

Vice Admiral Brian M. Salerno, U.S. Coast Guard (Ret.), Senior 
  Vice President of Global Maritime Policy, Cruise Lines 
  International Association:

    Oral statement...............................................    36
    Prepared statement...........................................    37
Adam W. Moilanen, Vice President of Health, Safety, Quality, and 
  Environment, American Bureau of Shipping:

    Oral statement...............................................    43
    Prepared statement...........................................    45
Aaron C. Smith, President and Chief Executive Officer, Offshore 
  Marine Service Association:

    Oral statement...............................................    46
    Prepared statement...........................................    48
Colleen Stephens, Vice President, Passenger Vessel Association:

    Oral statement...............................................    54
    Prepared statement...........................................    56
Paul M. Sterbcow, President, Louisiana Association for Justice:

    Oral statement...............................................    58
    Prepared statement...........................................    60

                       SUBMISSIONS FOR THE RECORD

Letter of November 14, 2019, from Hon. Doris O. Matsui, a 
  Representative in Congress from the State of California, 
  Submitted for the Record by Hon. Larsen........................    71
Statement on behalf of the International Cruise Victims 
  Association, Submitted for the Record by Hon. Larsen...........    71
Educational paper, ``Spotlight On Safety: Why Accidents Are Often 
  Not Accidental'' by International Organization of Masters, 
  Mates & Pilots and Dalhousie University, Department of 
  Industrial Engineering, July 2019, Submitted for the Record by 
  Hon. Larsen....................................................    76

                                APPENDIX

Questions from Hon. Peter A. DeFazio for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast 
  Guard..........................................................    87
Questions from Hon. Sean Patrick Maloney for Rear Admiral Richard 
  V. Timme, Assistant Commandant for Prevention Policy, U.S. 
  Coast Guard....................................................    89
Questions from Hon. Bob Gibbs for Rear Admiral Richard V. Timme, 
  Assistant Commandant for Prevention Policy, U.S. Coast Guard...    90
Questions from Hon. Alan S. Lowenthal for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast 
  Guard..........................................................    90
Questions from Hon. Stacey E. Plaskett for Rear Admiral Richard 
  V. Timme, Assistant Commandant for Prevention Policy, U.S. 
  Coast Guard....................................................    91
Questions from Hon. Salud O. Carbajal for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast 
  Guard..........................................................    91
Questions from Hon. Chris Pappas for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast 
  Guard..........................................................    92
Questions from Hon. Peter A. DeFazio for Vice Admiral Brian M. 
  Salerno, U.S. Coast Guard (Ret.), Senior Vice President of 
  Global Maritime Policy, Cruise Lines International Association.    92
Questions from Hon. Peter A. DeFazio for Adam W. Moilanen, Vice 
  President of Health, Safety, Quality, and Environment, American 
  Bureau of Shipping.............................................    95
Questions from Hon. Salud O. Carbajal for Colleen Stephens, Vice 
  President, Passenger Vessel Association........................    99
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            November 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Coast Guard and Maritime 
Transportation
    FROM:   Staff, Subcommittee on Coast Guard and Maritime 
Transportation
    RE:       Subcommittee Hearing on ``Commercial and 
Passenger Vessel Safety: Challenges and Opportunities''

                                PURPOSE

    The Subcommittee on Coast Guard and Maritime Transportation 
will meet on Thursday, November 14, 2019, at 2:00 p.m. in 2167 
Rayburn House Office Building to explore maritime vessel safety 
amid recent maritime casualties and to examine the 
effectiveness and implementation of safety legislation such as 
the Cruise Vessel Security and Safety Act as well as the Hamm 
Alert Maritime Safety Act. The Subcommittee will hear from the 
United States Coast Guard, Maritime Administration, National 
Transportation Safety Board, Cruise Lines International 
Association, American Bureau of Shipping, Offshore Marine 
Services Association, Passenger Vessel Association, and the 
Louisiana Association for Justice.

                               BACKGROUND

    The International Maritime Organization (IMO) is a global 
standard-setting authority for the safety, security, and 
environmental performance of international shipping \1\ housed 
under the United Nations. IMO's role is to develop and maintain 
a comprehensive regulatory framework for worldwide shipping. 
Flag countries can subsequently set more stringent safety 
requirements for their flag vessels that operate in the 
domestic and/or international trade. Oversight of these vessels 
in the United States typically fall under the responsibility of 
the United States Coast Guard with the assistance of other U.S. 
agencies.\2\
---------------------------------------------------------------------------
    \1\ International Maritime Organization. Introduction to IMO.
    \2\ Depending upon the vessel and requirement, this can include the 
Environmental Protection Agency, and Customs and Border Protection.
---------------------------------------------------------------------------
    The International Convention for Safety of Life at Sea 
(SOLAS) sets international standards for vessel safety that are 
agreed upon by nations that are parties to the convention. The 
United States is a party to this convention. The main objective 
of SOLAS is to specify minimum standards for the safe 
construction, equipping, and operation of ships, compatible 
with their safety. IMO updates SOLAS standards periodically. 
SOLAS applies to vessels operating internationally and 
establishes requirements for vessel construction and stability, 
firefighting systems, safety equipment, radio communications, 
safe navigation procedures, vessel management, and carriage of 
cargo. SOLAS is regarded generally as the most important of all 
international maritime treaties concerning the safety of 
merchant ships. Chapter V of the SOLAS Convention deals with 
safety of navigation, identifies certain navigation safety 
services, and sets forth operational provisions generally 
applicable to all vessels at sea. First adopted in 1914 in 
response to the TITANIC disaster, the current version of the 
treaty was adopted in 1974 and went into force in 1980.\3\ 
SOLAS has been updated subsequently on several occasions 
through amendments which are adopted by its signatory nations 
after lengthy review and debate.
---------------------------------------------------------------------------
    \3\ International Maritime Organization (IMO), International 
Convention for the Safety of Life at Sea (SOLAS), 1974.
---------------------------------------------------------------------------
    Marine safety management systems (SMSs) are programs 
designed to identify hazards and reduce risk in order to ensure 
safety at sea, prevent injury or loss of life, and avoid damage 
to the environment and vessels. An SMS provides procedures used 
aboard a vessel during normal operations or emergencies. 
Processes for conducting regular maintenance on the vessel and 
its equipment also are included. An SMS also includes an audit 
process to identify when the SMS is not followed and a system 
of corrective actions to address deficiencies.
    For vessels sailing under the regulations of SOLAS, SMS 
requirements are delineated in the International Safety 
Management (ISM) Code.\4\ Per the ISM Code, a flag state issues 
a Document of Compliance to a company that complies with the 
requirements of the code and issues a Safety Management 
Certificate to each vessel after verifying that the company and 
its shipboard management operate in accordance with an approved 
SMS. The U.S. Coast Guard affirms compliance with all SOLAS 
requirements during port state control inspections that occur 
when vessels arrive at a U.S. port, and flag state inspections 
for U.S. flag vessels.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------

PASSENGER VESSELS

    Passenger vessels include ferries, dive boats, tour boats, 
overnight boats, dinner boats, among others, that operate on 
U.S. domestic voyages and are typically classified by weight 
and number of passengers carried. These factors also determine 
what Coast Guard regulations the vessel is subject to. Vessels 
classified under 100 gross tons that carry 150 or fewer 
passengers or that have overnight accommodations for 49 or 
fewer passengers fall under subchapter T of Title 46 Code of 
Federal Regulations (CFR) for safety regulations.\5\ Subchapter 
T vessels are considered small passenger vessels, are required 
by law to be inspected once they carry more than six passengers 
and must include at least one passenger for hire.\6\ Passenger 
vessels that do not require inspection, otherwise known as 
``uninspected passenger vessels'' (UPVs) carry up to 6 
passengers for hire, not including the Master and paid crew. 
These are also referred to as ``six-packs.'' These vessels 
include charted, rented or leased vessels with crew provided by 
the owner that carry 6 passengers or less.
---------------------------------------------------------------------------
    \5\ 46 CFR Subchapter T.
    \6\ Coast Guard. COMDTPUB P16700.4 NIVC 7-94. Navigation and Vessel 
Inspection Circular No. 7-94: Guidance on the Passenger Vessel Safety 
Act of 1993. September 30, 1994.
---------------------------------------------------------------------------
    The Coast Guard also oversees the use of chartered vessels 
and considers them passenger vessels. Bareboat chartered 
vessels are passenger vessels that are chartered or rented from 
an owner but does not have as many requirements hence the 
``bareboat'' name. Regarding bareboat charters, the owner 
generally does not provide the crew (i.e. licensed Master of 
appropriate route and tonnage) but must be inspected by the 
Coast Guard if carrying more than 12 passengers.\7\ Chartered 
vessels are required to be inspected when the owner provides 
crew for the vessel to the customer and when they carry more 
than 6 passengers.\8\ Since bareboat charters allow more 
passengers before being required to undergo inspection, they 
tend to have more requirements than the average chartered 
vessel. These stipulations that apply to bareboat charters 
include: the owner not stipulating or providing a master or 
crew; food, fuel and stores must be provided by the charterer; 
port changes and pilot fees paid by the charterer; and, 
charterer has complete command, control, and possession of the 
vessel.\9\
---------------------------------------------------------------------------
    \7\ Ibid.
    \8\ Ibid.
    \9\ Ibid.
---------------------------------------------------------------------------

ILLEGAL CHARTERS

    Illegal charters are when one of the above stipulations for 
bareboat charters are not followed or the charter does not 
undergo an inspection as required. They are a growing small 
passenger vessel enforcement issue for the Coast Guard. Charter 
violations are increasingly common in areas such as Miami, 
Florida, due to its large maritime tourism industry and pose 
increasing safety risks to passengers and operators alike.\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    Exemptions or ``grandfathering'' of certain passenger 
vessels from subchapter T requirements under title 46 CFR has 
occurred generally to allow older vessels to operate while 
gradually applying new regulations prospectively to newly built 
vessels. Passenger vessels with a keel laid date before March 
10, 1996, are inspected under the ``old T'' requirements, not 
the ``new T'' requirements published after 1994. Allowing older 
passenger vessels to continue to operate can have serious 
consequences. For example, early in the morning on September 2, 
2019, an overnight dive boat, the M/V CONCEPTION, caught fire 
off the coast of Santa Cruz, California, and sank resulting in 
the deaths of 33 passengers and one crew member and is the 
worst maritime disaster in 70 years.\11\ The CONCEPTION was a 
75-foot ``grandfathered'' passenger boat that fell under ``old 
T'' regulations.
---------------------------------------------------------------------------
    \11\ Gregory Wallace, Rene Marsh. CNN. NTSB preliminary report says 
Conception dive boat did not have crewmember on roving overnight watch 
as required. September 12, 2019.
---------------------------------------------------------------------------
    Larger passenger vessels tend to fall under either 
subchapters K or H. Passenger vessels classified under 100 
gross ton with more than 150 passengers and/or more than 49 
overnight passengers fall under subchapter K regulations.\12\ 
Passenger vessels over 100 gross tons fall under subchapter H 
regulations.\13\ These regulations do not apply to foreign 
flagged vessels whose country is a party to SOLAS. The Coast 
Guard sets these regulations and enforces them through regular 
inspections.
---------------------------------------------------------------------------
    \12\ 46 CFR Subchapter K
    \13\ 46 CFR Subchapter H
---------------------------------------------------------------------------

CRUISE SHIPS

    Worldwide, the cruise line industry carried over 28.5 
million passengers in 2018 alone.\14\ In 2010, the North 
American Cruise line industry contributed an estimated $37.8 
billion to the U.S. economy.\15\ The U.S. Coast Guard regulates 
all commercial vessels, including cruise vessels, calling on 
U.S. ports, regardless of the vessel's flag state. The Coast 
Guard inspects each foreign-flagged cruise vessel calling on a 
U.S. port at least twice a year to ensure compliance with SOLAS 
and U.S. regulations governing safety, security, and 
environmental protections. The Cruise Vessel Security and 
Safety Act (CVSSA) of 2010 (P.L. 111-207) was enacted on July 
27, 2010, and later amended by Congress in 2013. It requires 
the following of all cruise vessels calling on U.S. ports:
---------------------------------------------------------------------------
    \14\ Cruise Lines International Association, Inc. 2019 Cruise 
Trends and Industry Outlook.
    \15\ Bureau of Transportation Statistics. U.S. Department of 
Transportation. Maritime Trade and Transportation by the Numbers.
---------------------------------------------------------------------------
    <bullet>  Safety railings must be at least 42 inches above 
the deck.
    <bullet>  Cabin doors must have peepholes, latches, and 
time sensitive key cards.
    <bullet>  Vessels must maintain video surveillance and 
provide access for law enforcement agencies investigating as 
incident.
    <bullet>  Vessels must integrate technology that can 
capture images of passengers or detect passengers that fall 
overboard to the extent the technology is available.
    <bullet>  Passengers must have access to a safety guide 
informing them of security and medical personnel aboard, as 
well as variances in laws that will occur as the ship enters 
different jurisdictions.
    <bullet>  Victims of sexual assault must have access to 
trained medical personnel and rape kits, and national response 
hotlines.
    <bullet>  Vessels must record all complaints and claims in 
an official logbook.
    <bullet>  Vessel owners must report all crimes to the 
Federal Bureau of Investigation (FBI). Crimes must then be 
reported on the Department of Transportation's (DOT) website.
    <bullet>  DOT must maintain a website containing a 
compilation of statics on crimes occurring on cruise vessels.
    In 2013 the Government Accountability Office (GAO) 
conducted a study on the implementation of the CVSSA. Their 
study found that, at the time, most of the security and safety 
measures required under CVSSA had been implemented on cruise 
ships but auditors were concerned with the underreporting of 
crimes that occur in U.S. territorial seas, involve a U.S. 
national or take place on cruise vessels that visit a U.S. 
port.\16\ In the report, GAO highlights the limited usefulness 
and transparency of existing publicly reported data. For 
example, allegations for which investigations are not opened, 
are never published, and the data is not timely reported--due 
to the length of time of the investigations--which are 
published months or years later.
---------------------------------------------------------------------------
    \16\ Government Accountability Office. Cruise Vessels: Most 
Required Security and Safety Measures Have Been Implemented, but 
Concerns Remain about Crime Reporting. December 2013.
---------------------------------------------------------------------------

COMMERCIAL VESSELS

    On October 1, 2015, the SS El Faro, a 790-foot U.S.-flagged 
cargo ship owned by TOTE Service's Inc., sank in the Atlantic 
Ocean during Hurricane Joaquin. The result was a loss of life 
of all 33 crew members aboard.\17\ Both the Coast Guard and the 
National Transportation Safety Board (NTSB) found that the 
sinking was a preventable accident. There were multiple 
contributing factors to the sinking of SS EL FARO including: 
the master's insufficient action to avoid Hurricane Joaquin and 
use the most current weather information, the late decision to 
muster the crew, as well as ineffective bridge resource 
management, inadequacy of owner in voyage oversight, flooding 
in the cargo hold from an undetected open watertight scuttle, 
loss of propulsion due to low oil pressure from a sustained 
list, lack of an approved damage control plan, and lack of 
appropriate survival craft.\18\ The Coast Guard Marine Board of 
Investigation made 31 safety and four administrative 
recommendations to address the causes of the SS EL FARO 
sinking.\19\ In December 2017, the Commandant of the Coast 
Guard issued a Final Action Memorandum on the Marine Board's 
recommendation and concurred with 29 of the 31 safety 
recommendations and three of the four administrative 
recommendations.\20\ The NTSB issued 29 recommendations for the 
Coast Guard, two recommendations for the Federal Communications 
Commission, one recommendation for the National Oceanic and 
Atmospheric Administration, nine recommendations for the 
International Association of Classification Societies, one 
recommendation for the American Bureau of Shipping, one 
recommendation for Furuno Electric Company, and 10 
recommendations for TOTE Services Inc.\21\
---------------------------------------------------------------------------
    \17\ Susan Miller. USA Today. Captain's mistakes led to El Faro 
sinking, Coast Guard report says. October 1, 2017.
    \18\ National Transportation Safety Board. NTSB/MAR-17/01 PB2018-
100342. Sinking of US Cargo Vessel El Faro Atlantic Ocean, Northest of 
Acklins and Crooked Island, Bahamas, October 1, 2015. December 12, 
2017.
    \19\ Coast Guard Marine Board of Investigation. Steam Ship El Faro 
(O.N. 561732) Sinking and Loss of the Vessel with 33 Persons Missing 
and Preseumed Deceased Northeast of Acklins and Crooked Island, Bahamas 
on October 1, 2015 Marine Board's Report. September 24, 2017.
    \20\ U.S. Coast Guard. Steam Ship EL FARO (O.N. 561732) Sinking and 
Loss of the Vessel with 33 Persons Missing and Presumed Deceased 
Northeast of Acklins and Crooked Island, Bahamas on October 1, 2015 
December 19, 2017.
    \21\ National Transportation Safety Board. NTSB/MAR-17/01 PB2018-
100342. Sinking of US Cargo Vessel El Faro Atlantic Ocean, Northest of 
Acklins and Crooked Island, Bahamas, October 1, 2015. December 12, 
2017.
---------------------------------------------------------------------------
    On October 11, 2018, the Save our Seas Act of 2018 (P.L. 
115-265) was enacted that included the Hamm Alert Maritime 
Safety Act of 2018 in response to the sinking of the SS EL FARO 
in 2015. This Act used many of the final action memo actions 
and includes requirements such as:
    <bullet>  A website documenting domestic vessel compliance 
with subtitle II of Title 46 that includes flag state detention 
rates and identifying organizations that failed to recognize a 
major non-conformity.
    <bullet>  GAO audit of the Coast Guard's oversight and 
enforcement of safety management plans.
    <bullet>  Outfitting of ships with distress signaling and 
location technology.
    <bullet>  Maintaining records regarding vessel weight 
changes by the owners of the vessel.
    <bullet>  The Commandant of the Coast Guard will enter into 
agreements with IMO on free-floating standards for voyage data 
recorders on vessels.
    <bullet>  Equipment that can attach a radio or Automated 
Identification System strobe or beacon to an object not 
immediately available to retrieve.
    <bullet>  Increase in personnel training regarding marine 
inspections.
    <bullet>  Flag-state guidance for all freight vessels to 
include comprehensive damage control information in safety 
management plans.
    <bullet>  Enhanced Coast Guard oversight of recognized 
organizations that conduct 3rd party inspections on behalf of 
the Coast Guard.
    <bullet>  Improvement of quality and timeliness of weather 
forecasts available to masters and mariners.
    <bullet>  Establishment of an anonymous safety alert pilot 
program.
    Following this casualty and subsequent enactment of the 
Hamm Alert Maritime Safety Act, there has been increased focus 
on the use of ``recognized organizations'' conducting 
inspections on behalf of the Coast Guard and their oversight of 
these organizations. Flag states may delegate the issuance of 
Documents of Compliance and Safety Management Certificates to 
``recognized organizations,'' which are generally 
classification societies. The American Bureau of Shipping (ABS) 
is a recognized organization authorized by the Coast Guard. As 
such, ABS issued ISM certificates and was required to inform 
the Coast Guard when either a Document of Compliance or a 
Safety Management Certificate was rescinded. The Coast Guard's 
use of 3rd party inspectors raises conflict of interest 
concerns in light of the fact that these inspectors are being 
paid by the owners of the vessel that they are inspecting which 
could in turn result in a substandard inspection and unsafe 
vessel. Section 215 of the Hamm Alert Maritime Safety Act 
requires the Coast Guard to establish an office that conducts 
oversight of all recognized organizations not later than two 
years after the date of enactment.
    While there are concerns regarding oversight of recognized 
organizations, there is also concern with the increasing strain 
placed on limited Coast Guard resources for prevention and 
inspection activities. In 2018, the Coast Guard began 
implementation of newly updated 46 CFR Subchapter M 
requirements for towing vessels. These regulations established 
an inspection requirement for towing vessels.\22\ These new 
regulations allow for the use of 3rd party inspectors. The 
success of the new subchapter M requirements rests on the Coast 
Guard's ability to create and oversee important regulations 
that determine 3rd party inspectors. In addition, the Coast 
Guard and Maritime Transportation Act of 2010 (Public Law 111-
282) required the Coast Guard to initiate a new examination 
program for all commercial fishing vessels. The Coast Guard has 
yet to fully implement this requirement, a failure attributed 
by the Service to lack of resources.
---------------------------------------------------------------------------
    \22\ U.S. Coast Guard 9/5/2019: Updated Subchapter M FAQs Now 
Available. September 5, 2018.
---------------------------------------------------------------------------

                              WITNESS LIST

PANEL I

    <bullet>  Rear Admiral Richard V. Timme, Assistant 
Commandant for Prevention Policy, United States Coast Guard
    <bullet>  The Honorable Richard Balzano, Deputy 
Administrator, United States Maritime Administration
    <bullet>  Mr. Brian Curtis, Director, Office of Marine 
Safety, National Transportation Safety Board

PANEL II

    <bullet>  Vice Admiral Brian Salerno, USCG, Ret., Senior 
Vice President, Maritime Policy, Cruise Lines International 
Association
    <bullet>  Mr. Adam W. Moilanen, Vice President of Health, 
Safety, Quality & Environment, American Bureau of Shipping
    <bullet>  Mr. Aaron Smith, President and Chief Executive 
Officer, Offshore Marine Service Association
    <bullet>  Ms. Colleen Stephens, Vice President, Passenger 
Vessel Association
    <bullet>  Mr. Paul Sterbcow, President, Louisiana 
Association for Justice


  COMMERCIAL AND PASSENGER VESSEL SAFETY: CHALLENGES AND OPPORTUNITIES

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:11 p.m., in 
room 2167, Rayburn House Office Building, Hon. Sean Patrick 
Maloney (Chairman of the subcommittee) presiding.
    Mr. Larsen [presiding]. The subcommittee will come to 
order.
    I ask unanimous consent that the chair be authorized to 
declare recesses during today's hearing.
    Without objection, so ordered.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    I am sitting in for Chair Maloney today, who is otherwise 
detained, and I want to say good afternoon and welcome to this 
afternoon's hearing on commercial and passenger vessel safety.
    As we approach the anniversaries of important maritime 
safety legislation, we need to know that Coast Guard-inspected 
vessels will be reliably safe, sound, and operable, especially 
in light of recent maritime casualties.
    Over the past 19 years, we have seen a string of maritime 
casualties here in the United States, from the catastrophic 
Conception dive boat fire that cost the lives of 33 passengers 
and 1 crewmember, the capsizing of the Golden Ray in Georgia, 
and countless other vessels, the past years have provided a 
continuous list of maritime casualties that is too long and 
tragic.
    I want to share my deepest condolences to the families of 
victims of these maritime tragedies.
    It is our responsibility as Congress to prioritize the 
lives and safety of crew and passengers over profits. This 
hearing is needed to evaluate the oversight of commercial and 
passenger vehicles and identify what is working and what needs 
improvement.
    The U.S. has a history of taking a reactionary approach to 
safety, creating maritime safety laws that follow tragedy, 
rather than preemptively strengthening safety requirements for 
a more robust fleet, one that is effectively regulated and 
inspected.
    Just last week, the L.A. Times described a contentious 
relationship between the Coast Guard and the National 
Transportation Safety Board, or NTSB. The Coast Guard's 
repeated failure to embrace and act on the NTSB's 
recommendations on passenger vessels has emerged as a 
persistent thread in recent maritime casualties. 
Recommendations from prior casualties continue to resurface in 
later accidents, and yet, the Coast Guard refuses to act. And I 
share the NTSB's concerns.
    Recent accidents on small passenger vessels demonstrate 
that poor preventive maintenance, lax fire prevention, and 
inadequate crew training, all continue as contributing factors 
leading to calamity. The Coast Guard is making a critical 
mistake by not acting more assertively on these 
recommendations.
    Moreover, the grandfathering of passenger vessels under the 
old T regulations emphasize these concerns. Revisions to 
subchapter T regulations for passenger vessels in 1994 were 
intended to create safer vessels, yet by grandfathering in 
older vessels, passenger vessel safety has been compromised by 
keeping older, less safe vessels in service far longer than 
desired. All of this could lead to additional and more deadly 
accidents in the future.
    Last year, Congress passed the Hamm Alert Maritime Safety 
Act of 2018 in wake of the sinking of the cargo vessel El Faro. 
This legislation focused on the Coast Guard's inspection 
program and oversight of recognized organizations. It also 
highlights the importance of safety management systems, or 
SMSs, on all vessels to prepare them for emergency scenarios.
    One year later, I expect to hear from the Coast Guard and 
the American Bureau of Shipping on a concrete action step they 
have taken to implement the act.
    Cruise vessels as well pose unique risks and 
vulnerabilities for passengers as safety on the high seas not 
only applies to the physical maintenance of the vessel, but to 
help passengers taken care of while at sea.
    When massive cruise ships embark, they are essentially 
floating cities. They have their own security and oversee 
thousands of individuals with high exposure to risk.
    In 2010, nearly a decade ago, Congress passed the Cruise 
Vessel Security and Safety Act to provide U.S. citizens more 
protections while vacationing on cruise ships. It was last 
amended in 2012, and has not been revisited since.
    In this environment, the chances of crime, especially 
sexual assault, are high, and the resources available to 
victims, scant. I look forward to hearing from Admiral Salerno 
on what the industry has done to implement the act.
    From cruise ships to cargo ships, from large ferries to 
small passenger vessels, one constant remains true: Oversight 
of safety measures is vital to protecting lives and property. 
It is the Government's and industry's responsibility to provide 
a safe and reliable maritime industry, and it is the work of 
this committee to do its oversight to make that happen so 
everyone who steps on a vessel safely reaches the end of their 
voyage.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
  Congress from the State of New York, and Chairman, Subcommittee on 
                Coast Guard and Maritime Transportation
    Good afternoon, and welcome to this afternoon's important hearing 
on commercial and passenger vessel safety.
    As we approach the anniversaries of important maritime safety 
legislation, we need to know that Coast Guard inspected vessels will be 
reliably safe, sound, and operable--especially in light of recent 
maritime casualties.
    Over the past 19 years we have seen saw a string of maritime 
casualties here in the United States. From the catastrophic CONCEPTION 
dive boat fire that cost the lives of 33 passengers and 1 crew member, 
to the capsizing of the GOLDEN RAY in Georgia, and countless other 
vessels, the past years have provided a continuous list of maritime 
casualties that is too long and tragic. I share my deepest condolences 
to the families of victims of these maritime tragedies.
    It is our responsibility as Congress to prioritize the lives and 
safety of crew and passengers over profits. This hearing is needed to 
evaluate the oversight of commercial and passenger vessels, and 
identify what is working, and what needs improvement.
    The United States has a history of taking a reactionary approach to 
safety; creating maritime safety laws that follow tragedy rather than 
preemptively strengthening safety requirements for a more robust fleet, 
one that is effectively regulated and inspected.
    Just this week the Los Angeles Times described a contentious 
relationship between the Coast Guard and the National Transportation 
Safety Board (NTSB). The Coast Guard's repeated failure to embrace and 
act on the NTSB's recommendations on passenger vessels has emerged as a 
persistent thread in recent maritime causalities.
    Recommendations from prior casualties continue to resurface in 
later accidents, and yet the Coast Guard refuses to act.
    I share the NTSB's concerns: recent accidents on small passenger 
vessels demonstrate that poor preventative maintenance, lax fire 
prevention and inadequate crew training all continue as contributing 
factors leading to calamity. The Coast Guard is making a critical 
mistake by not acting more assertively on these recommendations.
    Moreover, the grandfathering of passenger vessels under the ``old 
T'' regulations emphasize these concerns. Revisions to subchapter T 
regulations for passenger vessels in 1994 were intended to create safer 
vessels, yet by grandfathering in older vessels, passenger vessel 
safety has been compromised by keeping older, less safe vessels in 
service far longer than desired. All of this could lead to additional 
and more deadly accidents in the future.
    Last year Congress passed the Hamm Alert Maritime Safety Act of 
2018 in the wake of the sinking of the cargo vessel EL FARO. This 
legislation focused on the Coast Guard's inspection program and 
oversight of recognized organizations. It also highlights the 
importance of Safety Management Systems (SMSs) on all vessels to 
prepare them for emergency scenarios.
    One year later, I expect to hear from the Coast Guard and American 
Bureau of Shipping on the concrete action steps they have taken to 
implement this Act.
    Cruise vessels pose unique risks and vulnerabilities for 
passengers, as safety on the high seas not only applies to the physical 
maintenance of the vessel, but to how passengers are taken care of 
while at-sea. When massive cruise ships embark, they are essentially 
floating cities: they have their own security and oversee thousands of 
individuals with high exposure to risk.
    In 2010, nearly a decade ago, Congress passed the Cruise Vessel 
Security and Safety Act to provide U.S. citizens more protections while 
vacationing on cruise ships. It was last amended in 2012 and not been 
revisited since. In this environment the chances of crime, especially 
sexual assault, are high and the resources available to victims scant. 
I look forward to hearing from Admiral Salerno on what the industry has 
done to implement the Act.
    From cruise ships to cargo ships, from large ferries to small 
passenger vessels, one constant remains true: oversight of safety 
measures is vital to protecting lives and property. It is the 
government's and industry's responsibility to provide a safe and 
reliable maritime industry, and it is the work of this committee to do 
its oversight to make that happen so everyone who steps on a vessel 
safely reaches the end of their voyage.

    Mr. Larsen. Before continuing, I ask unanimous consent to 
insert statements from Congresswoman Matsui, the International 
Cruise Victims Association, and a paper from the International 
Organization of Masters, Mates and Pilots into the hearing 
record.
    Without objection, so ordered.
    [The information is on pages 71-85.]
    Mr. Larsen. And now I would call on the ranking member of 
the subcommittee, Mr. Gibbs, for an opening statement.
    Mr. Gibbs. Thank you, Chairman.
    Last Sunday marked the 44th anniversary of the sinking of 
the Edmund Fitzgerald on Lake Superior, made famous in the 
modern-day folk song, ``The Wreck of the Edmund Fitzgerald.'' 
The entire crew of 29 was lost, so it is appropriate that we 
hold this hearing on maritime safety this week.
    Sadly, we have had three significant marine casualties in a 
U.S.-flagged vessel in the last 4 years in which nearly 90 
lives were lost: The El Faro, the Missouri duck boat, and most 
recently, the Conception.
    In response to the Commandant of the Coast Guard's El Faro 
accident Final Action Memo, Congress adopted the Hamm Alert 
Maritime Safety Act to ensure the recommendations in that memo 
were implemented.
    The subcommittee looks forward to receiving the Final 
Action Memo on the Conception tragedy when it is complete.
    Today's witnesses will discuss changes made in the year 
since Congress passed the Hamm Alert Maritime Safety Act and in 
the near decade since Congress passed the Cruise Vessel 
Security and Safety Act of 2010.
    We will also examine the dramatically expanded Coast Guard 
maritime safety workload and how the Service is coping with 
that increased workload.
    In 2004, Congress brought ferries under Coast Guard 
inspection. In 2006, Congress brought towing vessels under an 
inspection regime, though that regime is only now being 
implemented. Finally, in 2010, Congress established a new 
examination and classification requirements for fishing 
vessels.
    Having brought nearly 75,000 vessels under additional 
security, the Coast Guard has received virtually no additional 
resources to carry out its marine safety work. This has led to 
increased use of third-party inspections. I look forward to 
hearing today what actions have been taken to ensure that the 
Coast Guard has sufficient authority to oversee this increased 
use of our third-party inspectors, and to maintain its own in-
house expertise.
    Mr. Chairman, thank you for holding this hearing today. I 
look forward to the witnesses' testimony, and I yield back.
    [Mr. Gibbs' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    Last Sunday marked the 44th anniversary of the sinking of the 
Edmund Fitzgerald on Lake Superior, made famous in the modern-day folk 
song, ``The Wreck of the Edmund Fitzgerald.'' The entire crew of 29 was 
lost, so it is appropriate that we hold this hearing on maritime safety 
this week.
    Sadly, we have had three significant marine casualties on U.S.-flag 
vessel in the last four years on which nearly 90 lives were lost--the 
El Faro, the Missouri duck boat, and most recently the Conception. In 
response to the Commandant of the Coast Guard's El Faro accident Final 
Action Memo, Congress adopted the HAMM Alert Maritime Safety Act to 
assure the recommendations in that memo were implemented. The 
Subcommittee looks forward to receiving the Final Action Memo on the 
Conception tragedy when it is complete.
    Today's witnesses will discuss changes made in the year since 
Congress passed the HAMM Maritime Alert Act, and in the near-decade 
since Congress passed the Cruise Vessel Safety and Security Act of 
2010.
    We will also examine the dramatically expanded Coast Guard maritime 
safety workload and how the Service is coping with that increased 
workload. In 2004, Congress brought ferries under Coast Guard 
inspection. In 2006, Congress brought towing vessels under an 
inspection regime, though that regime is only now being implemented. 
Finally, in 2010, Congress established new examination and 
classification requirements for fishing vessels.
    Having brought nearly 75,000 vessels under additional scrutiny, the 
Coast Guard has received virtually no additional resources to carry out 
its marine safety work. This has led to increased use of third-party 
inspections. I look forward to hearing today what actions are being 
taken to ensure the Coast Guard has sufficient authority to oversee 
this increased use of third-party inspectors, and to maintain its own 
in-house expertise.
    Mr. Chairman, thank you for holding this hearing.

    Mr. Maloney [presiding]. Well, I thank the gentleman. And I 
apologize to the panel for arriving late. We are dealing with 
some extraordinary circumstances that probably need no 
explanation.
    But you probably also realize that between Chairman DeFazio 
and Chairman Larsen, you have two gentlemen who have forgotten 
more about these issues than I am likely to ever learn. So you 
are in very capable hands.
    And with that, I would be happy to recognize the chairman 
for any remarks he might wish to make.
    Mr. DeFazio. Thanks, Mr. Chairman.
    The most important function of this committee is to ensure 
that all of the modes which are under our jurisdiction are as 
safe as is humanly possible.
    And as people know, we have been pretty much submerged--I 
guess wrong metaphor--but anyway, we have been working a lot on 
aviation with the MAX fatalities. But that doesn't mean that we 
aren't concerned about other modes in surface. We have 
fatalities increasing, pedestrian and cycling and et cetera. 
But here we are today to talk about maritime issues.
    In my vice chair's district, Salud Carbajal, the Conception 
disaster happened. And for the life of me--I live on a boat, 
and this is the third boat I have lived on, and there is always 
another exit. And I guess in this case both exits were blocked. 
I don't know how that happened. We don't have everything 
definitive from NTSB.
    We have the fishing boat burning and sinking off Barbers 
Point, Hawaii, and then the capsized and unsalvageable RoRo off 
of St. Simons Island, Georgia. So I think it is very 
appropriate that we are here today to revisit some of these 
issues.
    Some might remember the hearing we held on El Faro a few 
years ago. Thirty-three people died in that disaster. We held 
followup and oversight hearings, and we felt that we had to 
legislate, because the Coast Guard had allowed its marine 
safety branch to essentially atrophy, and we were depending 
upon classification societies and others.
    And I have always had concerns about the classification 
societies, because: ``Hey, come inspect my ship. Oh, wait a 
minute, you found all of those problems. I am going to hire 
someone next time to inspect the ship who might overlook those 
problems.'' I think there is an inherent conflict of interest 
there. I am not 100 percent certain how we can solve that, 
except from this committee's perspective: much more expertise 
and oversight by the Coast Guard of those classification 
societies, and check up actual inspections to see that they 
were conducted properly is really very critical.
    So we are going to talk today about the Hamm Alert Maritime 
Safety Act reforms that we adopted, and we want a status update 
from the admiral on that.
    I also want to learn if the cruise industry has fully 
complied with the requirements adopted in 2010 with the 
passenger Cruise Vessel Security and Safety Act. It is a very 
lucrative industry, and they can well afford to implement all 
of the provisions of that law.
    There is an old saying, all Coast Guard safety regulations 
are written in blood, as each new regulation reflects lessons 
learned from the latest marine disaster. What we want to do is 
get ahead of these issues as much as we humanly can. The sea is 
a difficult place. Accidents are still going to happen, but we 
want to avoid any that are preventable.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Chairman Maloney, thank you for scheduling this important maritime 
safety oversight hearing.
    One of the most important functions of the Transportation and 
Infrastructure Committee is our solemn responsibility to ensure that 
all the various modes of transportation under our jurisdiction are 
reliable, and most of all, safe to use by millions of people daily.
    As I am sure most people are aware, the Committee has been consumed 
of late with aviation safety, especially concerning the circumstances 
and issues surrounding two fatal air crashes involving the 737 MAX 
aircraft. Let me assure you that I am committed to using all the tools 
at my disposal as Chair to get answers that we need regarding problems 
related to the design, development, and certification of the 737 MAX, 
and moving forward with reforms to address whatever deficiencies we 
uncover.
    This afternoon we turn to maritime safety. Judging from the recent 
spate of high-profile marine casualties--a dive boat fire off the 
Channel Islands in California; a fishing boat burning and sinking off 
Barbers Point in Hawaii; and a capsized and unsalvageable RO-RO vessel 
off St. Simon's, Georgia--this hearing could not come at a better time.
    If anything, these maritime disasters remind us that when it comes 
to maritime safety, the sea remains a relentless threat; one that can 
strike without warning, without mercy, and at any time.
    Such was the case in 2015 with the loss of the cargo ship EL FARO, 
when a series of events left the vessel powerless and floundering in a 
sea whipped wild by Hurricane Joaquin resulting in the loss of the 
vessel along with her entire crew of 33 shipmates.
    This fatal marine accident, along with the investigations and 
reports filed by the Coast Guard and National Transportation Safety 
Board, prompted this Committee to enact a substantial package of marine 
safety reforms contained in the Hamm Alert Maritime Safety Act of 2018.
    Among these reforms, most prominent were new requirements for the 
Coast Guard to rebuild its internal marine inspection competence and 
proficiency. The Coast Guard had allowed this vital capability to 
atrophy over the past ten to twelve years as the agency annually 
``stole from Peter to pay Paul'' to plug funding shortfalls and 
maintain front line operations. This must stop, and the Coast Guard 
must rebuild competency in this area.
    Related, the Hamm Alert reforms also targeted the poor performance, 
or lack thereof, of the recognized organization--mostly Classification 
Societies--that conduct 3rd party vessel inspections on behalf of the 
Coast Guard.
    The use of 3rd party inspectors--itself a strategy adopted by the 
Coast Guard to meet the increased demand for vessel inspections while 
having fewer resources and people available--has always struck me as 
being compromised by an inherent conflict of interest whereby the 
person conducting the inspection is being paid by the vessel owner.
    The Hamm Alert reforms now require the Coast Guard to adopt 
transparency and accountability measures to ensure that all 3rd party 
inspectors remain clear of any conflict of interest, and most 
important, that they remain committed to conducting their important 
work with safety as the paramount interest, and nothing less.
    These are just a couple issues about which I will be interested to 
hear from our witnesses this afternoon. I also want to learn if the 
cruise industry has fully complied with the requirements adopted by 
Congress in 2010 with the passage of the Cruise Vessel Security and 
Safety Act.
    Considering the industry's rather substantial annual profits, 
especially from its North American and Caribbean markets, the cruise 
industry certainly has had more than enough money to comply with all 
the Act's requirements.
    In closing, there is an old saying that all Coast Guard safety 
regulations are written in blood as each new regulation reflects the 
lessons learned from the latest marine disaster.
    The reality is that we will never be able to eliminate the risks of 
going to sea. What we can do, however, is remain steadfast in our 
commitment to ensure that for those who go to sea, they do so on 
vessels that are built, maintained and operated as safely as possible. 
We should all honor that pledge. Thank you.

    Mr. DeFazio. With that, I yield back the balance of my 
time.
    Thank you, Mr. Chairman.
    Mr. Maloney. Well, I thank the gentleman. And I thank him 
for his leadership on issues of safety in this context and so 
many others, his career dedicated to safety, first and 
foremost.
    And I am pleased to welcome our witnesses today. I do want 
to express my thanks for your appearance. I am glad you got to 
hear my opening remarks, and I want to thank Mr. Larsen for 
doing that. I don't want my absence to be interpreted as a lack 
of concern for these issues. I think the work that you do in 
this space and the attention we are paying to it is critically 
important. So, again, thank you for being here.
    Happy to introduce our panel. We are blessed to be joined 
by Rear Admiral Richard Timme, Assistant Commandant for 
Prevention Policy for the United States Coast Guard; the 
Honorable Richard Balzano, Deputy Administrator for the United 
States Maritime Administration; and Mr. Brian Curtis of the 
Office of Marine Safety for the National Transportation Safety 
Board. Thank you again for your appearances.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written testimony is in the 
record, we would request that you limit your oral testimony to 
5 minutes so we may proceed with Members' questions.
    And with that, I am pleased to recognize Admiral Timme.
    You may proceed, sir.

     TESTIMONY OF REAR ADMIRAL RICHARD V. TIMME, ASSISTANT 
   COMMANDANT FOR PREVENTION POLICY, U.S. COAST GUARD; HON. 
      RICHARD A. BALZANO, DEPUTY ADMINISTRATOR, MARITIME 
 ADMINISTRATION; AND BRIAN CURTIS, DIRECTOR, OFFICE OF MARINE 
          SAFETY, NATIONAL TRANSPORTATION SAFETY BOARD

    Admiral Timme. Good afternoon, Chairman DeFazio, Chairman 
Maloney, Ranking Member Gibbs, and distinguished members of the 
subcommittee.
    Thank you for the opportunity to discuss the U.S. passenger 
vessel fleet and the Coast Guard's role in advancing a safe, 
secure, and environmentally responsible U.S. maritime industry.
    I ask that my written testimony be entered into the record.
    Mr. Maloney. Without objection.
    Admiral Timme. First, let me express our sincere 
condolences on the passing of Congressman Elijah Cummings, 
former chairman of this subcommittee, and staunch supporter of 
the Coast Guard. Without question, his conviction and passion 
to public service made us a better Coast Guard.
    The U.S. maritime transportation system supports $5.4 
trillion in economic activity, and more than 30 million jobs. 
As the Assistant Commandant for Prevention Policy, I set 
standards for safety, security, environmental stewardship, 
commercial vessels, facilities, mariners, and ensure the 
compliance with those standards and conduct investigations into 
violations and accidents across the system.
    On behalf of the Coast Guard, I would, once again, express 
our deepest sympathies to the families and loved ones of those 
who have perished in recent marine casualties. These tragedies 
are at the forefront of our minds as we strive to enhance the 
marine safety program.
    As I begin my role in this job, my priorities include 
reviewing the marine safety, regulatory, and policy framework; 
modernizing our marine safety workforce; and leveraging and 
assuring an effective oversight of third parties.
    We are working closely with the National Transportation 
Safety Board to determine the cause of recent casualties, and 
identify improvements to strengthen the framework and 
ultimately prevent future incidents. However, we are not 
waiting for final investigations to implement urgent and 
necessary safety action.
    The vessel compliance program is the systemic safety net 
designed to prevent accidents from occurring. All elements of 
that framework are interdependent and must function well for 
the system to work.
    The Coast Guard provides a critical mandated level of 
oversight, and is responsible for verifying U.S.-flagged 
vessels comply with applicable laws and regulations, and for 
foreign vessels, the Coast Guard conducts examinations to 
ensure each vessel is in substantial compliance with 
international convention.
    Equally important, a vessel's master and crew play 
essential roles and should be the first to recognize problems 
and take early corrective action. The vessel owner is obligated 
to support the master and crew's ability to maintain the vessel 
and operate it safely, and additionally, classification 
societies, recognized organizations, or third parties, should 
provide an expertise to ensure vessel systems are operating 
properly, and that the company and crew are fulfilling their 
roles in the safety net. All elements of this framework must be 
functioning well in the system.
    This is a challenge, given the current U.S.-inspected 
passenger fleet is technologically and operationally diverse. 
There are over 6,300 U.S.-inspected passenger vessels, 
including large inland river cruise ships, high-speed 
catamarans, large amphibious vessels, long-distance sport 
fishers, to name a few. Vessels in this fleet operate in 
diverse environments from the Bering Sea to the Great Lakes, 
from the Pacific to the Atlantic to the gulf coast. They may 
carry as few as 7 passengers, or as many as 1,000, and operate 
in a journey of a few minutes or many days.
    The U.S. fleet carries more than 200 million passengers 
annually. The cruise ship industry, comprised mostly of foreign 
vessels, adds to the fleet, and these vessels carry more than 
14 million passengers annually, making almost 10,500 arrivals 
at U.S. ports each year.
    The Coast Guard must have an adaptive and proficient marine 
safety workforce capable of operating in this complex 
environment, and we must continue to work effectively to 
implement marine inspector learning systems, and put oversight 
regimes in place that enable industry to safely embrace 
technology and advances in vessel design and operations as well 
as emerging passenger and crew demands.
    To this end, the Coast Guard will strive to continuously 
improve. We will get better. We will closely examine findings 
of all marine casualty investigations to improve that 
framework. We will wholly fulfill our regulatory oversight role 
to keep the maritime public safe. We take our responsibility to 
protect and safeguard those traveling aboard foreign and 
domestic passenger vessels seriously. It is my priority, and I 
will keep you informed as we move forward.
    Again, thank you for your enduring support of the Coast 
Guard, and I look forward to your questions.
    [Admiral Timme's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Rear Admiral Richard V. Timme, Assistant 
           Commandant for Prevention Policy, U.S. Coast Guard
                              introduction
    Good afternoon Chairman Maloney, Ranking Member Gibbs, and 
distinguished members of the Subcommittee. Thank you for the 
opportunity to be here today to discuss the state of passenger vessel 
safety and the Coast Guard's role in advancing a safe, secure, and 
environmentally responsible U.S. maritime industry.
    I would like to begin my testimony by expressing the Service's 
sincere condolences on the passing of Congressman Elijah Cummings, a 
former Chairman of this Subcommittee. Chairman Cummings was a 
tremendous and tireless supporter of the Coast Guard, as well as a 
caring legislator who challenged the Service to continue to improve. We 
are indeed a better Coast Guard because of his conviction, passion, and 
public service. The Coast Guard's marine inspection program recently 
celebrated the anniversary of its creation on October 1, 2019, as we 
marked the 181st year since the Congressional Act that served as the 
foundation of the Steamboat Inspection Service was passed. The first 
marine inspector, Captain Edward Tripp, was initially appointed 
steamboat inspector in the Port of Baltimore; coincidentally in 
Maryland's 7th District, Chairman Cummings' hometown.
    The Coast Guard has a long and proud tradition of serving the 
American boating public and marine industry through a robust and very 
professional Marine Safety program. Modern day Coast Guard personnel 
working in our compliance and standards programs likewise serve as the 
safety bedrock for the various passenger vessel fleets across America 
and its territories.
    Over a year ago, the Commandant released the Coast Guard Maritime 
Commerce Strategic Outlook to communicate the Service's vision for 
facilitating and enabling safe maritime commerce throughout the U.S. 
Marine Transportation System (MTS). From its origin, with the 
establishment of the Revenue Cutter Service, the Coast Guard has 
facilitated maritime safety and security to promote and safeguard 
American commerce for more than 229 years.
    Today, the transportation of cargo on water by the global maritime 
industry is the most economical, and efficient mode of transport. An 
estimated 90 percent of U.S. imports and exports move by ship through 
361 commercial ports, along 95,000 miles of shoreline and 25,000 miles 
of navigable river and coastal waterways. The MTS supports $5.4 
trillion in economic activity and more than 30.8 million jobs. 
Passenger vessels are a key component of the MTS, serving not only as 
recreational and leisure activities, but also as ferries and water 
taxis, as well as providing employment to owners, operators, 
shipbuilders, insurers and many others.
                         the prevention program
    The Coast Guard's Assistant Commandant for Prevention Policy is 
responsible for setting the standards for safety, security, and 
environmental stewardship for commercial vessels, facilities, and 
mariners; ensuring compliance with those standards; and conducting 
investigations of violations and accidents. The Coast Guard's role in 
regulating passenger vessels and the challenges the vessel compliance 
program faces as the Service exercises its authorities to protect these 
commercial passengers touches on all of these responsibilities.
    Commercial passenger vessels are an essential part of the MTS and 
the American way of life, and provide consumers the opportunity to 
fully experience and enjoy the marine environment in ways that cannot 
be accomplished ashore. Paying passengers come from every area of the 
country and around the world, and bring the full range of experience, 
from maritime first timers, to seasoned mariners. Aboard passenger-
carrying boats and ships, these passengers then become concentrated in 
a single location on the water, in groups ranging from less than six, 
to upwards of almost 9,000 combined passengers and crew aboard today's 
largest and most modern cruise ships. Given the potential associated 
risks, protecting passengers aboard these vessels is one of the 
Service's most vital missions as these vessels are carrying what we 
consider the ``world's most precious cargo.''
                   passenger vessel safety compliance
    The passenger vessel compliance program may be viewed as a systemic 
safety net that works to prevent accidents from occurring. The Coast 
Guard provides a critical level of mandated oversight. For U.S. flagged 
vessels, the Coast Guard is responsible for verifying that these 
vessels comply with laws and regulations and for ensuring the overall 
safety net is functioning as designed. For foreign vessels, the Coast 
Guard exercises Port State Control authorities and conducts 
examinations on foreign vessels to ensure each vessel is in substantial 
compliance with international conventions.
    Just as importantly, a vessel's master and crew are the front line 
of the program as they are often the first to recognize a problem and 
take early corrective action. The vessel owner has an obligation to 
support the master and crew's ability to maintain the vessel and 
operate it safely. Additionally, and where applicable, Classification 
Society, Recognized Organization, or Third-Party inspectors should 
provide effective technical expertise to ensure vessel systems are 
operating properly and the company and crew are fulfilling their roles 
in the safety net.
    The Coast Guard works closely with the Service's various 
Congressional oversight bodies, sister agencies, and industry 
stakeholders to assist in passenger vessel safety. Bodies such as this 
Subcommittee, as well as partners here today, including the National 
Transportation Safety Board (NTSB) and the Maritime Administration 
(MARAD), combine efforts and authorities to help build the passenger 
vessel safety framework. Additionally, numerous other maritime 
stakeholders are key contributors in implementing the marine safety 
regime and ultimately ensuring the safe transport of all passengers 
aboard vessels.
                complexity of the passenger vessel fleet
    The passenger vessel fleet is materially complex, as well as 
technologically and operationally diverse. For example, in San Diego, a 
vintage boiler vessel built in 1898 met the requisite requirements to 
hold a Coast Guard Certificate of Inspection. Meanwhile, under 
construction in San Francisco, the Coast Guard is working with the 
maritime industry to design, build, and safely operate the first 
hydrogen fuel cell ferry. There will also soon be LNG-fueled cruise 
ships departing U.S. ports carrying thousands of passengers equipped 
with state of the art engineering automation and environmental control 
systems.
    Passenger vessels may be in the form of a sail boat, charter 
fishing boat, water taxi, dinner cruise ship, ferry, or amphibious 
vehicle and be constructed of steel, aluminum, wood, or fiberglass. 
Operationally, these vessels may carry passengers overnight or 
underwater, maneuver at high speed as ``thrill'' rides, or have 
passengers dive below, tow behind or float via parasail beyond the 
confines of the vessel. The diversity of vessels and operations create 
a challenge for the industry and the Coast Guard alike. To safely 
operate, Coast Guard Marine Inspectors and vessel owners and operators 
must all understand the limitations, required maintenance, and 
potential risks for each vessel while ensuring the vessel meets a 
complex regulatory framework that is often based upon when the vessel 
was built.
    Unlike many other regulators, the Coast Guard manages almost all 
aspects of vessel safety under its regulatory authority. The Coast 
Guard publishes regulations and participates in the international 
bodies which outline the requirements for passenger vessels on 
international voyages. The Coast Guard reviews plans for vessels being 
built and supervises the construction to ensure they meet applicable 
standards. Once the vessel meets required regulations, a Coast Guard 
Certificate of Inspection or Certificate of Compliance is issued as 
proof of compliance, and Coast Guard Marine Inspectors conduct annual, 
semi-annual, or quarterly inspections as applicable. Likewise, the 
Coast Guard issues Merchant Mariner Credentials to the crew, which 
signify that the crew meets safety and competency standards assessed by 
the Coast Guard. The Coast Guard also investigates marine casualties 
and mariner misconduct and makes recommendations to improve safety or 
to remove a mariner's credential, if warranted.
    Our passenger vessel compliance model relies upon verification of 
the vessel's material condition and a sampling of exercises to assess 
the crew's performance. It is difficult for the regulatory regime to 
keep with the pace of change of technology. Vessels built 50 years ago, 
while in satisfactory condition and deemed safe to operate, may not 
meet the design expectations of modern passengers.
    Additionally, recent casualties have demonstrated that material 
condition is just one aspect in the overall safety of the vessel. The 
human factor--the master and crew--serves a vital role in the early 
detection and avoidance of potential hazards that may have severe 
consequences to life and property on these complex vessels.
    Finally, there are increasing cyber-related risks facing the MTS, 
and the Coast Guard is actively working to address these emerging 
risks. Related to the shipboard environment, the Coast Guard is working 
to address cyber vulnerabilities through the development of a cyber 
risk management regime incorporated within the existing conventions of 
the International Maritime Organization. The Coast Guard is also 
sponsoring the development of an industry specific cybersecurity 
framework profile for Passenger Vessel Operations with the National 
Institute of Standards and Technology.
    The Coast Guard will continue to modernize the Service's vessel 
compliance model to incorporate risk based inspection criteria, third 
party oversight, cybersecurity, and increased focus on mariner and 
human factor performance. The Coast Guard will also continue to improve 
the Marine Inspector Training Program, and will remain focused on 
successfully fulfilling our role in the safety net to advance a safe, 
secure, and environmentally responsible U.S. maritime industry.
                               conclusion
    I appreciate the opportunity to testify before you today regarding 
passenger vessel safety. This topic has the Coast Guard's utmost 
attention, and we will continue to evolve the Coast Guard's Marine 
Safety mission to keep pace with industry and consumer change, as we 
strive to ensure the continued safety, security and environmental 
compliance of this key component of the MTS.
    Thank you for all that you do for the men and women of the United 
States Coast Guard. I look forward to your questions.

    Mr. Maloney. I thank the gentleman.
    Mr. Balzano.
    Mr. Balzano. Good afternoon, Chairman DeFazio, Chairman 
Maloney, Ranking Member Gibbs, and members of the subcommittee.
    Thank you for the opportunity to testify today on the 
Maritime Administration, MARAD's, role in promoting the safety 
and security of the U.S.-flagged commercial fleet.
    I request that my full written testimony be submitted in 
the record.
    Mr. Maloney. Without objection.
    Mr. Balzano. Secretary Chao's number one priority is 
safety, and that focus extends to MARAD's programs. The 
maritime environment is remote, dangerous, and repetitive, 
which can increase the risk of accidents. MARAD plays an 
important role in educating and training U.S. mariners to face 
the challenges and hazards of living and working at sea.
    At MARAD, we believe a well-trained mariner is a safer 
mariner. MARAD educates and trains U.S. merchant mariners at 
the U.S. Merchant Marine Academy and supports the six State 
Maritime Academies and the Seafarers International Union, all 
of which adhere to the U.S. Coast Guard and international 
training requirements.
    At the academies, deck and engineering cadets must complete 
training and assessments required to obtain a U.S. Coast Guard 
Unlimited License as a 3rd Mate or 3rd Assistant Engineer. 
These training courses and assessment take place during the 
academies' 4-year curricula, which include classroom and hands-
on shipboard training.
    U.S. Merchant Marine Academy cadets spend 1 year working 
and learning at sea on commercial U.S.-flagged vessels. 
Building on knowledge from the classroom, this hands-on 
experience solidifies the best working and safest practices on 
board commercial vessels.
    Cadets at the State Maritime Academies receive most of 
their at-sea training aboard MARAD-provided training vessels. I 
would like to thank the Congress for funding two new modern 
training ships. The national security multimission vessel, 
which is currently in procurement, will greatly enhance our 
training capability.
    Additionally, MARAD supports the Department of Defense's 
strategic sealift requirements through our Government-owned 
Ready Reserve Force Fleet, and assured access to commercial 
vessels in the Maritime Security Program.
    As a fleet owner and operator, MARAD is committed to 
staying abreast of maritime industry safety and security 
trends, incorporating lessons learned from the real-world 
incidents.
    Security is another major concern for MARAD and the 
maritime industry. MARAD provides U.S.-flagged vessels with 
timely information on security threats through interagency 
coordinated maritime alerts and advisories.
    Moreover, DOT ensures proper and accurate reporting of 
incidents occurring on cruise vessels by collecting the data 
directly from the FBI and publishing it on our Department 
website.
    Safety and security regulations do not always keep pace 
with technology and practices. As a result, national and 
international industry standards often fill the gap. MARAD 
collaborates with the U.S. Coast Guard, the maritime industry, 
and technology developers, to develop industry standards that 
guide equipment requirements and usage.
    MARAD is currently working with the U.S. Army Corps of 
Engineers and the National Oceanic and Atmospheric 
Administration on a project to install automated weather 
stations on U.S.-flagged ships to improve weather forecasting 
and warning and provide for greater vessel-operational safety. 
Pairing this system with other onboard global positioning 
systems, GPS, may also assist in detecting GPS interference, 
which is a growing cybersecurity threat.
    The U.S. maritime workforce is a critical component of our 
Nation's economic and national security. Recognizing this, 
MARAD is looking at advances in remote operations to help to 
reduce the risk to mariners.
    MARAD recently partnered with industry to demonstrate 
remote operations of a spill response vessel that can help 
minimize mariner exposure to toxic and explosive environments 
responding to a hazardous spill.
    MARAD is exploring additional applications of data-driven 
systems, particularly in enhancing shipboard and port 
operations optimization.
    MARAD looks forward to continuing collaboration with our 
Federal partners in the maritime industry to improve vessel 
safety and security.
    I appreciate this subcommittee's interest and support of 
the U.S. merchant marine, and I am happy to answer any 
questions you may have.
    [Mr. Balzano's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Richard A. Balzano, Deputy Administrator, 
                        Maritime Administration
    Good afternoon, Chairman Maloney, Ranking Member Gibbs, and members 
of the Subcommittee. Thank you for the opportunity to testify today on 
the Maritime Administration's (MARAD) role in promoting the safety and 
security of U.S.-flag commercial vessels. Secretary Chao's number one 
priority is safety, and that focus extends to MARAD's programs. Safe 
operation of MARAD's National Defense Reserve Fleet (NDRF) and Ready 
Reserve Force (RRF), the privately-owned commercial Maritime Security 
Program (MSP) and Voluntary Intermodal Sealift Agreement (VISA) fleets, 
and all other U.S.-flag vessels is critically important to our maritime 
industry. MARAD is actively engaged with U.S.-flag commercial vessel 
operators to alert them to security threats and collaborate with them 
on emerging technologies and best practices to improve safety at sea. 
MARAD also plays an important role in educating and training U.S. 
mariners to ensure they are ready to face the challenges of living and 
working at sea, which includes encountering sometimes hazardous 
environments.
                            mariner training
    The marine environment can be dangerous by its very nature, so a 
well-trained workforce is critical to safe vessel operations. MARAD 
educates and trains U.S. merchant mariners at the U.S. Merchant Marine 
Academy (USMMA) and facilitates mariner education through the support 
we provide to the State Maritime Academies (SMAs). The U.S. Coast Guard 
(USCG) establishes training requirements that maritime academies must 
meet, and the USMMA and the SMAs modify their curricula accordingly. In 
addition, MARAD encourages the academies to incorporate lessons learned 
from real world incidents.
    At the academies, deck and engineering cadets must complete 
training and assessments required to obtain USCG Unlimited Licenses as 
3rd Mate and 3rd Assistant Engineer and the corresponding international 
Standards of Training, Certification and Watchkeeping endorsements as 
well. These training courses and assessments take place during the 
academies' four-year curricula. In addition to classroom and practical 
training ashore, cadets and midshipmen receive hands-on shipboard 
training on commercial vessels, the academies' training vessels, or a 
combination of both.
    For example, cadets at the USMMA receive formalized safety training 
throughout the curriculum. They learn everything from first aid and the 
proper use of personal safety equipment to aquatic survival and 
firefighting. As part of their education and training, USMMA cadets 
spend one year working and learning at sea on commercial U.S.-flag 
vessels, most of which are either MSP vessels or ships operated by the 
Military Sealift Command and crewed by civilian mariners. The cadets 
are integrated into the crews aboard these ships, which are actively 
engaged in commerce around the globe. Building on knowledge from the 
classroom, this first-hand experience solidifies the best working 
practices onboard the vessels, including safe vessel operations.
    Cadets at the SMAs receive most of their at-sea training aboard 
vessels MARAD provides. One of the ways MARAD supports quality training 
for these cadets is providing them with safe and modern training 
vessels. Congress has appropriated funds the past two years to replace 
the oldest vessels in the aging training vessel fleet. The new training 
ships will provide state-of-the-art platforms to allow for future 
mariners to keep up with the ever-evolving global maritime industry. 
The new vessels have been designed specifically to provide a robust 
training environment including a second bridge, multiple simulators, 
and laboratories and classrooms designed to provide focus on specific 
curricula. While these vessels will primarily be used by SMA cadets, we 
anticipate that USMMA cadets will also gain required sea time aboard 
them.
                           maritime security
    In addition to supporting U.S. mariner training, MARAD supports DOD 
strategic sealift requirements through our Government-owned vessels in 
the NDRF and RRF, as well as through assured access to commercial 
vessels in the MSP and VISA program. Security is a major concern for 
mariners who operate our ships and those who operate the broader 
commercial fleet. While we stay abreast of maritime security threats to 
our own assets, which include piracy, terrorism, criminal activity, or 
cyber-attack, MARAD also provides U.S.-flag vessels with timely 
information on those threats through interagency coordinated Maritime 
Alerts and Advisories. MARAD cooperates with the Departments of State, 
Defense, Justice, and Homeland Security, as well as the Intelligence 
Community, in providing those advisories. MARAD is also DOT's principal 
coordinator for maritime domain awareness functions and serves as a key 
facilitator between maritime industry and government agencies providing 
expert maritime security advice and assistance on issues involving the 
global maritime transportation system.
    Moreover, the Cruise Vessel Security and Safety Act of 2010 (CVSSA) 
directed DOT to ensure proper and accurate reporting of incidents 
occurring on cruise vessels. This information is collected from the FBI 
and made publicly available on the Department's website on a quarterly 
basis. The CVSSA also permitted MARAD to create a Training Provider 
Certification Program to help certify companies that provide commercial 
CVSSA training to cruise vessel members. Since its creation in 2015, 
this voluntary program has certified that training provided by these 
companies adheres to the training standards and curricula jointly 
developed by the U.S. Coast Guard, the Federal Bureau of Investigation, 
and MARAD. These training standards are enforced by the Coast Guard and 
include ensuring proper maintenance of video surveillance systems, 
displaying U.S. Embassy and Consulate information, and adhering to fire 
safety and emergency requirements for passengers.
          technology and innovation to improve maritime safety
    Safety regulations do not always keep pace with new technologies 
and practices. As a result, national and international industry-
developed consensus standards often fill the gap. MARAD collaborates 
with the USCG, maritime industry, and scientific and technological 
innovators to develop voluntary consensus standards that guide 
equipment requirements and usage. For example, in response to the surge 
in interest to use liquefied natural gas (LNG) as a marine fuel, MARAD 
led the development of standards for LNG transfer hoses and associated 
equipment. MARAD also uses its RRF and training vessels as platforms to 
demonstrate innovations in safety technology, including anti-snapback 
mooring lines and marine evacuation systems, where existing equipment 
poses risks to mariner safety.
    MARAD is currently working with the U.S. Army Corps of Engineers 
and the National Oceanic and Atmospheric Administration (NOAA) on a 
project to automate weather reporting from vessels. After prototype 
testing on MARAD vessels, automated weather stations are being 
installed on U.S.-flag ships for further demonstration and validation. 
These systems report weather data at three minute intervals through the 
ship's automated identification system (AIS). Additional weather data 
obtained from ships much more frequently should improve weather 
forecasting and warnings, and hence improve vessel operational safety. 
Pairing this system with other on-board Global Positioning Systems 
(GPS) applications may also assist in detecting GPS spoofing (e.g., 
altering vessel location information), which is a growing cyber 
security threat.
    The U.S. maritime workforce is a critical component to our Nation's 
economic and national security. Recognizing this, MARAD is looking at 
advances in remote operations that help to reduce hazards to mariners. 
MARAD recently partnered with industry to demonstrate remote operation 
of a spill response vessel that can help minimize mariner exposure to 
toxic chemicals. Similar remote technologies could be used in other 
areas where mariner risks are high, such as emergency response or 
vessel inspections. Remote systems also have a role to play in 
preventing intrusion and monitoring risks during maritime operations. 
MARAD is exploring additional applications of data driven systems 
particularly in enhancing engineering and navigation systems.
                               conclusion
    MARAD looks forward to continued collaboration with our Federal 
partners and the maritime industry to improve vessel safety and 
security. I appreciate this subcommittee's interest and support for the 
U.S. merchant marine and am happy to answer any questions you may have.

    Mr. Maloney. I thank the gentleman.
    Mr. Curtis.
    Mr. Curtis. Good afternoon, Chairman DeFazio, Chairman 
Maloney, Ranking Member Gibbs, and subcommittee members. Thank 
you for inviting the National Transportation Safety Board, 
NTSB, to discuss marine safety today.
    I request my written testimony be admitted into the record.
    The NTSB investigates accidents in all modes of 
transportation, determines the probable cause, and issues 
safety recommendations to prevent future accidents.
    Today, we will focus on two topics: small passenger vessel 
safety, and the importance of safety management systems, or 
SMS, on passenger vessels.
    On July 19th, 2018, the World War II-era amphibious 
passenger vessel, Stretch Duck 7, sank during a storm near 
Branson, Missouri, resulting in 17 fatalities. We continue to 
investigate this accident in parallel, but separate from the 
U.S. Attorney's criminal investigation. We have identified two 
safety issues we have seen before: insufficient reserve 
buoyancy, leaving these vessels vulnerable to rapid flooding 
and sinking, and impediments to passenger vessel emergency 
ingress/egress.
    We saw these same two issues 20 years ago in the 1999 
sinking of the Miss Majestic, another amphibious passenger 
vessel, that claimed 13 lives. Survivors from that accident 
confirmed that the vessel sank less than a minute after the 
deck edge submerged, leaving little opportunity for passengers 
to escape. Further, the vessel's canopy impeded their ability 
to safety egress from the vessel.
    We recommended at the time that the Coast Guard require 
greater stability and reserve buoyancy in amphibious passenger 
vessels. Until that was done, we urged the Coast Guard to 
require canopies be removed during waterborne operations, or 
that such vessels install a Coast Guard-approved canopy that 
does not restrict passenger escape. After the Coast Guard did 
not require our recommended improvements, we classified those 
recommendations as closed, unacceptable action.
    Now, we know that insufficient reserve buoyancy and a 
canopy that impeded the passengers' ability to escape served to 
worsen the tragic death toll when the Stretch Duck 7 sank last 
year.
    Accordingly, yesterday, the Board issued two new safety 
recommendations. We, again, call on the Coast Guard to require 
sufficient reserve buoyancy and the removal of canopies from 
those amphibious vessels that do not have sufficient reserve 
buoyancy. These known safety issues should no longer go 
unaddressed, or be left to voluntary compliance.
    On another front, late last year, we completed our 
investigation of the fire aboard the small passenger vessel 
Island Lady near Port Richey, Florida. One passenger died, and 
14 others were hospitalized. During the voyage, the captain 
encountered an engine alarm. Rather than shut the engine down, 
he left it idling, allowing it to continue to generate heat, 
which, in turn, ignited the exhaust system and surrounding 
structures, eventually consuming the vessel.
    Although Federal regulations require small passenger 
vessels to have fire detection and suppression systems in the 
engine rooms, the regulations do not require such systems in 
unoccupied spaces outside the engine room, which is where we 
determined the fire started. A recommendation to the Coast 
Guard has been issued related to this very matter.
    The NTSB has long advocated to the Coast Guard that all 
passenger vessels should implement a safety management system, 
a comprehensive, documented system, ensuring oversight of all 
vessel and shoreside operational safety aspects. An SMS is 
essential for enhancing safety on board passenger vessels, and 
the NTSB feels the Coast Guard should ensure such systems are 
required.
    In the case I just described, an SMS would likely have 
ensured greater adherence to completing crew training drills, 
ensuring appropriate responses to emergencies, and improved 
recordkeeping of training and maintenance, which is required of 
oceangoing vessels in international service.
    Finally, on September 2 of this year, the dive boat 
Conception caught fire and sank near Santa Cruz Island, 
California, with the loss of 33 passengers and 1 crewmember. 
Our investigators continue to gather information and review 
current regulations for vessels of this age, type, and 
operation, specifically regarding fire detection and alarm 
systems, evacuation routes, and crew training.
    The deadly loss of the Conception, just feet from shore, 
should remind the small passenger vessel industry that the 
potential for catastrophe is always present.
    The loss of the Island Lady reminds us that an SMS and 
robust preventive maintenance systems are necessary to improve 
the safety of any marine enterprise.
    Our investigation findings and recommendations represent 
lessons learned at the highest price. Action on NTSB 
recommendations provides a return in lives saved, injuries 
prevented, and property loss and environmental damage avoided.
    Thank you for your time today. I would be pleased to take 
any questions you might have.
    [Mr. Curtis' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Brian Curtis, Director, Office of Marine Safety, 
                  National Transportation Safety Board
    Good afternoon Chairman Maloney, Ranking Member Gibbs, and 
subcommittee members. Thank you for inviting me to testify on behalf of 
the National Transportation Safety Board (NTSB) to discuss our marine 
accident investigations and the safety lessons that we have learned 
from them.
    The NTSB is an independent federal agency charged by Congress with 
investigating every civil aviation accident in the United States and 
significant accidents in other modes of transportation--highway, rail, 
marine, and pipeline. We determine the probable cause of the accidents 
we investigate, and we issue safety recommendations aimed at preventing 
future accidents. In addition, we conduct special transportation 
studies and coordinate the resources of the federal government and 
other organizations to assist victims and their family members who have 
been impacted by major transportation disasters. Recommendation 
recipients can include any entity that can improve safety, including 
the United States Coast Guard (USCG).
    The NTSB is not a regulatory agency; we do not promulgate operating 
standards, nor do we certificate organizations and individuals. 
Instead, we advance safety through our most important product: safety 
recommendations. The goal of our work is to foster safety improvements 
for the traveling public. Although action might take years, 
recommendation recipients eventually act favorably on four out of five 
NTSB recommendations.
    Today, I would like to share some of the lessons we have learned 
from the roughly 50 marine accidents that we typically investigate each 
year. In particular, I will focus on safety issues related to small 
passenger vessel operations, the importance of safety management 
systems (SMSs) in marine operations, and some of the vital lessons 
learned from our investigation of the October 1, 2015, sinking of the 
cargo ship El Faro.
    We work closely with the USCG to investigate marine accidents, and 
my sincerest thanks go out to the USCG for its outstanding assistance 
in our investigative efforts. Our marine investigations are carried out 
contemporaneously with the USCG's; sometimes we reach the same 
conclusions, sometimes not. We greatly appreciate that the USCG sees 
our work as adding value, even if that means we must be at times 
critical of the organization's regulations and processes. Our 
relationship with the USCG is a collaboration focused on improving 
marine safety.
                     small passenger vessel safety
    Over a 4-year period in the mid-1990s, we included ``Small 
Passenger Vessel Safety'' on our Most Wanted List of transportation 
safety improvements (MWL).\1\ Although not all safety recommendations 
we have made regarding small passenger vessels have been addressed, 
small passenger vessel safety continues to improve by the 
implementation of the safety recommendations already issued. In 
addition, the Passenger Vessel Association developed crew emergency 
procedures and standards, including preincident planning for a variety 
of shipboard emergencies, which it distributed to its members. The 
association also agreed that its members would routinely provide 
predeparture emergency safety orientations.
---------------------------------------------------------------------------
    \1\ See the We Are Safer page [https://www.ntsb.gov/safety/mwl/
Pages/was6.aspx] regarding small vessel passenger safety on the Most 
Wanted List section of our website.
---------------------------------------------------------------------------
    However, we have investigated at least three significant accidents 
involving small passenger vessels in recent years, which indicates that 
there still are significant safety gaps to be addressed.
Branson, Missouri: Stretch Duck 7
    On July 19, 2018, the 33-foot-long, modified World War II-era DUKW 
\2\ amphibious passenger vessel, Stretch Duck 7, sank during a storm 
that developed rapidly on Table Rock Lake near Branson, Missouri. We 
continue to investigate this accident in parallel with the US 
Attorney's criminal investigation, which has delayed our access to 
information vital to determining the probable cause of this accident. 
However, the information we have so far has helped us identify two 
safety issues for these types of amphibious passenger vessels: 
insufficient reserve buoyancy (leaving vessels vulnerable to flooding 
and sinking) and impediments to passenger emergency egress.
---------------------------------------------------------------------------
    \2\ DUKW (pronounced ``duck'') is an acronym that signifies the 
characteristics of the WWII amphibious vessel: D = 1942 (the year of 
design); U = utility; K = front-wheel drive; and W = two rear-driving 
axles.
---------------------------------------------------------------------------
    It is worth noting that these safety issues are not new. In fact, 
they were identified almost 20 years prior to the Stretch Duck 7's 
sinking, after the 1999 sinking of the Miss Majestic, another DUKW 
amphibious passenger vessel, on Lake Hamilton, near Hot Springs, 
Arkansas. As a result of that sinking, 13 passengers died. Survivors of 
the Miss Majestic accident confirmed that the vehicle sank less than a 
minute after the deck edge at the stern was submerged, leaving 
insufficient opportunity for passengers to escape. Vessel maintenance, 
reserve buoyancy, and survivability--specifically, impediments to 
passenger egress caused by the vessel's canopy--were among the major 
safety issues identified by our investigation of the Miss Majestic 
accident.
    As a result of the Miss Majestic sinking, we recommended that the 
USCG require greater stability and reserve buoyancy in amphibious 
passenger vessels.\3\ Further, until the goals of that recommendation 
were achieved, we urged the USCG to require--among other measures--that 
canopies be removed from waterborne vessels, or that such vessels have 
installed a USCG-approved canopy that does not restrict horizontal or 
vertical escape by passengers in the event of sinking.\4\
---------------------------------------------------------------------------
    \3\ Safety Recommendation M-02-1. [https://www.ntsb.gov/safety/
safety-recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-02-001]
    \4\ Safety Recommendation M-02-2. [https://www.ntsb.gov/safety/
safety-recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-02-002]
---------------------------------------------------------------------------
    The Coast Guard agreed with the intent of our recommendations but 
sought to address them through Navigation and Vessel Inspection 
Circular (NVIC) 1-01, a guidance document that relies on voluntary 
compliance. After the USCG refused to require the recommended 
improvements, we classified Safety Recommendations M-02-1 and M-02-2 
``Closed--Unacceptable Action.''
    We believe that some of the fatalities that occurred when the 
Stretch Duck 7 sank likely resulted from the canopy and its framing 
preventing emergency egress. Our position on canopies on DUKW vessels 
has not changed since the Miss Majestic sinking, and the number of 
fatalities resulting from the Stretch Duck 7 sinking shows that 
canopies currently installed on modified DUKW vessels continue to pose 
an unacceptable risk.
    Accordingly, on November 6, 2019, we issued two safety 
recommendations to the USCG.

[M-19-016]
      Require DUKW amphibious passenger vessels (commonly referred to 
as original ducks and/or stretch ducks) to have sufficient reserve 
buoyancy through passive means so that they remain upright and afloat 
with a full complement of passengers and crewmembers in the event of 
damage or flooding.

[M-19-017]
      For DUKW amphibious passenger vessels without sufficient reserve 
buoyancy (commonly referred to as original ducks and/or stretch ducks) 
require the removal of canopies, side curtains, and their associated 
framing during waterborne operations to improve emergency egress in the 
event of sinking.
Port Richey, Florida: Island Lady
    Late last year, we completed our investigation into the fire aboard 
the small passenger vessel Island Lady near Port Richey, Florida, on 
January 14, 2018. The vessel, operated by Tropical Breeze Casino Cruz, 
shuttled passengers to and from an offshore casino vessel. As a result 
of the accident, one passenger died and 14 others on board were 
hospitalized.
    During the voyage, the captain received a high-temperature alarm 
for the port engine's jacket-water system. Rather than shut the engine 
down, he left it idling, allowing it to continue to generate excessive 
heat, which in turn affected the exhaust tubing and ignited its 
surrounding structure.
    The vessel owner had not given its vessel captains specific 
guidance about how to respond to high-temperature alarms. Although 
federal regulations require small passenger vessels to have fire 
detection and suppression systems in spaces containing propulsion 
machinery (such as engine rooms), the regulations do not require such 
systems in unoccupied spaces with engine exhaust tubing, which is where 
we suspect the fire on board the Island Lady started (in the 
lazarette). Further, the Island Lady's crewmembers lacked sufficient 
understanding of firefighting principles, and their training drills 
were infrequent or incomplete.
    This accident was particularly notable because of its commonalities 
with the 2004 fire aboard the small passenger vessel Express II, 
operated by the same company, in the same geographic location.\5\ 
Despite preventive maintenance and firefighting programs put in place 
in response to recommendations from the Express II investigation, 
crewmembers aboard the Island Lady were not sufficiently trained, and 
the maintenance program did not prevent noncompliant plastic tubing 
from being used where heat-resistant material was required.
---------------------------------------------------------------------------
    \5\ These were not the only issues we found as a result of this 
accident investigation. For more information, see the full report, Fire 
On Board US Small Passenger Vessel Island Lady, Pithlachascotee River 
Near Port Richey, Florida, January 14, 2018. [https://www.ntsb.gov/
investigations/AccidentReports/Reports/MAR1802.pdf]
---------------------------------------------------------------------------
    In response to this accident, we issued new recommendations to 
Tropical Breeze Casino Cruz to develop and apply an oversight system to 
its maintenance program, and to revise its training programs.\6\ 
Although we request responses to recommendation letters within 90 days 
of their issuance, we have not received any reply from Tropical Breeze 
Casino Cruze to either of these December 2018 recommendations which are 
currently classified ``Open--Await Response.''
---------------------------------------------------------------------------
    \6\ Safety Recommendations M-18-11 [https://www.ntsb.gov/safety/
safety-recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-18-011] 
and -12. [https://www.ntsb.gov/safety/safety-recs/_layouts/
ntsb.recsearch/Recommendation.aspx?Rec=M-18-012]
---------------------------------------------------------------------------
    We also issued two recommendations to the USCG to require fire-
detection systems in unoccupied spaces with machinery or other 
potential heat sources on board small passenger vessels, and to issue a 
Marine Safety Information Bulletin regarding the need to use only 
approved material and components in fuel tank level-indicator 
systems.\7\ The USCG has not replied to either of these recommendations 
which are also currently classified ``Open--Await Response.''
---------------------------------------------------------------------------
    \7\ Safety Recommendations M-18-13 and -14.
---------------------------------------------------------------------------
Santa Cruz Island, California: Conception
    Shortly after 3:00 a.m. on Monday, September 2, 2019, the 75-foot 
commercial diving vessel Conception, with 39 persons on board, caught 
fire while anchored in Platts Harbor, off Santa Cruz Island in 
California. The Conception was on the last night of a 3-day diving 
trip. Thirty-three passengers and one crewmember died, making this the 
largest loss of life in a US marine casualty in decades.
    Initial interviews of three crewmembers revealed that no mechanical 
or electrical anomalies were reported. A crewmember sleeping in the 
wheelhouse berths was awakened by a noise and got up to investigate. He 
saw a fire at the aft end of the sun deck, rising up from the salon 
compartment below. The crew attempted to access the salon and 
passengers below that deck, but were unable to do so. The vessel burned 
to the waterline by morning and subsequently sank in about 60 feet of 
water.
    The NTSB is the lead federal agency for this investigation. 
Investigators are scrutinizing the wreckage, as well as reviewing 
current regulations regarding vessels of this type, year of build, and 
operation; early warning and fire detection alarm systems; evacuation 
routes; training; and current company policies and procedures. We will 
keep the subcommittee informed of developments in this investigation as 
they occur.
                    safety management systems (sms)
    The NTSB has long advocated for all passenger vessel operators to 
implement an SMS: a comprehensive, documented system to enhance safety. 
Regardless of a company's size, an SMS ensures that each crewmember is 
given standard and clear procedures for routine and emergency 
operations. An SMS specifies crewmember duties and responsibilities, as 
well as delineates supervisory and subordinate chains of command, so 
that each crewmember understands what to do during critical vessel 
operations and emergency scenarios. Developing an SMS includes creating 
plans for crewmember responses to a range of possible emergency 
situations. SMSs also include procedures for performing and tracking 
preventive maintenance, as well as, procedures for crew training, 
emergency preparedness, documentation and oversight, and other actions 
that make safe operations a priority.
    The International Maritime Organization (IMO) requires that US 
vessels engaged in oceangoing international service operate under an 
SMS, but such a requirement is not in place for the domestic passenger 
vessel fleet. Following the 2010 allision of passenger ferry Andrew J. 
Barberi with a terminal at Staten Island, New York, in which 50 people 
were injured, we again recommended that the USCG require all operators 
of US-flagged passenger vessels to implement an SMS.\8\ After the Coast 
Guard initially responded that it was developing appropriate 
regulations for all US-flagged passenger vessels (part of Public Law 
111-281), we classified Safety Recommendation M-12-3 ``Open--Acceptable 
Response.'' However, in April 2014, after more than 3 years since 
Congress authorized the Coast Guard to mandate SMS, and nearly 1 year 
since the Coast Guard (in its response to Recommendation M-12-3) 
expressed its intent to initiate rulemaking, we classified the 
recommendation ``Open--Unacceptable Response.''
---------------------------------------------------------------------------
    \8\ Safety Recommendation M-12-3 [https://www.ntsb.gov/safety/
safety-recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-12-003]. 
See also Safety Recommendations M-05-6 [https://www.ntsb.gov/safety/
safety-recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-05-006] 
to the Coast Guard, and M-05-2 [https://www.ntsb.gov/safety/safety-
recs/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-05-002] to the 
New York City Department of Transportation resulting from the 2003 
Andrew J. Barberi allision with a pier at Staten Island, New York; M-
10-7 [https://www.ntsb.gov/safety/safety-recs/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=M-10-007] to ferry operator Interstate 
Navigation Co. resulting from the 2008 collision between its vessel 
Block Island and Coast Guard cutter Morro Bay on Block Island Sound, 
Rhode Island; and M-14-7 [https://www.ntsb.gov/safety/safety-recs/
_layouts/ntsb.recsearch/Recommendation.aspx?Rec=M-14-007] to ferry 
operator Seastreak, LLC resulting from the 2013 allision of its vessel 
Seastreak Wall Street with a pier at Manhattan, New York.
---------------------------------------------------------------------------
    We continue to believe that an SMS is an essential tool for 
enhancing safety on board all US passenger vessels, and that the USCG 
is the appropriate authority to ensure such systems are implemented and 
enforced. In the case of the Island Lady and Tropical Breeze Casino 
Cruz, a Coast Guard requirement for an SMS would likely have ensured 
greater adherence to completing crew training drills, appropriate 
responses to emergencies such as alarms and fires, and improved record-
keeping of training and maintenance-related documents. Implementing an 
SMS on all domestic passenger vessels would further enhance operators' 
ability to achieve the higher standards of safety that the Coast Guard 
requires of US oceangoing vessels in international service. Currently, 
numerous operators of domestic small passenger vessels have voluntarily 
implemented SMSs that include integral preventive maintenance programs.
    In the Island Lady investigation, we reiterated recommendations 
that the USCG require preventative maintenance programs for companies 
operating domestic passenger vessels (M-02-5) and that it require that 
vessel operators implement an SMS (M-12-3).\9\
---------------------------------------------------------------------------
    \9\ For more information, see page 46 of the full report, Fire On 
Board US Small Passenger Vessel Island Lady, Pithlachascotee River Near 
Port Richey, Florida, January 14, 2018 [https://www.ntsb.gov/
investigations/AccidentReports/Reports/MAR1802.pdf]
---------------------------------------------------------------------------
    We continue to support a federal requirement for small passenger 
vessel operators to implement an SMS.
Atlantic Ocean, Northeast of Acklins and Crooked Island, Bahamas: El 
        Faro
    On October 1, 2015, the US-flagged cargo ship El Faro sank in the 
Atlantic Ocean about 40 nautical miles northeast of Acklins and Crooked 
Island, Bahamas, during Hurricane Joaquin, claiming the lives of all 33 
crew members. Our investigation identified several major safety issues, 
including the captain's actions, currency of weather information, 
bridge resource management, company oversight, damage control plans, 
and survival craft suitability.
    On September 29, 2015, the El Faro departed its homeport in 
Jacksonville, Florida, on a 1,100-nautical-mile (nm) planned voyage to 
San Juan, Puerto Rico, slated to arrive in the early morning hours of 
October 2. However, the ship sailed directly into the path of Hurricane 
Joaquin, a Category 3 storm that reached Category 4 strength shortly 
after the El Faro sank, at approximately 8:00 a.m. on October 1.
    The captain's insufficient action to avoid Hurricane Joaquin due to 
his failure to use the most current weather information and the lack of 
appropriate survival craft for the conditions were critical factors in 
the probable cause of El Faro's sinking and the loss of 33 lives. 
Although the ship and its crew should never have found themselves 
sailing into the storm, many other factors, including ineffective 
bridge resource management, inadequate company oversight and safety 
management, flooding, propulsion loss, and the lack of an approved 
damage control plan also contributed to the sinking.
    On December 12, 2017, following a 26-month investigation, we 
determined the probable cause of the sinking and made 53 safety 
recommendations (we issued 10 urgent recommendations prior to the Board 
meeting). This was the most resource-intensive marine investigation in 
the NTSB's history. The resulting 63 safety recommendations, if acted 
upon, will yield a generational advance in marine safety.
    The USCG has been responsive to the recommendations we made as a 
result of the El Faro investigation; however, changing the Coast 
Guard's regulations alone would have little impact in the international 
realm because, in international waters, International Maritime 
Organization (IMO) regulations hold sway. Even in US waters, it is not 
always the case that the United States is the ``flag state'', since 
there are many foreign-flagged vessels plying our waters. In the case 
of El Faro, the United States was the flag state; however, since the 
accident lessons are applicable to other oceangoing vessels, we 
recommended that the Coast Guard propose changes to the IMO on behalf 
of the United States. We believe these changes would save lives in 
waters around the world.
    We also issued recommendations to the American Bureau of Shipping--
the US classification society--and to the International Association of 
Classification Societies. Classification societies establish and 
maintain standards for the construction and operation of ships.
    Our recommendations also recognized a systemic problem with 
lifesaving equipment. The El Faro was outfitted with open lifeboats, 
which, for about 30 years before the sinking, would not have been legal 
on an otherwise equivalent new vessel. El Faro was ``grandfathered 
out'' of this requirement. We recommended that the Coast Guard, at 
regular intervals not to exceed 20 years, review all lifesaving 
appliances on such vessels.
                               conclusion
    The loss of El Faro shook the marine shipping world, and 
Conception's loss, just feet from shore, reminded the small passenger 
vessel world that the potential for catastrophe is always present. SMSs 
and required preventive maintenance are necessary to improve the safety 
of any marine enterprise, including that of small passenger vessels.
    Our accident findings and recommendations represent lessons learned 
at the highest price. To put safety recommendations into action 
provides a return on investment in lives saved, injuries prevented, and 
property loss and environmental damage avoided.
    Thank you for your consideration of these important marine safety 
matters. I would be pleased to take any questions you might have.

    Mr. Maloney. I thank the gentlemen for their statements.
    We will now proceed to Members' questions, observing the 5-
minute rule.
    I recognize myself for 5 minutes.
    Admiral Timme, you heard in my opening statement some of 
the concerns raised by the Los Angeles Times recently. I wanted 
to give you an opportunity to correct anything you think I said 
through my colleague, Mr. Larsen, that might have been unfair 
or incorrect. And I would love to get the thoughts of the NTSB. 
I think you understand the issue. You understand the issue is 
whether we are sufficiently implementing recommendations of the 
NTSB, and if not, why not? I want to give you an opportunity to 
respond.
    Admiral Timme. Thank you, Mr. Chair.
    The Conception fire is a tragedy. And upon learning of it, 
we dispatched our lead marine investigator, the head of our 
investigation shop, to go out there. And he was there the next 
day, along with NTSB, to begin looking at the circumstances. 
And as alluded to, that investigation continues.
    One of the things that we also did was to charter a small 
passenger vessel task force internally, as well as direct a 
concentrated inspection campaign on all vessels of that type 
carrying overnight passengers across the country. That happened 
immediately after.
    I have asked my team to take the results of that, when they 
are complete, as well as the NTSB recommendations, and we need 
to look at that framework now and reevaluate post--what we 
learned from this short-term walk as well as the long-term 
Marine Board investigation, but relook at, including NTSB's 
recommendations, what to do with our small passenger framework.
    Mr. Maloney. Mr. Curtis, do you have anything to add to 
that?
    It is not required, but it is--I want to give you an 
opportunity to comment.
    Mr. Curtis. I would say we look forward to the 
implementation of our recommendations. Some of these have been 
outstanding for an extended period of time, and those more 
recent ones, we feel are critical to the safety of passenger 
vessels. So we look forward to working with the Coast Guard on 
these recommendations to get these implemented.
    Mr. Maloney. Admiral, can you give us an update on the 
Coast Guard's assistance in developing MOB standards with the 
IMO?
    Admiral Timme. Thank you, Mr. Chair. The MOB standards, for 
man overboard standards, as part of the Cruise Vessel Security 
and Safety Act. We are working with IMO and the International 
Standards Organization, and together have created a standard, a 
draft standard, for the MOB.
    We worked through that international process to come to an 
official standard that we hope to adopt into the rulemaking, 
adopt and make the standard. So we are looking forward to that 
within the next year to be able to then promulgate the rule.
    Mr. Maloney. And so what is your timeframe for promulgating 
a rule?
    Admiral Timme. I would say we are looking at the next 12 
months as we work with the International Standards 
Organization, and that body to approve it and then incorporate 
it.
    Mr. Maloney. And how long have we been working on the rule?
    Admiral Timme. Sir, we have been working on it since its 
passage in 2010 and 2012, and then immediately put into action 
11 of the 15, self-executing, and have been working with 
industry and cruise ships to make sure that was in place, but 
this is an outstanding piece that we need to continue to work.
    Mr. Maloney. We look forward to that being completed, sir.
    I yield the balance of my time.
    Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    Admiral, since 2004, the Congress enacted legislation to 
bring ferries and towing vessels under inspection, require 
examination and classification for fishing vessels and increase 
the safety requirements on, as you know, cruise vessels.
    The question is, has the Coast Guard been able to keep up 
with these increased statutory requirements in terms of--I got 
three points here. The first point would be services budget and 
the number of personnel needed. I will just go through it. 
Expertise, able to cope to the breadth of the U.S.-flag fleet 
from our old steamships, which we rely on to meet our military 
sealift needs, and the new state-of-the-art vessels just coming 
into service; and the third would be the Service's ability to 
effectively oversee the third-party inspectors now doing much 
of the day-to-day inspection work. So those three points. What 
is the status?
    Admiral Timme. Thank you, Congressman.
    So to your point about the ability of resources and 
expertise to take on the challenges that you have outlined, it 
is, in fact, a challenge for us, and we have to divide among 
our lines of effort the ability to address each of those 
problems or each of those challenges.
    For instance, the expertise issue, steam, we have created a 
new steam course, in working with our partners, and that was 
part of, I believe, the Hamm Alert Maritime Safety Act as well.
    We also have gone into the modernization of our marine 
inspections workforce with a program that will baseline how we 
train this workforce. The expertise in that workforce is 
critical to being able to handle the capacity of demand that 
you have mentioned. So we have put resources into that this 
year, in a 2-year program that will conclude next year with new 
training, new delivery methods, blended training, both online 
and in person, that is more in keeping with modern education 
for our workforce.
    We have to look at risk-basing our framework. We will have 
to prioritize our limited finite resources to the highest risk. 
We continue to do that in all our fleets, and we need to 
develop that in the small passenger vessel fleet as well.
    And third parties is the other portion you mentioned. We 
have continued to develop that for--subchapter M, the towing 
vessel fleet, is a crucial piece to handle the nearly 6,000 
vessels that are added through that. But, really, to revamp it 
post-El Faro and Hamm Alert Maritime Safety Act, revamp our 
relationship with recognized organizations who act on our 
behalf, and inject the discipline into that so that they, when 
acting on our behalf, are carrying out our desires with regards 
to the framework.
    And so we have worked hard with our partners to, one, 
publish a framework on our interpretation of the International 
Safety Management Code, to set a baseline for the third parties 
to look at, and then to make a more robust relationship from 
the port level, where our inspectors work with the surveyors of 
DNV and ABS and the rest, up to leadership level.
    Mr. Gibbs. Thank you. I want to get to the next question. I 
am running out of time.
    But on September 12th, the Coast Guard's Great Lakes 
Pilotage Advisory Committee unanimously agreed to recommend 
that in April of each year, they meet with the Coast Guard and 
stakeholders to facilitate what the rates will be for the 
pilots. The Coast Guard, do you intend to work with this 
committee, unanimously made this recommendation, to work 
together to figure out what the rates should be for the fees?
    Admiral Timme. Congressman, the Federal advisory committee 
for the Great Lakes is absolutely one of the valuable advisory 
committees that we take in order to perform our job across all 
of the missions.
    We have had a great 3 years working with GLAC-PAC, or the 
Great Lakes Advisory Committee, on rate setting. There are 
challenges to that, and we make sure that we are transparent 
and sit down with that committee. And we are happy to continue 
to sit with them as we go through that framework to set the 
rates.
    Mr. Gibbs. I would think it should be an open process and 
work together to facilitate that.
    During the inspection requirements, Admiral, subchapter T 
vessels, subject to the post-1996 regulations and those 
grandfathered small passenger vessels subject to pre-1996 
regulations, will the Coast Guard casualty investigation look 
at whether this application of post-1996 regulations might have 
changed the outcome of the passengers aboard the Conception 
accident?
    Admiral Timme. Congressman, that is exactly what this 
Marine Board of Investigation is tasked at looking at. All of 
the pieces of the framework that are involved, from the 
construction standard you mentioned to the operation of the 
crew and the owner, to the maintenance post-certification of a 
Coast Guard inspection.
    If the investigation comes back and points to the pre-1996 
standard as a causal factor, we will react to that with policy 
and/or rule.
    Mr. Gibbs. Thank you.
    Amount of time yield back.
    Mr. Maloney. I thank the gentleman.
    Also in my absence, I know we expressed our condolences and 
concerns for the victims of the Conception tragedy. I know we 
are also pleased to be joined by Representative Salud Carbajal, 
who represents the district in which that tragedy occurred. We 
thank the gentleman for his appearance today. I know he has 
been in the forefront of efforts to respond to that 
appropriately. And we look forward to his questioning on 
today's panel. At this time, I would like to recognize Mr. 
Lowenthal.
    Mr. Lowenthal. Thank you, Chairman Maloney.
    Admiral Timme, in the recent past, we know the Coast Guard 
has placed an increased emphasis on combating illegal charters 
in light of multiple fatalities and other significant safety 
concerns from commercial passenger vessels.
    For example, one tragic casualty occurred near St. 
Petersburg, Florida, from the vessel, Jaguar, in 2017 where a 
crewmember unsuccessfully attempted to rescue a fatigued 
passenger in the water during rough weather, which resulted in 
both men losing their lives. And we understand that there is an 
active criminal investigation going on at this time. But can 
you describe the importance of crew training and man overboard 
drills?
    Admiral Timme. Thank you, Congressman. Absolutely. You 
point to critical factors in this framework for passenger 
vessel safety.
    Not only the certification of the construction of the 
vessel that carries passengers, but the training of the captain 
and crew who are responsible for their safety. That would 
require for any passenger, any paying passenger, six-pack and 
above--excuse me, seven and above, that is a Coast Guard 
license of a certain level, and at six-pack and below, that is 
also another license, that is ensured first aid training, basic 
seamanship, things designed to keep the person in charge from 
making decisions that put their passengers at risk, like going 
into an area and making a swim call in conditions that were not 
warranted.
    We have worked hard with outreach and education across the 
country, particularly in the pockets where illegal charters are 
more common, to make sure that this is addressed, and work with 
the U.S. Attorney's to prosecute in those areas.
    This last weekend in Fort Myers, a public outreach campaign 
of a Coast Guard station with local television crew was out 
doing the outreach and actually did termination of an illegal 
charter. So those are the steps we are out there doing to 
address that.
    Mr. Lowenthal. I have a question also to follow up, and 
maybe you have answered it. But just to be clear, is crew 
training required on uninspected--not inspected--but 
uninspected passenger vessels?
    Admiral Timme. Congressman, on an uninspected passenger 
vessel, the only crew that would be required would be the 
captain.
    Mr. Lowenthal. That is the only training?
    Admiral Timme. And the captain would receive the basic 
training that went with that uninspected passenger vessel 
license, basic seamanship, first aid.
    Mr. Lowenthal. So you are saying that commercial passenger 
vessel, besides the captain, has no requirement to have crew 
training in emergency situations?
    Admiral Timme. Congressman, to your question--and happy to 
take specifics on this. But when we talk about six-pack and 
below--six passengers and below--that is the way I took your 
question. If I took that wrong, I will correct that.
    Mr. Lowenthal. OK.
    Admiral Timme. But for six and below, it is just the 
captain.
    To a regular T boat, what we call the small passenger 
vessel fleet, there is, indeed, training for the captain, but 
the crew may or may not--a deckhand may or may not be trained 
and licensed.
    Mr. Lowenthal. So there is no requirement?
    Admiral Timme. Correct.
    Mr. Lowenthal. So could the Coast Guard provide us with 
investigation statistics regarding crew training on uninspected 
and inspected passenger vessels?
    Admiral Timme. Congressman, I will take that for the 
record. Absolutely.
    Mr. Lowenthal. Thank you. I appreciate that.
    I appreciate your testimony highlighting the increasing 
cybersecurity risk to our maritime transportation system and 
the Coast Guard's efforts to establish cybersecurity standards 
for passenger vessels operating operations with NIST.
    Can you give us an update on these efforts, when can we 
expect the framework or the standards to be completed?
    Admiral Timme. Congressman, we addressed cyber across many 
parts of the new transportation system. We have worked with IMO 
since 2016 to create an international standard for assessment 
of risks; and then 1 year later, we led the effort at IMO, 
internationally, to require cyber be addressed in safety 
management systems for ships.
    Here, we work at this area level, or the port level, to 
ensure every port will do an assessment of cyber risks in the 
port. Below the port level, we get to the facilities. The 
facilities themselves will be required--not required, but 
advised, through policy, to work off of a National Institute of 
Standards and Technology framework. At least that is what a 
draft of our current guidance showed.
    We will then bring that down to the vessel level as well, 
where we recommend that industry begin to lead themselves to 
compliance with cyber standards of hygiene and assessment. This 
is where the risk lies for them.
    Mr. Lowenthal. I thank you, Admiral.
    And I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Mast.
    Mr. Mast. Thank you, Chairman.
    And, thank you, Admiral, Mr. Balzano, Mr. Curtis, for 
sharing the information that you have with each of us.
    I want to talk about safety, but from a little bit 
different perspective. And I believe this question will be 
directed towards Mr. Curtis--I think you are the most suited to 
answer this, but I open this up to any of you that feel you can 
answer this.
    I want to talk about markers, aids to navigation, 
specifically, that we put out there to hopefully allow for 
mariners to navigate safety, and navigate in times of reduced 
visibility.
    Now, I was prompted to ask this question because my 
community was recently rocked when a mother and a 1-year-old 
child were on a vessel that struck a navigational beacon in a 
time of reduced visibility, and they were killed. And so that 
prompts this line of questioning.
    I am trying to understand, what is the rationale that 
exists for why there may be a day beacon used, or a light used 
or if a can or a nun has a light on it, or whether bridge 
markers or pilings, other aids to navigation, you know, whether 
they are marked in a lit fashion or not? And specifically 
looking at Florida where this occurred, inland waterways and 
intercoastal waterways, maybe to be more specific.
    Mr. Curtis. Thank you for the question, sir. I am not 
familiar with that accident. We have done some accidents 
involving aids to navigation, very few, not recently. I don't 
want to throw it over, but maybe the admiral may be better 
suited to answer your question, sir.
    Admiral Timme. Congressman, thank you for the question.
    So there are a couple of different ways when you look at a 
port area that we will seek to establish what aids to 
navigation are appropriate for that.
    We will do either a waterway assessment, which is typically 
from our navigation office here at headquarters, working with 
local stakeholders, and that is done on a rotating basis in the 
port areas, to look at what new needs might be arising from the 
waterway for its navigation.
    The other one is a port and waterway safety assessment, 
again, done locally by the captain of the port or the OCMI, 
that office there, working with stakeholders like pilots, 
Harbor Safety Committees, industry, recreational groups, to 
look at traffic and what type of aids to navigation would be 
appropriate there to change that. There is a process to change 
it, if they need to be updated.
    Mr. Mast. Can you discuss a little bit further, in the time 
remaining, the process to upgrade and change?
    Admiral Timme. I am sorry, sir. I missed the first part.
    Mr. Mast. Could you discuss, in the time remaining, the 
process of go out there and upgrade and change some of these 
aids to navigation, to make them be in a lit fashion?
    Admiral Timme. So the overall process--and I was able to do 
one of these in Tampa Bay around 2002. It is a multiday 
workshop process that would start with invitations to the 
stakeholders. And again, this is the big process. An individual 
who wanted to petition for a change could come directly to 
Coast Guard headquarters or the local county port. But the 
larger process is a transparent one, where we bring in 
particularly the Pilots Association, the Harbor Safety 
Committee, local industry, recreational boaters is typically 
important, port authorities that deal with what vessels are 
coming in, and so--because that is important to the 
characteristics of turning basins and other aids to navigation.
    So over a 2- to 3-day workshop, they will do a risk 
assessment, they will score it, they will rank it, and they 
will make a recommendation at the end in a report that will go 
to Coast Guard headquarters. And then, my office of navigation 
will look at that and update typically in the next aids to 
navigation cycle what would go there.
    Floating aids are much easier than fixed aids. Fixed aids 
are a little more resource-intensive. And particularly larger 
aids, like ranges, range lights, would be particularly 
challenging to do in a quick budget cycle.
    Mr. Mast. Thank you. I appreciate it.
    And, Chairman, I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your presence here today and 
your commitment to improving our waterway safety.
    I wanted to ask you, Admiral, a question or two about the 
Towing Safety Advisory Committee. And as you know, that is the 
Federal advisory committee for towing and industry safety. And, 
apparently, brought to my attention by some of my constituents 
who have been actively involved or engaged with the work of the 
committee, that the Coast Guard was unable to secure the 
Department of Homeland Security's reapproval of the committee's 
charter prior to its expiration in early July.
    The Coast Guard Authorization Act of 2018 reauthorized the 
Towing and Safety Advisory Committee under a new name, the 
National Towing Safety Advisory Committee.
    So my question is, essentially, what is the status of 
reconstituting, or establishing, this newer iteration of the 
Towing Safety Advisory Committee? Do you anticipate that 
members that were currently serving on that committee are being 
considered and perhaps may serve on this newly constituted 
committee?
    Admiral Timme. Congressman, we have clarified with 
congressional staff, the committee staff, our take on that 
direction from the Authorization Act, and we intend to keep the 
committees in place, as-is, through their intended expiration 
at the end of 2020.
    So we will reconstitute as-is the current membership, the 
current charter, as we work on renewing all of the Federal 
advisory committees in accordance with congressional intent, so 
that they are redone under the new names, new charters at the 
end of next year. That is when membership may change, if we 
resolicit for membership, but I am happy to follow up on any 
membership issues with you.
    Mr. Brown. And then just to clarify as a followup. So 
during the period that we are in right now, are you continuing 
to formally solicit input from the existing members of the 
Towing Safety Advisory Committee?
    Admiral Timme. That is my intent, to use the existing 
committee members as the advisory to the framework. But again, 
there are often many opportunities for different stakeholders 
that would be on that committee to bring input to the Coast 
Guard. But as constituted, we will take that membership advice.
    Mr. Brown. All right. And again, all of this is just 
clarification. I know that the Towing Safety Advisory Committee 
works on several tasks. And so this task work, does that 
continue today?
    Admiral Timme. That is correct, Congressman, it should be.
    Mr. Brown. OK. Great. Thank you.
    I yield back, Mr. Chairman.
    Mr. Maloney. I thank the gentleman.
    I would now like to recognize Mr. Gallagher for 5 minutes 
of questioning or shaving, whichever he prefers.
    Mr. Gallagher. Wow. That was a low blow, Mr. Chairman. I am 
not sure of all the products available in Wisconsin, so I just 
want to give the gentleman every opportunity.
    It is called a hunting beard.
    So to follow up on the questioning about the Towing Safety 
Advisory Committee, which provided recommendations to the Coast 
Guard in 2015 on the improvement of marine casualty reporting, 
the 2016 Coast Guard Reauthorization Act required the Coast 
Guard to provide a report to Congress on the actions the agency 
would take to implement its recommendations.
    A lot of my constituents believe that the report shows that 
the Coast Guard has not gone far enough in implementation. They 
believe that the Coast Guard's vast amount of marine casualty 
data should be systematized so that the maritime community can 
better use it to improve commercial and passenger vessel 
safety.
    So I guess the question I would have, Admiral, is how is 
the Coast Guard addressing the challenge of making marine 
casualty reporting data more valuable and more available to the 
maritime community in order to improve maritime safety?
    Admiral Timme. Thank you, Congressman.
    I concur. We need to make the data we have more valuable, 
not just to the maritime community, but to the Coast Guard 
itself, as we seek to modernize our IT systems and our data 
systems. And that is one of the priorities the Commandant has, 
to make sure that we have a 21st-century information technology 
backbone.
    In 2015, when that guidance went out with regards to marine 
casualties, we saw a significant drop in the casualty reporting 
the next year. I point that out, because it did, in fact, 
clarify for those stakeholders you are talking about, where and 
when they had to report, much to their satisfaction is what--
that is what had been advised. So we saw a real change in the 
reporting. The challenge now becomes, as you point out, 
modernizing that data for use, both internally and externally.
    We do keep the data that we do have available on the Port 
State Information Exchange on casualties and investigations for 
the public. And we, unfortunately, would be at a FOIA request 
for other data at this point.
    Mr. Gallagher. OK. And then you have a great team in my 
district of coastguardsmen who do outreach to the community. 
But there is some concern I hear about sort of big Coast Guard 
or Coast Guard staff in DC who have an intersection with a lot 
of the regulatory aspects.
    Is there a way to sort of plug them in to the Great Lakes 
region and have more feedback and interaction? I guess less of 
a question, but more of whether you would be amenable to a 
followup conversation with me and my staff on how we can 
improve that communication and find a way to sort of satisfy 
some of the concerns that my constituents have.
    Admiral Timme. Congressman, I look forward to that 
conversation.
    Mr. Gallagher. Fantastic.
    Mr. Chairman, I just would say, you know, on behalf of 
people with beards everywhere--I will not be silent.
    Mr. Maloney. Does the gentleman yield? I am going to 
recommend he just let it go.
    As someone who has got hair challenges, I should probably 
not be speaking. Appreciate the gentleman's indulgence.
    With that, I am going to recommend Ms. Plaskett.
    Ms. Plaskett. Thank you. And I have a petition started for 
Mr. Gallagher called ``Keep the Beard,'' so long as we get to 
go hunting with you.
    Mr. Maloney. Who said bipartisanship was dead?
    The gentlelady may proceed.
    Ms. Plaskett. Admiral, I wanted to ask you about passenger 
vessels. In the Virgin Islands, passenger vessels play a really 
important role in the part of our local economy, and safety is 
a very important issue.
    I have heard concern from constituents about the issue of 
illegal vessels, illegal charters specifically. Companies come 
down without a business license and don't have the right 
certification. Licensed charters are in competition with these 
vessels, which may have safety gear issues--they may have the 
safety gear, but not certification to be operating with dozens 
of passengers.
    I realize this is a problem nationally, in light of 
multiple fatalities and other safety concerns from commercial 
passenger vessels.
    Can you provide us with an update on the Coast Guard's 
efforts and strategy to combat these illegal charters?
    Admiral Timme. Congresswoman, the Virgin Islands is one of 
those places, as an island, it is absolutely dependent on that 
waterway.
    I ran the Coast Guard detachment in St. Croix from 1997 to 
1999, and am very familiar with the unique aspects of the 
passenger vessel there.
    We are looking at outreach, education, partnership, and 
enforcement as the approach to illegal charters around the 
country. We have sought to educate the public with regards to 
what they should look for when renting a vessel, including a 
licensed captain and a certificated vessel, if it is above six 
people.
    We have done outreach at the port level by walking the 
docks, posting signs. We have worked with local news crews to 
highlight the problem. And then lastly, we have partnered--not 
partnered-, but gone to the U.S. Attorney, where appropriate, 
for egregious violations of the laws with regards to charters 
and passenger vessels.
    It disadvantages those you just pointed out, those who 
legitimately take the time to certificate their vessels, to do 
the training that is expected, to carry passenger vessels in 
this country, and it is a disadvantage for them. So we continue 
to attack it.
    Ms. Plaskett. Are there additional resources, or do you 
feel that you have sufficient manpower and resources on the 
ground to get that done?
    Admiral Timme. Like all of our mission sets, we prioritize 
for mission accomplishment with the finite resources we do 
have. We meet mission with those resources. But additional 
resources always go to more optimal solution sets.
    Ms. Plaskett. Great. One of the other things I wanted to 
talk with you about in terms of this travel and survival craft 
regulations, when vessels sailing internationally are generally 
required to carry out-of-water survival craft. This is intended 
for vessels like cruise ships, large deep draft vessels, oil 
rigs, et cetera.
    I know that in the past, there has been an exemption to 
subchapter 11 where the conditions of the voyage would render 
specific requirements unreasonable and unnecessary. You know, 
in the U.S. Virgin Islands, there is a lot of international 
voyage to the British Virgin Islands, and in some places, that 
is a span of less than 5 miles. We do understand that it is 
pretty treacherous water in between there.
    Numerous operators in the district have requested 
subchapter W exemptions due to the unreasonable cost for such 
voyage in warm weather.
    What is the Coast Guard's commitment to operating this in a 
very fair risk-base, and at the same time, keeping safety in 
mind?
    Admiral Timme. Thank you, Congresswoman.
    From your question, you can see that the intricacies that 
go into the different variables for making a decision with 
regards to lifesaving on certain vessels: route, amounts of 
passengers, the conditions.
    And so, the best tool we have is local knowledge. It is the 
local officer in charge of marine inspection. In this case, out 
of San Juan, Puerto Rico, or the detachments in St. Croix and 
in St. Thomas, that would be most familiar with the routes, 
most familiar with the vessels, and most familiar with what 
would be appropriate.
    I am happy to get back to you on the record or follow up 
with you on any particular vessel.
    Ms. Plaskett. Great. I appreciate that.
    And Deputy Administrator Balzano, before my time runs out, 
under the Cruise Vessel Security and Safety Act of 2010, 
information on who to contact in the event of a crime is 
required to be posted by a cruise vessel and easily accessible 
to victims when the FBI is doing investigations.
    How do victims receive this information? Where is it 
posted? And what has MARAD done to help standardize training of 
crews on evidence and crime scene preservation?
    Mr. Balzano. Well, ma'am, that is a good question, but a 
lot of that falls into the Coast Guard's area of 
responsibility. MARAD's responsibility is to collect the data 
of FBI incidents and report that on the Department's website.
    Additionally, the other role that we have with that act is 
that we provide voluntary certification of companies who do 
training to cruise vessel security programs. And that is the 
only two roles we have, ma'am.
    Ms. Plaskett. OK. Thank you.
    Mr. Maloney. Thank the gentlelady.
    It is my understanding that Mr. Young would like to yield 
his time to Mr. Gibbs.
    The gentleman is recognized.
    Mr. Gibbs. Admiral, the answer you gave regarding the 
safety advisory committee is actually contrary to the answers 
that the Coast Guard has provided the subcommittee previously. 
And regarding the advisory committees, whose members have been 
told the committees are in abeyance, I just have a request that 
the Coast Guard provide to the subcommittee a briefing on this 
issue as soon as possible.
    Admiral Timme. Congressman, we will follow up with you at 
your convenience.
    Mr. Gibbs. Thank you.
    Mr. Maloney. The gentleman yields back.
    Mr. Carbajal is recognized.
    Mr. Carbajal. Thank you, Mr. Chair.
    On September 2nd, we tragically lost 34 lives when the 
Conception dive boat caught on fire at 3:14 a.m. Off the coast 
of my district in California. This was the worst maritime 
disaster in 70 years. My condolences go out to the families of 
those victims.
    Let me say that I am very grateful to the Coast Guard for 
their help in the search and rescue operations, and to the NTSB 
for their continued investigation into what went wrong.
    And while I want to recognize the Coast Guard men and women 
for just doing an heroic job day in and day out on their 
mission--and I have a number of Coast Guard service officers in 
my district that do an outstanding job--I must say that when 
you look at the track record of implementing the NTSB's 
recommendations, it is not a good track record. And since, over 
the years, we have seen tragedy after tragedy after tragedy 
happen, and the Coast Guard has a track record of inaction.
    While it is my understanding the NTSB is still conducting 
their investigation, I am disturbed by some of the reporting 
following this tragedy.
    Admiral Timme, I am particularly concerned by the fact that 
the NTSB has continuously, for many years, advocated for the 
Coast Guard to implement procedures, to conducting regular 
inspections, reporting maintenance needs for all of the boats' 
systems and crew training, yet the Coast Guard has ignored many 
of these recommendations.
    What action has the Coast Guard taken to make sure those 
recommendations are implemented, and why have they not been 
implemented to date?
    Admiral Timme. Congressman, the Conception fire is an 
absolute tragedy, and our hearts go out to the families of the 
victims. And we look forward to a full and complete 
investigation with the Marine Board of Investigation.
    To your question with regards to the NTSB's 
recommendations, we work with them side by side on the 
investigations we do. And when we come to a recommendation, the 
NTSB makes a recommendation in the framework of a protocol to 
make a safety recommendation. We would have to take that 
recommendation into a different framework, into the framework 
of not just the recommendation itself, but the rulemaking, the 
guidance, the workforce, and the ecosystem it would go into.
    In this particular case, after the Conception, I chartered 
a team to look at--immediately, without waiting for the Marine 
Board of Investigation, but immediately, to look at that class 
of vessel, after a 30-day inspection campaign on that type of 
vessel, come back, look at what we found, without waiting for 
the full MBI, and make recommendations to me regarding their 
findings and what needs to change in the safety framework, 
including rules and policy around these passenger vessels, and 
that includes relooking at the National Transportation Safety 
Board's recommendations with regard to that. And I look forward 
to doing that.
    Mr. Carbajal. Thank you.
    It has been brought to my attention that the Conception was 
working under ``old T''--quote, unquote, ``old T'' safety 
requirements, meaning they were not following the most up-to-
date safety rules.
    What are some of the safety implications to continue to 
operate under this framework? And why do we need to wait until 
another tragedy to change our current safety rules?
    Admiral Timme. Congressman, the old subchapter T and new 
subchapter T both have many vessels in the fleet that operate 
under those construction standards. They are valid construction 
standards today, as long as the vessels continue to be 
maintained in accordance with, as constructed under that 
regime.
    We--to your question, we do not have to wait moving forward 
to look at what needs to change in that subchapter. In fact, 
that team I reference will look at that, including if the 
Marine Board of Investigation finds that there was a point that 
had to do with the old construction standard, we will 
absolutely look at that.
    Mr. Carbajal. Thank you.
    Mr. Curtis, do you care to add to that?
    Mr. Curtis. Yes, sir. Thank you for the question.
    Certainly we have issued recommendations in the past in 
these areas. Particular to the Conception, we are going to take 
a close look in this investigation at subchapter T as the 
admiral alluded to, not just for the existing and the old T, 
new T, but whether even the new T is adequate as it addresses 
means of escape, crew responsibilities, and the likes of that.
    So certainly this is a tragedy, and we are taking a close 
look at all of these regulations, a fresh look at old 
subchapter T, new subchapter T, just for the validity on that 
very subchapter, to make sure that this doesn't happen again.
    Mr. Carbajal. Thank you very much to both of you.
    Mr. Chair, I yield back.
    Mr. Maloney. I thank the gentleman. We will now proceed to 
the second panel. Thank you all.
    Oh. Pardon me. Forgive me. We have one more Member who has 
not had an opportunity to question. Forgive me.
    Mrs. Miller is recognized, and at that time, we will 
proceed to the second panel. Thank you.
    And we have been joined by Mr. Carson. Forgive me. We will 
have two more Members of Congress do their questioning, and we 
will proceed to the second panel. Forgive me.
    The gentlewoman is recognized.
    Mrs. Miller. Thank you, Mr. Chairman. Although my district 
in southern West Virginia may be far from the coast, maritime 
transportation is essential for my district that exports the 
natural resources and manufactured products that power this 
country and the world. It is so important that we protect the 
mariners that go out on our rivers, lakes, and seas while 
making sure that our industry can remain competitive in 
international commerce and trade.
    Rear Admiral Timme, how has the domestic commercial 
shipping industry taken on the responsibility to ensure that 
their vessels are safe for their mariners and communities?
    Admiral Timme. Congresswoman, I see the evidence of the 
attention of the fleet to the safety and security of their 
cargoes, passengers, and the environment through many 
stakeholder frameworks that we have, not just the fact that 
they comply with the regulations that we put on them. They come 
to the advisory committees that we have referenced here today.
    The Federal advisory committees are full of the marine 
professionals you talk about who are there to advise the Coast 
Guard and other regulating bodies about how to do the job 
better. They participate at the local level with the Harbor 
Safety Committees in each port on the rivers.
    Huntington, West Virginia, I think is the nearest Harbor 
Safety Committee you are going to have there. With that local 
industry, particularly, the chemical and oil industry, given 
the refining capability there works closely with the Coast 
Guard to ensure that that communication to achieve a joint goal 
of a safe and secure maritime system is achieved.
    Mrs. Miller. What are the biggest challenges that the Coast 
Guard faces when it comes to ensuring that vessels are in 
compliance with the Federal regulations and international 
standards?
    Admiral Timme. Looking ahead, we see emerging technologies 
that will challenge the inspection regime and the inspection 
workforce. We are looking at new means of propulsion with 
liquified natural gas as a fuel. We are looking at dynamically 
positioning ships in the offshore. We are looking at the 
incorporation of technology into bridges of ships that we 
hadn't seen or envisioned 30 years ago. This challenges both 
the industry and the Coast Guard to keep pace.
    Mrs. Miller. Thank you.
    Admiral Balzano, what steps have the Maritime 
Administration taken to work with industry stakeholders to 
improve safety in passenger and commercial safety?
    Admiral Balzano. Well, ma'am, as the admiral mentioned, we 
host many different industry days. We cooperate and coordinate 
with the Coast Guard, the maritime industry, and our Federal 
partners as well. We don't have any enforcement or regulatory 
responsibility for safety, so we try to take all the lessons 
learned so we can apply those to our own fleets that we 
operate, and that is the extent of our responsibility.
    Mrs. Miller. Thank you. I yield back my time.
    Mr. Carbajal [presiding]. Thank you. Now I would like to 
recognize Representative Carson.
    Mr. Carson. Thank you, Chairman, and Ranking Member Gibbs 
for holding this very important hearing and for allowing me to 
join the subcommittee today. Although I am not assigned to this 
subcommittee, maritime safety is very important to my 
constituents, especially the Coleman family members who 
survived the duck boat tragedy in Branson, Missouri, last year.
    Director Curtis, I was very pleased to see in your 
testimony, sir, recommendations for duck boats to have 
sufficient buoyancy so that they remain upright and afloat with 
passengers in the event of damage or flooding. NTSB also 
recommended the removal of canopies for vessels without 
sufficient buoyancy.
    I have introduced legislation H.R. 2799 which would require 
implementation of these recommendations and a number of other 
recommendations made previously after other duck boat 
fatalities. Sir, do you believe the changes you have 
recommended can prevent future fatalities like the tragedy in 
Branson?
    Mr. Curtis. Thank you for your question, sir.
    Well, certainly those two recommendations that we spoke 
about that were new recommendations yesterday, the intent there 
is when these duck boats--historically when they go down, once 
they submerge, they sink very quickly. The intent of the 
recommendation, A, is to have reserve buoyancy so when they do 
get to the water level with the passengers on board, they will 
remain at the water level to enhance the ability of the 
passengers to egress.
    And additionally, if they do not have the reserved 
buoyancy, we would like to see the canopies removed and the 
hardware over them. So the challenge has been when these 
vessels sink that the passengers become entrapped. They sink 
quickly, and they are trapped inside, so that is the intent of 
those two recommendations. If they ever do encounter problems 
and take on water, they will stay at least at the water line to 
allow responders to help as well as keep the vessel on the 
surface.
    Mr. Carson. Is there more action that the committee should 
consider, including maybe enforcement of existing requirements?
    Mr. Curtis. Well, certainly we appreciate the endorsement 
of the safety recommendations and get them implemented. These 
were made originally very close to the same language 20 years 
ago. I think they are critical to the survivability. Vessels 
can always take on water, but it is really about survivability, 
keeping them on the surface and not being encumbered by the 
canopies.
    So certainly we feel these two recommendations are 
critical, and we really urge the implementation of these by the 
Coast Guard.
    Mr. Carson. Thank you all.
    Thank you, Chairman. I yield back.
    Mr. Carbajal. Are there any other questions?
    Having none, I want to thank the witnesses for their 
testimony and for answering questions today. It has been very 
insightful and helpful. Thank you so much. We will now move on 
to the second panel.
    Good afternoon. I would like now to welcome our next panel 
of witnesses. We have a number of individuals.
    First, we have Vice Admiral Brian Salerno, senior vice 
president of global maritime policy for the Cruise Lines 
International Association.
    We also have Mr. Adam W. Moilanen, vice president of 
health, safety, quality, and environment for the American 
Bureau of Shipping.
    We have Mr. Aaron Smith, president and CEO for the Offshore 
Marine Service Association.
    We have Ms. Colleen Stephens, vice president of the 
Passenger Vessel Association.
    And Mr. Paul Sterbcow. Did I get that right?
    Mr. Sterbcow. Close enough.
    Mr. Carbajal. President of the Louisiana Association for 
Justice. I have a hard name to pronounce too, so I sympathize.
    Thank you to all of you for being here. I look forward to 
your testimony and attendance. I want to recognize 
Representative Young who wants to make an introduction of one 
of his constituents who happens to be here on the panel today.
    Mr. Young. Thank you, Mr. Chairman, and I would just make 
one comment ahead of time. I have been involved with the Coast 
Guard now for 60 years. And if we want to solve some of the 
problems of the Coast Guard, we have to start funding them 
better than we have been doing in the past. That is one of our 
biggest challenges. We give them responsibilities, and yet we 
don't give them the money to do the job.
    But my pleasure now, Mr. Chairman, is to welcome my fellow 
Alaskan, Colleen Stephens, to the Transportation and 
Infrastructure Committee. Colleen Stephens is the president of 
her family's business, Stan Stephens Glacier & Wildlife Cruises 
and the national vice president of the Passenger Vessel 
Association.
    Stan Stephens Cruises has been in operation for 48 years, 
the same length I have been in Congress, and operates two 149-
passenger sightseeing vessels in Prince William Sound, carrying 
18,000 persons per year. Her company embodies a great maritime 
tradition we have in Alaska. I understand Colleen joined the 
family business at a very early age and worked her way up 
through all aspects of the company to her present role.
    I am proud to know that an Alaskan is here to serve as the 
voice of the U.S.-flagged passenger vessel industry which is 
very important to the State of Alaska. We in Alaska know how 
vital this industry is to the State and to the future in Alaska 
and nationally is predicted and continues to improve in their 
safety.
    I appreciate all the work that you and your colleagues have 
done in the Coast Guard and Maritime Transportation 
Subcommittee to ensure the safety of your passengers, and I 
look forward to the testimony that we can do better. Thank you 
for being here.
    Mr. Carbajal. Thank you, Representative Young.
    Again, thank you for being here today. I look forward to 
your testimony.
    Without objection, our witnesses' full statements will be 
included in the record. As with the previous panel, since your 
written testimony has been made a part of the record, the 
subcommittee requests that you limit your oral testimony to 5 
minutes each.
    With that, we will start with Admiral Salerno. You may 
proceed.

 TESTIMONY OF VICE ADMIRAL BRIAN M. SALERNO, U.S. COAST GUARD 
(RET.), SENIOR VICE PRESIDENT OF GLOBAL MARITIME POLICY, CRUISE 
    LINES INTERNATIONAL ASSOCIATION; ADAM W. MOILANEN, VICE 
PRESIDENT OF HEALTH, SAFETY, QUALITY, AND ENVIRONMENT, AMERICAN 
    BUREAU OF SHIPPING; AARON C. SMITH, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, OFFSHORE MARINE SERVICE ASSOCIATION; COLLEEN 
  STEPHENS, VICE PRESIDENT, PASSENGER VESSEL ASSOCIATION; AND 
 PAUL M. STERBCOW, PRESIDENT, LOUISIANA ASSOCIATION FOR JUSTICE

    Admiral Salerno. Thank you, Mr. Chairman, Ranking Member 
Gibbs, and distinguished members of the subcommittee. It is an 
honor to appear before you as a representative of the Cruise 
Lines International Association, or CLIA, to discuss passenger 
vessel safety.
    CLIA is the world's largest cruise industry trade 
association. It includes among its membership approximately 95 
percent of the global cruise capacity. This year, our members 
anticipate carrying 30 million passengers on their 272 ships. 
Half of all passengers will sail from ports in the United 
States which remains the largest cruise market globally.
    The number of passengers carried has grown by approximately 
1 million per year over the last decade as ships have likewise 
grown in complexity and capability.
    The safety and security of our passengers is of paramount 
importance. These are the fundamentals without which our 
industry could not succeed. It is what our guests and our 
crewmembers rightly expect. And thanks to sustained efforts by 
our members, objective data shows that cruising is, indeed, 
among the safest vacation experiences available anywhere.
    According to renowned maritime industry analyst and 
researcher G.P. Wild, the cruise industry has expanded its 
capacity by 55 percent over a 10-year period from 2009 to 2018. 
Meanwhile, the rate of operational incidents has declined by 35 
percent. The kinds of incidents analyzed includes fires, 
groundings, collisions, loss of propulsion, and persons going 
overboard.
    These positive trends did not occur by chance. They result 
from an industry making a concerted effort to operate safely 
and with due regard for the safety and comfort of its guests.
    Nine years ago Congress passed the Cruise Vessel Security 
and Safety Act which raised the bar on passenger safety and 
security. CLIA supported that legislation. At that time, the 
subcommittee was under the leadership of Chairman Elijah 
Cummings who, as you all know, was a passionate advocate for 
maritime safety and for seafarers.
    We note with sadness his recent passing. His legacy 
endures, however, and we are pleased to report that the 
industry has embraced the requirements contained in the CVSSA 
and has made them part of standard operating procedures. 
Railing heights and stateroom security measures are built into 
our member ships.
    Medical facilities and trained providers are available in 
the event of a medical emergency. And although crimes remain 
rare events, when they do occur, trained security personnel 
preserve evidence and coordinate with shoreside law 
enforcement. Crimes involving U.S. passengers are reported to 
the FBI and the Coast Guard, and quarterly crime statistics are 
published online by the Department of Transportation.
    As for the rate of crime, noted criminologist Dr. James Fox 
of Northeastern University has compared reported incidents on 
cruise ships to the national FBI crime statistics, the uniform 
crime reporting program, and concluded that major crimes on 
cruise ships occur at significantly lower rates as compared to 
those occurring on land.
    Safety is essential to the operation of our cruise ships. 
However, our commitment to maritime safety is not limited to 
our own ships. Most of our members are active participants in 
AMVER, the Automated Mutual-Assistance Vessel Rescue system. 
Through the AMVER system, our members make their vessels 
available to rescue coordination centers around the world to 
respond when needed to aid mariners in distress. Although this 
means itinerary disruptions and delays, cruise ships typically 
respond without hesitation when called upon, often placing 
their own crewmembers at risk to save others.
    Each year cruise ships are recognized for their lifesaving 
efforts by the AMVER program and here in the Capital by the 
Association for Rescue at Sea.
    Equally important to our industry is environmental 
stewardship. Just as safety and security is a prerequisite for 
our guests' willingness to book a cruise, they also expect that 
their vacation is not going to despoil the very places they 
want to visit and enjoy.
    It is in our long-term interests as an industry to protect 
the seas and the destinations we visit. That fact has provided 
the impetus behind the more than $22 billion invested so far 
across the industry in new technologies to protect the seas 
from overboard discharges and the air from stack emissions. In 
fact, the cruise industry has been a leader in the development 
and adoption of new shipboard environmental technologies.
    In conclusion, it is a well worn cliche to say that safety 
is a journey, not a destination. Nevertheless, that is how we 
in CLIA view it. It is how our members view it. Safety, 
security, and environmental stewardship have our ongoing 
focused attention.
    Thank you, and I look forward to your questions.
    [Admiral Salerno's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Vice Admiral Brian M. Salerno, U.S. Coast Guard 
 (Ret.), Senior Vice President of Global Maritime Policy, Cruise Lines 
                       International Association
    Thank you, Chairman Maloney, Ranking Member Gibbs, and 
distinguished members of the Coast Guard and Maritime Transportation 
Subcommittee. It is an honor to appear before you to discuss 
``Commercial and Passenger Vessel Safety: Challenges and 
Opportunities.''
    Having served 36 years in the U.S. Coast Guard, retiring in 2012 at 
the rank of Vice Admiral and Deputy Commandant for Operations and 
having worked on a broad range of Coast Guard operational missions with 
a particular focus on maritime safety, my entire professional life's 
work has been devoted to marine safety.
    I am currently the Senior Vice President for Global Maritime Policy 
for the Cruise Lines International Association (CLIA), which is the 
world's largest cruise industry trade association representing more 
than 95 percent of the global cruise capacity. CLIA represents 36 
oceangoing cruise lines as well as 15,000 travel agencies, including 
the largest agency hosts, franchises and consortia, 30,000 travel 
agents, and 300 industry partners who provide products and services to 
the cruise industry.
    Thirty million passengers are expected to cruise in 2019 globally, 
and nearly half of those passengers are sourced or cruise from the U.S. 
The number of people enjoying cruise vacations has increased, on 
average, by more than one million new cruisers every year over the last 
decade. It is safe to say that cruising is one of the most popular 
vacation experiences. The industry enjoys a high customer satisfaction 
rate with nearly 90 percent of cruisers saying they will cruise again. 
Fifty-two percent of vacationers who have never cruised say they are 
open to a cruise holiday. Families and other groups often cruise on an 
annual basis, booking the next trip during their cruise or immediately 
upon returning to port. These individuals appreciate the convenience of 
cruising and feel safe while doing so.
    CLIA promotes the policies and practices that foster a safe, 
secure, healthy and sustainable cruise ship environment for our guests 
and crewmembers. Our Cruise Line Members participate in ongoing, 
specialized committees, working groups, task forces and other forums to 
develop and promote industry-wide policies. CLIA and its members 
routinely meet with regulators and enforcement officials to promote 
efficiency and best practices throughout the world. Through these 
varied groups, and aided by a professional technical staff, 
consultants, and maritime authorities, our members share information, 
review and assist in developing applicable national and international 
legal requirements, and identify best industry practices for all to 
adopt.
                           cruise line safety
    Safety of passengers and crew is the cruise industry's number one 
priority! Providing a safe, secure, healthy and sustainable cruise ship 
environment is fundamental to the success of the cruise industry.
    Cruise ships are among the most scrutinized vessels at sea. Using 
comprehensive design, construction and operating standards developed at 
the International Maritime Organization (IMO), flag and port State 
authorities, and vessel classification societies provide strict safety 
oversight throughout a ship's operational life. IMO member States 
(nations) have implemented the International Convention for the Safety 
of Life at Sea (SOLAS), which is designed to help ensure maritime 
security and safety worldwide. Among other criteria, SOLAS also 
provides that companies and vessels should comply with the requirements 
of the International Safety Management Code (ISM Code), which was first 
adopted by IMO in 1993.
    In addition to safety standards, the cruise industry follows 
comprehensive security protocols, both prior to departure and at sea. 
Passengers, crew, and baggage must pass through rigorous security 
checkpoints before boarding. In addition to video surveillance and 
around-the-clock onboard emergency contacts, cruise ships keep an 
official manifest that lists everyone onboard. Proof of identity is 
required to access a cruise ship, and only crew, ticketed passengers 
and those on a pre-approved list may enter.
    Every cruise ship must be equipped with enough survival craft, 
including lifeboats and liferafts, to accommodate at least 125 percent 
of the number of persons on board. In addition, all survival craft must 
meet rigorous mandatory international standards in design, 
construction, maintenance and operations.
    Crewmembers receive robust training in safety, security and first 
aid to prevent and respond to potential emergency situations. Ship 
security personnel are on call 24/7. Major cruise lines have 
sophisticated security departments which in many cases are run by 
former federal, state and military law enforcement officials. Every 
ship sailing to or from the U.S. must have at least one crewmember 
onboard specifically trained in crime prevention, detection, and 
reporting.
    As evidenced in a study titled Report on Operational Incidents 2009 
to 2018, G.P. Wild (International) Limited concluded that significant 
operational incidents have been reduced by 33 percent over the last ten 
years. (Operational incidents include such events as: fire, engine 
failure, collisions, groundings.) Other key findings include:
    <bullet>  ``From 2009 to 2018, significant operational incidents 
have been on a downward trend with an average of 18.2 incidents a year 
. . .
    <bullet>  ``An average of 20 minor operational incidents are 
reported from 2009 to 2018, a figure which is also declining. It is 
noteworthy that the figure of 15 incidents in 2018 and 16 in 2017 were 
the lowest recorded in the ten years covered by this report.
    Onboard staff must be trained in first aid and public health 
practices, as well as in emergency procedures, signals and alarms; 
evacuation procedures; and fire prevention and fire safety.
    CLIA and its Cruise Line Members constantly work to improve safety 
by reviewing operational procedures to enhance both processes and 
technology. With new policies implemented and ongoing work with an 
Independent Panel of Experts comprised of top maritime and 
transportation professionals to provide advice on measures to enhance 
safety, the cruise industry is always looking to improve and is doing 
so.
                          cvssa implementation
    In 2010, Congress passed the Cruise Vessel Security and Safety Act 
(CVSSA) with the support of the cruise industry. With a record 30 
million passengers now cruising, the industry goes to great lengths to 
maintain the safety and security of passengers and crew. As a result, 
cruising is safer than ever.
    A recent study of crime data covering a three-year period by 
renowned criminologist Dr. James Alan Fox shows that there are 25 times 
fewer allegations of major crime (homicide, sexual assault and assault) 
on cruise ships than are seen with comparable data on land-based crime 
allegations that are tracked by the FBI. Furthermore, Dr. Fox says in 
his report that ``cruise lines do an exceptional job of securing and 
providing surveillance in addition to screening their populations and 
generally providing a high level of security aboard ships.''
    The CVSSA, along with existing laws and regulations, provides broad 
and stringent safety and security oversight of the cruise industry. The 
CVSSA was amended in 2014 to further expand public reporting of alleged 
incidents, which is a requirement that does not currently exist in any 
other travel sector. The cruise industry has embraced the requirements 
of the CVSSA and believes that the outcomes have benefited cruise 
passengers and the industry itself.
Reporting of Crimes and Missing Persons
    Unlike any comparable industry ashore, cruise lines are subject to 
strict legal requirements for the reporting of crimes on board cruise 
ships. Incidents are to be reported orally, as soon as possible, to the 
Federal Bureau of Investigation (FBI) and a written report of an 
incident is to be completed as soon as possible and directed to the FBI 
and U.S. Coast Guard (USCG). These are tracked on an internet website 
maintained by the Department of Transportation.
    In addition to various operational and structural requirements to 
enhance shipboard security and safety, the CVSSA codified the 
industry's 2007 agreement for reporting of serious incidents on cruises 
to or from the United States, and dramatically increased penalties for 
non-reporting as compared to those under the preceding regime 
implemented under the Ports and Waterways Safety Act. The CVSSA also 
requires that passengers shall have available contact information for 
the appropriate law enforcement authorities. All passengers and crew 
must have access to information regarding the locations of the U.S. 
embassy and consulate in each country the vessel will visit during the 
voyage. In addition to the CVSSA requirements, CLIA Cruise Line Members 
have adopted a policy that all passengers and crew are to be provided 
the means and assistance to contact law enforcement authorities. In 
addition, cruise ships sailing to or from the U.S. are required by the 
CVSSA to record all complaints of crimes and thefts over $10,000 in a 
log that is subject to inspection by law enforcement officials.
    Beyond these U.S. legal requirements, other flag or port States 
have enacted additional requirements or established protocols 
concerning the reporting of alleged criminal activity. Also, CLIA 
Cruise Line Members have adopted a policy that serious incidents as 
defined in the 2007 agreement with the FBI and USCG, and codified by 
the CVSSA, are to be reported to the ship's flag State. Under this 
policy these serious incidents are also to be reported to local law 
enforcement when appropriate, depending on the specific circumstances 
including the location of the ship when the incident occurred.
Security Measures
    Cruise lines make every effort to deter criminal activity on board 
their ships while also ensuring that ship security staff are prepared 
to effectively respond to an alleged incident. One source typically 
utilized to train shipboard staff is the model training standards 
covering crime prevention, detection, evidence preservation, and 
reporting of criminal activities in the international maritime 
environment cooperatively established by the FBI, USCG and the Maritime 
Administration (MARAD).
    Cruise line incident response procedures are based on national 
(flag State) and international rules and regulations, as well as other 
applicable laws and/or legal directives. Cruise line procedures 
emphasize the responsibility of ship Security Officers to exercise best 
efforts to provide for the safety and welfare of passengers, 
crewmembers, and ships. The procedures also include requirements for 
ship Security Officers to effectively preserve incident evidence for 
investigation by the appropriate law enforcement authorities.
Medical Facilities
    CLIA and its Cruise Line Members have taken a proactive role in 
addressing the quality of shipboard medical care. Many cruise ship 
physicians are members of the American College of Emergency Physicians 
(ACEP) and serve on that organization's Cruise Ship and Maritime 
Medicine Section.
    As a result of cooperative efforts between experienced cruise ship 
physicians and ACEP, CLIA's Cruise Line Members traveling regularly on 
itineraries beyond the territorial waters of the coastal State, have 
agreed on a mandatory basis to meet or exceed the requirements of the 
ACEP Health Care Guidelines for Cruise Ship Medical Facilities. ACEP's 
guidelines address facilities, staffing, equipment and procedures. 
Patients requiring more comprehensive facilities or treatment are 
typically referred to a shoreside medical facility.
    The guidelines are generally intended to foster the goals of 
providing reasonable emergency medical care for passengers and crew 
aboard cruise vessels, stabilizing patients and/or initiating 
reasonable diagnostic and therapeutic intervention, and facilitating 
the evacuation of seriously ill or injured patients when deemed 
necessary by a shipboard physician.
Man Overboard (MOB) Incidents
    Man overboard (MOB) incidents on cruise ships are rare and 
unfortunate events. A recent study conducted by GP Wild analyzed man 
overboard (MOB) incidents involving both passengers and crew between 
2009 and 2018, identifying on average 18.7 incidents per year with some 
fluctuations from year to year. When compared with the growth in 
capacity in the industry over the years analyzed, man overboard 
incidents were on a downward trend between 2009 and 2018:
    <bullet>  While number of man overboard incidents have fluctuated 
over this ten-year period, the number of incidents in 2018 was 23, 
unchanged from 2009.
    <bullet>  Incidence rate decreased \1\ due to a 54.4% increase in 
active lower berths (synonymous with a cabin's bed) during that same 
ten-year period.
---------------------------------------------------------------------------
    \1\ There were 0.0000425 (4.2510<SUP>-5</SUP>) overboard reports 
per active lower berth in 2018, compared to 0.0000657 (6.5710<SUP>-
5</SUP>) in 2009.
---------------------------------------------------------------------------
    <bullet>  Passenger fatalities from man overboard incidents also 
decreased from 15 in 2009 to 13 in 2018.
    <bullet>  Crew fatalities remain around the period average of five 
per year, around one in every 50,000 crew serving in the fleet at any 
one time in 2018.
    <bullet>  Persons rescued remains around 25% of fatalities; one in 
four is rescued.
    As noted in the GP Wild study, in every case where the cause of the 
MOB was established following a careful investigation it was found to 
be the result of an intentional or reckless act. MOB incidents are 
primarily linked to human behavior (suicide, recklessness, etc.) rather 
than existing ship safety features, including the minimum 42" high 
railings mandated by the 2010 Cruise Vessel Security and Safety Act 
(CVSSA).
    In 2018, with 28.5 million cruise passengers globally, MOB 
incidents on cruise ships resulted in about one passenger fatality per 
2.19 million cruise passengers annually--or 0.0456 fatalities per 
100,000 cruise passengers annually. By way of comparison, recent data 
from the United States Centers for Disease Control and Prevention (CDC) 
reports \2\ the U.S. suicide rate to be 14 events per 100,000 people 
annually. Given the average length of a cruise is about a week, this 
would equate to about 0.27 suicide events per 100,000 people per week.
---------------------------------------------------------------------------
    \2\ Suicide Mortality by State, National Center for Health 
Statistics, U.S. Centers for Disease Control and Prevention https://
www.cdc.gov/nchs/pressroom/sosmap/suicide-mortality/suicide.htm, last 
accessed August 23, 2019.
---------------------------------------------------------------------------
    Cruise ships today are the safest that ever sailed due to the 
enhanced rules, regulations and technological innovations that govern 
their design and operation. Safety regulations such as minimum railing 
and balcony heights, structural barriers and other requirements prevent 
passengers who are acting responsibly from simply falling off a cruise 
ship.
    The 2010 CVSSA specifically requires cruise ships that embark or 
disembark passengers in the United States to use technology to capture 
images of passengers or detect passengers who have fallen overboard, to 
the extent that such technology is available. To comply with this 
requirement, cruise lines have invested in video surveillance systems. 
Several cruise lines have also installed MOB detection systems on a 
developmental basis in order to evaluate their effectiveness and 
accuracy. A principle concern in the evaluation of these systems is 
high false-positive rates, which can ultimately cause damage to a 
ship's safety culture and be counterproductive to effectively detecting 
instances of MOB.
    The International Organization for Standardization (ISO) is working 
to complete a standard for MOB detection technologies, which will allow 
operators and other stakeholders to evaluate new and existing systems 
against an established set of technical criteria, to ensure that 
installed systems function to a high degree of accuracy and 
reliability. As the Coast Guard stated in their 2017 MOB report, ``Once 
an international standard is developed with the input of all involved 
stakeholders, it will be easier to determine the feasibility of 
overboard detection technologies.'' CLIA fully welcomes the 
finalization of this ISO standard.
                       environmental stewardship
    The health of the cruise industry is inextricably linked to a clean 
and healthy marine environment. Our guests expect to sail on clean 
oceans and visit scenic pollution free destinations. More importantly, 
preserving and protecting the environment is simply the right thing to 
do. That is why environmental sustainability has therefore become a 
dominant theme in cruise line management.
    Each cruise ship receives dozens of inspections each year from the 
ports they visit, countries where they are registered and other 
independent agencies, including checks of equipment and practices for 
waste management, emission reduction and wastewater treatment. In U.S. 
waters, the Environmental Protection Agency (EPA) and the U.S. Coast 
Guard enforce rigorous requirements on air, water, power, and waste, 
including provisions of the Clean Water Act. The cruise industry also 
participates in International Maritime Organization (IMO) working 
groups and committees to develop ever more stringent global regulations 
to protect the environment.
    As previously mentioned, over 30 million passengers are expected to 
cruise this year. While cruise ships comprise far less than 1 percent 
of the global number of internationally trading ships, the cruise 
industry is at the forefront of developing sustainable environmental 
practices and innovative technologies, and has invested over $22 
billion in new energy efficient ships, technologies and cleaner fuels. 
Onboard, the cruise lines encourage environmental awareness by 
educating crew and guests regarding cruise ship environmental programs. 
Cruise line crewmembers take part in comprehensive training programs, 
and many ships employ a dedicated environmental officer who oversees 
the environmental program and ensures strict compliance.
    With 272 oceangoing cruise ships in operation, CLIA Cruise Line 
Members continue to transform the modern fleet to protect the oceans, 
air and destinations enjoyed by millions of passengers each year by 
following established industry practices including operation of 
advanced wastewater treatment systems, innovative exhaust gas cleaning 
systems, energy efficiency management programs, and shoreside 
electricity technologies.
Emission Reductions
    Annex VI of the International Convention for the Prevention of 
Pollution from Ships (MARPOL) specifically addresses air pollution 
prevention requirements. Specific pollutants targeted by Annex VI 
include: Sulfur Oxides, Nitrogen Oxides, Greenhouse Gases and 
Particulate Matter. The requirements of Annex VI are implemented 
through US Legislation (Act to Prevent Pollution from Ships--APPS) and 
the related US Coast Guard and EPA regulations.
    To meet these requirements, the industry has pursued sustainable 
environmental innovations, new technologies and alternative fuels. 
Among these advancements adopted by the industry has been exhaust gas 
cleaning systems (EGCS), which reduce sulfur oxide emissions in a 
ship's exhaust by as much as 98 percent, and particulate matter by well 
over 50 percent, including elemental and organic carbon and black 
carbon. Catalytic filters and other systems further reduce particulate 
matter by over 30% and nitrogen oxides by up to 12%. Over 68 percent of 
the industry's current fleet capacity utilizes EGCS to meet or exceed 
air emissions requirements.
    The international maritime industry has also begun exploring the 
potential for cleaner fuels for future new builds or retrofit projects.
    A cleaner fuel already being adopted by several cruise lines is 
liquefied natural gas (LNG). The industry has invested over $8 billion 
in LNG propulsion technology due to its clean emissions profile. LNG 
releases virtually no Sulfur Oxides or particulates and 85 percent less 
Nitrogen Oxides. It also reduces CO2 emissions by approximately 20%. 
Currently, 26 LNG-powered ships are on order or under construction. 75 
percent of new ships not relying on LNG will have EGCS installed. In 
addition to design measures, cruise lines have also implemented Ship 
Energy Efficiency Management Plans to reduce fuel consumption and 
thereby limit carbon emissions.
    In 2018, the IMO adopted the Initial IMO Strategy on Reduction of 
GHG Emissions from Ships, which established definitive levels of 
ambition and put the maritime industry on the pathway to reducing 
annual GHG emissions by at least 50 percent by 2050 as compared to 
2008, while pursuing efforts towards phasing them out entirely this 
century. CLIA and its cruise line members have specifically committed 
to a first major step in support of the IMO Strategy by agreeing to 
reduce the carbon intensity, or rate of C02 emissions, by at least 40 
percent by 2030, as compared to 2008. Cruise lines are actively making 
their fleets more energy efficient through operational practices, 
retrofits of equipment on existing ships, and installation of energy 
efficient technologies and practices on new build vessels. Development 
of zero-carbon fuels and propulsion technologies for transoceanic 
shipping remains imperative in order to meet longer term IMO goals to 
decarbonize the maritime sector as soon as possible this century.
Waste Management
    CLIA and its cruise line members recognize that proper waste 
management is fundamental to the protection of the environment. The 
cruise industry demonstrates its commitment to protecting the 
environment using a broad spectrum of waste management technologies and 
procedures employed on its vessels. Through the International Maritime 
Organization (IMO) and flag and port States, cruise lines are subject 
to comprehensive, consistent and uniform international standards under 
Annex V of MARPOL, as well as the national, state and/or local 
regulations that apply to all vessels. For example, the IMO Action Plan 
to Address Marine Plastic Litter from Ships was adopted in 2018 to 
formalize efforts to reduce the production of marine plastic litter by 
the maritime industry. Cruise lines are already taking steps to reduce 
the amount of plastic litter onboard with efforts such as reducing 
single-use plastics, banning plastic straws, and optimizing recycling 
methods.
    To improve environmental performance, many cruise lines have 
installed advanced wastewater treatment systems (AWTS) that utilize 
tertiary-level treatment to generate effluent discharges often 
equivalent to the best shoreside treatment plants. CLIA members 
cooperate fully with national and local requirements in planning 
wastewater discharges where permitted and encourage the provision of 
adequate shoreside reception facilities for wastewater where discharge 
is a concern. All the industry's new ships on order are specified to 
have these systems, which, consistent with CLIA policy, are well beyond 
international requirements. Due to the efforts of highly trained waste 
management professionals onboard, some cruise ships repurpose 100 
percent of the waste generated--by reducing, reusing, donating, 
recycling and converting waste into energy. Cruise lines recycle 80,000 
tons of paper, plastic, aluminum and glass each year.
Energy Efficiency
    CLIA and its cruise line members place a high priority on energy 
efficiency as part of their environmental protection programs. 
Innovative investments include energy-efficient engines and hull 
coatings that reduce friction and fuel consumption, as well as energy-
saving LED lights and higher efficiency appliances. By switching to 
low-energy LED lights, newer cruise ships can improve lighting energy 
efficiency by nearly 80 percent.
    To further reduce emissions, 88 percent of our industry's new ships 
will be fitted with shore-side electricity systems or configured to add 
shore-side power in the future. Currently, cruise ships may operate on 
shoreside electricity at 16 ports worldwide where the shoreside 
infrastructure supports the technology.
Social Responsibility
    The industry has proactively engaged with partners who provide 
efficient and sustainable strategies for waste and recyclables landed 
ashore. Cruise industry representatives also participate in regional 
ocean planning efforts with maritime stakeholders and provide direct 
input and feedback to address ocean management challenges and the 
sustainable use of oceans.
    The cruise industry remains committed to wildlife and nature 
conservation. Cruise lines actively train their employees and educate 
travelers through ads and printed materials, and champion creative 
campaigns, to raise awareness of the crucial role consumers play in 
ending illegal wildlife trade. CLIA has joined these efforts by 
partnering with the U.S. National Park Service to develop a pilot whale 
mapping program in Alaska's Glacier Bay; United for Wildlife to combat 
illegal wildlife traffickers, and The U.S. Wildlife Trafficking 
Alliance to reduce the purchase and sale of illegal wildlife products.
        contribution of the cruise industry to the u.s. economy
    According to the Business Research and Economic Advisors study on 
The Contribution of the International Cruise Industry to the U.S. 
Economy in 2018:
    <bullet>  An estimated 13.09 million cruise passengers were sourced 
from the U.S.
    <bullet>  A total of 12.68 million cruise passengers embarked on 
their cruises from U.S. ports during 2018. Florida, whose ports handled 
7.5 million embarkations, accounted for more than 59 percent of all 
U.S. cruise embarkations.
    <bullet>  The cruise lines and their passengers and crew directly 
spent $23.96 billion on goods and services in the U.S., a 10.5 percent 
increase from 2016 and a 33 percent increase from 2010. The cruise 
lines spent $19.28 billion while passengers and crew spent $4.67 
billion.
    <bullet>  Within the U.S., spending by the cruise lines with their 
direct suppliers was up from $11.17 million in 2016 to $11.74 in 2018.
    <bullet>  The cruise industry generated the direct employment of an 
estimated 172,326 workers with U.S. businesses, who, in return, 
received $8.32 billion in wages and salaries during 2018.
    <bullet>  Including the indirect economic impacts, the spending of 
the cruise lines and their crew and passengers was responsible for the 
generation of $52.67 billion in gross output in the U.S., a 10.3 
percent increase from 2016.
    <bullet>  Including the indirect economic impacts, the spending of 
the cruise lines and their crew and passengers in 2018 was responsible 
for the generation of 421,711 jobs throughout the country.
    <bullet>  Total wages and salaries paid to these workers was $23.15 
billion
    The economic benefits of the cruise industry positively impact 
every state. This involves travel agency and travel agent sale of 
cruise bookings, and the procurement of products and services from 
numerous industry sectors.
Serving the Wider Maritime Industry and Communities
    CLIA members strive to do their part to be positive contributors 
within the wider maritime community. In particular, our Member Line 
cruise ships routinely cooperate with Rescue Coordination Centers and 
serve as search and rescue resources to aid mariners in destress at 
sea. CLIA members actively participate in the Automated Mutual 
Assistance Vessel Rescue System--or AMVER--which is a worldwide 
voluntary reporting system sponsored by the U.S. Coast Guard. It is a 
computer-based global ship-reporting system used worldwide by search 
and rescue authorities to arrange for assistance to persons in distress 
at sea. With AMVER, rescue coordinators can identify participating 
ships in the area of distress and divert the best-suited ship or ships 
to respond. CLIA members voluntarily give their time and resources to 
assisting those in need on the high seas, and they are often recognized 
for the lives they have saved at AMVER events around the world and 
annually by the Association for Rescue at Sea (AFRAS) held here on 
Capitol Hill.
    CLIA members are also actively engaged in providing relief and 
assistance leading up to and following hurricanes and tropical storms. 
Following the devastation from Hurricane Maria in 2017 and Hurricane 
Dorian in 2019, CLIA members assisted with evacuations, temporary 
housing, multiple tons of palates with food, water, medical supplies, 
and many other provisions, as well as millions of dollars in donations 
to support the efforts of non-profit international relief 
organizations.
    Thank you again for the opportunity to provide this testimony to 
the Committee. I hope the information is helpful in addressing the 
substantial oversight and accountability of cruise lines, both in the 
U.S. and internationally. We remain fully and deeply committed to 
continuous enhancement of the safety of our guests and crewmembers, as 
it is without question our top priority. In addition, we will continue 
to be a leader in environmental stewardship in the maritime community. 
I look forward to answering your questions. Thank you.

    Mr. Carbajal. Thank you, Admiral Salerno.
    Next, Mr. Moilanen, you may proceed.
    Mr. Moilanen. Good afternoon, Mr. Chairman, Mr. Ranking 
Member, and members of the committee.
    First of all, I want to thank the committee for giving the 
American Bureau of Shipping or ABS the opportunity to attend 
this hearing today. My name is Adam Moilanen. I am vice 
president of the American Bureau of Shipping, and I cover the 
health, safety, quality, and environmental management system. I 
would like to provide the committee an overview of ABS and who 
we are and what we do.
    ABS is a mission-focused, not-for-profit organization 
dedicated to the promotion of safety for the marine and 
offshore industries. ABS was founded in 1862. And we are the 
sole American classification society. We are an organization of 
about 2,800 people made up of naval architects, marine 
engineers, and other highly technical and experienced 
professionals with alumni from each State Maritime Academy, 
including the U.S. Coast Guard Academy and U.S. Merchant Marine 
Academy and with a number of employees who are active 
reservists and retired from the U.S. armed services.
    With safety as our core value, ABS has now achieved over 3 
years of zero lost time work-related injuries for our 
workforce. ABS has implemented an ongoing safety excellence 
program as well as life safety rules which includes a stop work 
obligation, authorizing all employees to intervene if safety is 
in question in any aspect of their work.
    The actual day-to-day work of ABS includes research and 
rule development, design review, survey during new construction 
of vessels and units including the associated material and 
equipment, surveys during operational life of those vessels and 
units, and performing safety audits of companies in their 
vessels and units. Note that our rules are a mechanism by which 
we publish technical safety standards for the industry.
    We also publish the ABS Record which provides an up-to-date 
status of all vessels and offshore units that are classed with 
ABS. Training of our qualified workforce is supported by a 
centralized learning organization and ABS Academy.
    ABS has also delegated statutory work on behalf of 110 
national flag states or countries where vessels and marine-
related facilities are registered. In this capacity, ABS and 
other class societies are referred to as recognized 
organizations or ROs.
    For nearly 100 years, ABS has been the official class 
society of the United States under the Merchant Marine Act of 
1920. ABS has maintained a long and valued relationship with 
the U.S. Coast Guard, and along with other class societies, 
performs delegated inspections on behalf of the U.S. Coast 
Guard which includes the alternate compliance program or ACP.
    As stated, ABS plays an important role in marine and 
offshore safety, but ABS is only one component of the overall 
safety chain. Shipowners, crews, shipyards, equipment and 
material manufacturers, port states, flag states, charters, and 
underwriters all have vital roles as well to support the safety 
of the vessel, the crew, and the environment.
    The control environment for ABS is robust and transparent 
and includes an extensive internal quality management system. 
Over 4,000 documented policies, procedures, and work 
instructions guide our employees in their day-to-day work.
    Secondly, we conduct more than 100 internal audits 
ourselves to assess the quality of our work, and there are more 
than 50 external audits of ABS every year. External audits are 
conducted by flag states, including the U.S. Coast Guard and 
International Association of Class Societies or IACS, among 
others.
    Continuous improvement is an important element of our 
quality system with input for change from employees, from 
clients, from audits, and lessons learned. Port state control, 
where vessels are boarded when entering port, is an external 
indicator of the quality of ABS service delivery. In fact, last 
year ABS maintained its leading position in overall port state 
control performance, being one of the top performing ROs in all 
three of the most active regions in the world for the last 3-
year period from 2016 to 2018.
    For ABS, our objective remains the same as ever, to set 
standards for safety and excellence in marine and offshore 
design, construction, and operation and to verify adherence to 
those standards.
    Again, I would like to thank the committee for its time and 
look forward to answering your questions.
    [Mr. Moilanen's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Adam W. Moilanen, Vice President of Health, 
     Safety, Quality, and Environment, American Bureau of Shipping
    Good afternoon Mr. Chairman, Mr. Ranking Member, Members of the 
Committee. First of all, I want to thank the Committee for giving the 
American Bureau of Shipping, or ABS, the opportunity to participate in 
this hearing today. My name is Adam Moilanen and I am Vice President of 
ABS overseeing our Health, Safety, Quality and Environmental Management 
System.
    I'd like to provide the Committee an overview of ABS, of who we are 
and what we do. ABS is a mission-focused not-for-profit organization 
dedicated to the promotion of safety in the marine and offshore 
industries.
    ABS was founded in 1862 and we are the sole American classification 
society. We are an organization of about 2,800 people, made up of naval 
architects, marine engineers, and other highly technical and 
experienced professionals, with alumni from each State Maritime Academy 
in the USA, as well as the U.S. Merchant Marine Academy and U.S. Coast 
Guard Academy, and with a number of employees who are active reservists 
or retired from our U.S. armed services.
    With safety as our core value, ABS has now achieved over three 
years of zero lost-time work related injuries for our workforce. ABS 
has implemented an ongoing safety excellence program as well as Life 
Safety Rules, which includes a Stop Work Obligation authorizing all 
employees to intervene if safety is in question in any aspect of their 
work.
    The actual day-to-day work of ABS includes research and Rule 
development; design review; survey during new construction of vessels/
units including associated material and equipment; surveys during the 
operational life of those vessels/units and performing safety audits of 
companies and their vessels/units. Note that our Rules are the 
mechanism by which we publish technical safety standards for industry. 
We also publish the ABS Record which provides an up-to-date status of 
all vessels and offshore units that are classed by ABS. Training of our 
qualified workforce is supported by a centralized learning organization 
and ABS Academy.
    ABS also is delegated statutory work on behalf of 110 national flag 
states/countries where vessels and marine related facilities are 
registered. In this capacity, ABS and other Class Societies are 
referred to as Recognized Organizations, or ROs.
    For nearly 100 years, ABS has been the official classification 
society of the United States, under the Merchant Marine Act of 1920. 
ABS has maintained a long and valued relationship with the U.S. Coast 
Guard and, along with other Class Societies, performs delegated 
inspections on behalf of the U.S. Coast Guard, which includes the 
Alternate Compliance Program or ACP.
    As stated, ABS plays an important role in marine and offshore 
safety, but ABS is only one component of the overall safety chain. 
Shipowners, crews, shipyards, equipment and material manufacturers, 
port states, flag states, charterers and underwriters all have vital 
roles as well to support the safety of the vessel, the crew and the 
environment.
    The control environment at ABS is robust and transparent and 
includes an extensive internal quality management system. Over 4,000 
documented policies, procedures and work instructions guide our 
employees in their day-to-day work. Secondly, we conduct more than 100 
internal audits ourselves to assess the quality of our work, and there 
are more than 50 external audits of ABS every year. External audits are 
conducted by flag states, including the U.S. Coast Guard and the 
International Association of Classification Societies (IACS), among 
others.
    Continuous improvement is an important element of our quality 
system with input for change from employees, clients, audits and 
lessons learned.
    Port State Control, where vessels are boarded when entering port, 
is an external indicator of the overall quality of ABS service 
delivery. In fact, last year, ABS maintained its leading position in 
overall Port State Control performance, being one of the top performing 
ROs in all three of the most active regions of the world for the three-
year period of 2016 to 2018.
    For ABS, our objective remains the same as ever: to set standards 
for safety and excellence in marine and offshore design, construction 
and operation and to verify adherence to those standards.
    Again, I would like to thank the Committee for its time today, and 
I look forward to answering your questions.

    Mr. Carbajal. Thank you, Mr. Moilanen.
    Next, Mr. Smith, you may proceed.
    Mr. Smith. Thank you, Mr. Chairman, Ranking Member Gibbs, 
and distinguished members of this subcommittee.
    My name is Aaron Smith, and I have the pleasure of serving 
as president and CEO of the Offshore Marine Service Association 
or OMSA. I want to thank you for allowing me to speak here.
    Safety is a culture in our industry, and I am honored to be 
here to share with you how the domestic maritime industry not 
only strives to ensure that everyone goes home at the end of 
their hitch but also explain how this committee can help 
enforce current laws that safeguard American lives, American 
jobs, and our national security.
    Mr. Chairman, my organization represents the U.S.-flagged 
vessels and associated supply chain engaged in constructing, 
maintaining, and servicing offshore energy infrastructure, 
including the oil and gas fields of the Gulf of Mexico, and 
increasingly, the offshore wind fields of the east coast. We 
represent in total 170 member companies across the United 
States, and we are proud to report that our collective TRIR 
incident rate is more than two times better than the general 
oil and gas production industry.
    OMSA has two complementary purposes, to increase industry 
safety and to ensure proper enforcement of the Jones Act which, 
as this committee knows, is vital to our national homeland and 
economic security. And while the offshore energy industry 
continues to strive for zero incidents, our achievements could 
not happen without the United States Coast Guard. They serve as 
our regulator, but they also serve as our first responders.
    And we think what this committee has done to advance 
legislation to ensure that our 42,000 Coast Guard men and women 
who protect our Nation and protect our industry will never 
again miss a paycheck because of politics.
    While safety is intrinsic to our industry, the flag state 
laws governing United States vessels are some of the more 
stringent in the world. However, many of these laws are not 
applied to the foreign vessels operating here. The net result 
is the U.S. has created an unlevel playing field that favors 
foreign vessels and mariners doing business in our Nation's own 
waters.
    As a few examples, when here, foreign vessels are not 
required to report the same level of incident data that we have 
to report to the United States Coast Guard. Additionally, 
foreign vessels can and do employ foreign nationals who may not 
follow the same safety standards as U.S. mariners and are paid 
a fraction of what OMSA members pay their U.S. mariners, 
creating a lucrative cost advantage for these vessels.
    Use of these mariners also causes security problems as many 
come from non-aligned nations such as Russia and China and are 
issued 5-year visas with little oversight. Moreover, U.S. law 
requires all persons on board a U.S.-flagged vessel to have a 
merchant mariner credential.
    Conversely, almost every foreign nation allows only the 
marine crew to have such a license. The cost differential 
caused by this requirement can stretch to $1,000 per person.
    Outside of mariners, our industry utilizes modules to 
customize every vessel for each operation or contract. 
Regardless of complexity or risk, the Coast Guard requires the 
U.S.-flagged vessels to be subjected to lengthy plan approval 
and physical inspections. The cost and delays associated with 
this requirement which are not enforced on foreign vessels have 
directly cost OMSA members jobs and work.
    Considering the higher safety standard carried by U.S.-
flagged vessels, one of the best ways to protect mariner safety 
is to fully enforce the Jones Act. Unfortunately, between 1976 
and 2009, Customs and Border Protection created numerous 
loopholes to the Jones Act which have allowed foreign-flagged 
vessels to transport energy equipment between U.S. points in 
contravention to the law and in detriment to U.S. mariners.
    Since 2009, CBP has openly acknowledged three times that 
they wrongly exceeded their authority. The first two times, CBP 
failed to follow through with their promised remedy. The third 
time came last month.
    In this instance, CBP also sought to revoke the so-called 
Koff or heavy lift rulings where they had correctly enforced 
the law and prevented foreign-flagged vessels from moving heavy 
lifts between two U.S. points. In place of the Koff ruling, CBP 
has proposed legally dubious definitions which not only help 
foreign vessels to conduct all lifts in contravention to the 
law but create new loopholes in the Jones Act. These 
definitions are outside the law and are unnecessary.
    This committee in its wisdom and in its constitutional 
authority has already created and passed through the House a 
legal, transparent, and safe ways for these heavy lifts to be 
conducted.
    The U.S. offshore industry has now been waiting for 10 
years and 1 month to see the Jones Act properly enforced and 
put our American mariners back to work. Without proper 
enforcement of the Jones Act, we instead cede this work to 
foreign vessels which do not comply to the same safety standard 
as U.S. vessels. They also do not comply to the same standards 
we have for environmental safety or security laws.
    For these reasons, we hope the committee will join us in 
working towards correct enforcement of the Jones Act, and I 
look forward to your questions.
    Thank you.
    [Mr. Smith's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Aaron C. Smith, President and Chief Executive 
              Officer, Offshore Marine Service Association
    Chairman Maloney, Ranking Member Gibbs, and Members of the 
Subcommittee, thank you for allowing me to speak at this important 
hearing. My name is Aaron Smith, and I have the pleasure of serving as 
the President and CEO of the Offshore Marine Service Association 
(OMSA).
                               who we are
    OMSA is the association for the domestic offshore marine 
transportation industry. Traditionally, many of our members own and 
operate the U.S.-flagged vessels engaged in constructing, maintaining, 
and servicing oil and gas infrastructure on the Outer Continental Shelf 
(OCS). More recently and in increasing numbers, OMSA members are 
engaged in constructing and servicing the offshore wind market along 
the East Coast.
    OMSA's members also include many shipyards that construct, 
maintain, repair, and modernize both privately and government-owned 
U.S. fleets. In addition, we represent associated suppliers and allied 
companies that provide supplies, services, and training to these vessel 
operators and shipyards.
    In total, OMSA represents approximately 170 companies and their 
approximately 12,000 employees. While these companies and employees are 
primarily based in the Gulf Coast, OMSA has an increasing presence on 
the East and West Coasts. In addition to geographic disparity, we also 
represent business of varying size, from large publicly traded 
companies to small family-owned businesses. Some of our members have 
hundreds of vessels while others operate only one or two.
        importance of safety to our organization and membership
    OMSA has two stated and complementary purposes. Our organization 
exists to promote the highest standards of safety. Specifically, we 
work to constantly improve the training of mariners and offshore 
workers and ensure international and domestic laws and regulations are 
written and implemented in a way that benefits mariners, contractors, 
workers, vessel operators, the general public, and the environment.
    Toward this end, OMSA is one of three accreditation bodies to 
conduct SafeGulf training. SafeGulf is a standardized safety 
orientation program that ensures everyone who works in the energy 
industry--onshore or offshore--receives the same comprehensive, 
independently audited safety training. Additionally, as a member of the 
SafeGulf Advisory Group, OMSA helps set the standards for this program, 
working to ensure that as the offshore energy industry changes, the 
SafeGulf orientation changes with it.
    Additionally, OMSA created their own system dynamic positioning 
operator (DPO) training and certification scheme, one which exceeded 
the existing industry standards.
    Dynamic positioning (DP) is used to hold vessels in position in 
situations where mooring or anchoring cannot be utilized; usually, this 
means when two vessels or a vessel and an installation are close to 
each other. As such, DP operations are, by their very nature, safety 
critical activities. The existing training system did not adequately 
account for this criticality. Thus, OMSA created its own program, 
called the Offshore Service Vessel Dynamic Positioning Authority 
(OSVDPA). This DPO certification program is an improvement upon the 
existing industry standard, including increased assessments, increased 
experience verification systems, and true-to-life simulations.
    I am proud to also run the OSVDPA and via my work with the OSVDPA, 
I also sit on the Marine Technology Society DP Committee's Guidance and 
Standards Subcommittee. This committee sets design, operational, and 
competency standards intended to improve the safety of the DP industry. 
Also, I am currently part of an Oil Company International Marine Forum 
(OCIMF) ad hoc working group to re-write the OCIMF DP risk assurance 
guidelines.
    The importance of safety and the constant drive toward zero 
incidents is operationalized by OMSA members. You see it in the safety 
management systems of OMSA members. These systems include the policies 
and procedures which are utilized to prevent, respond to, and correct 
incidents. The specificity of these systems is truly impressive.
    They include not only training requirements, procedures for big 
operations, requirements for job safety analyses (or JSAs), and stop 
work authority. They include seemingly minor components like how 
workers should park their cars and admonishments about using cell 
phones while driving to and from work.
    The result of these systems is quantifiable. Every year OMSA 
collects Total Recordable Incident Rate (TRIR) data from its member 
companies. Last year, the collective OMSA TRIR was 0.29. For 
comparison, the Bureau of Safety and Environmental Enforcement (BSEE) 
reported that the TRIR for the oil and gas production sector was 0.8, 
drilling and well operations was 0.6, and construction and 
decommissioning was 0.7. In short, the OMSA Member TRIR is 
significantly lower than any peer group.
      importance of industry partnership with the u.s. coast guard
    While OMSA, OMSA Members, and the offshore energy industry have 
taken immense measures to improve the safety of our industry, there is 
another party that must be recognized as one of the primary factors for 
the safety of our industry. Specifically, the safety advancements 
achieved by our industry could not have happened without the U.S. Coast 
Guard. The Coast Guard is not only our industry's regulator, they are 
also who the offshore industry calls when everything has gone wrong. 
They are our first, and often only responders.
    The roles of regulator and rescuer are in addition to the roles our 
Coast Guardsmen and women play as part of our national and homeland 
security apparatus, protecting our borders--both land and sea borders--
and conducting drug interdictions on our Outer Continental Shelf (OCS) 
and on the high seas beyond.
    For all of these reasons, it is unconscionable that 2018 started 
with a 35-day period where our 42,000 Coast Guardsmen protected our 
industry and our nation were not receiving a paycheck for doing so. In 
my mind, the single most important thing this Subcommittee, Committee, 
and Congress can do to provide for the safety of our industry is to 
ensure that disagreements in Washington never cause those protecting or 
rescuing us from being paid for doing so.
                    safety of the u.s.-flagged fleet
    When these two parties, the U.S. offshore marine industry, and the 
U.S. Coast Guard work together the result is the impressive safety 
record indicated by the TRIR stats previously cited.
    Beyond the safety culture of OMSA members and the professionalism 
of the U.S. Coast Guard, this record is also in many cases a result of 
U.S. Coast Guard regulations covering the U.S.-flagged fleet which are 
more stringent than those governing foreign-flagged vessels that 
operate in U.S. waters. The net result is that the U.S. has created an 
uneven playing field that favors foreign vessels and mariners in our 
own waters.
    While most nations meet the standards set by the International 
Maritime Organization (IMO) conventions, such as the International 
Convention on Standards of Training, Certification and Watchkeeping for 
Seafarers (STCW), International Convention for the Safety of Life at 
Sea (SOLAS), and the International Convention for the Prevention of 
pollution from Ships (MARPOL), these are only minimum standards. Above 
those conventions each flag state has more extensive regulations for 
the ships in their registry.
    The U.S. Coast Guard's regulations and policies are some of the 
more stringent within IMO White List nations. However, many of these 
regulations are only applicable or are only applied to U.S.-flagged 
vessels. OMSA has compiled a list of some of the more ready examples.
Incident Reporting
    At 46 C.F.R.  4 is the requirement for U.S.-flagged vessels 
reporting marine casualties to the U.S. Coast Guard. This regulation is 
more stringent than those same requirements for foreign flagged vessels 
operating in U.S. waters. Specifically, when a vessel is operating 
beyond the boundary line (12 nautical miles from shore) U.S.-flagged 
vessels must report incidents resulting in injuries to less than five 
people; groundings; allisions; loss of propulsion steering, or other 
impairment of the vessel its components and cargo; adverse impact to 
the vessel's seaworthiness; and significant harm to the environment 
must be reported.
    Obviously, that is all information that is good for a safety 
regulator to have. It is especially problematic to think that the 
foreign-flagged vessels operating in U.S. waters are not reporting this 
information when such vessels are often in U.S. waters for days, week, 
months, and even years without coming into port. As such, unless the 
vessel operator or the charterer proactively reports an incident to the 
Coast Guard, the Coast Guard may never know about--as purely 
hypothetical examples--a foreign-flagged accommodation vessel losing 
power and floating through a crowded field, or a foreign-flagged tug 
hitting an installation.
Foreign Manning
    The differences in U.S.-flagged vessel regulations and foreign-
flagged vessel regulations are not constrained to the vessel itself. 33 
C.F.R.  141.5 allows vessels with an ownership structure that is more 
than 50 percent foreign to employ foreign nationals in U.S. waters. 
Specifically, these foreign mariners are provided a five-year visa to 
come and work as a mariner in the U.S. Moreover, the employer of such a 
mariner does need to prove that there is a lack of U.S. mariners before 
the visa is issued. In fact, the vessel operator does not need to even 
regularly prove the vessel is more than 50 percent foreign owned; once 
this determination is made one time, it is good for the life of the 
vessel. Finally, when foreign mariners work in U.S. waters, there is 
not a requirement that they are paid U.S. wages. As such, many of these 
mariners will be paid a fraction of what a U.S. mariner would be paid, 
thereby creating a lucrative cost advantage for the foreign vessel 
operators.
    The problems with how these regulations are implemented extend 
beyond the economic disadvantages to U.S. vessel operators. The 
implementation of these regulations also causes situational awareness 
and security problems for the U.S. Coast Guard on our OCS. These 
foreign mariners are issued visas with little oversight. Which is a 
problem when you consider the critical nature of the work that is done 
on the OCS and the catastrophic results that can occur when things go 
wrong. The problem is further exacerbated when one considers that many 
of these mariners come from nations that cannot be considered allies. 
Specifically, one of the largest pools of mariners for the offshore 
energy industry are Russian nationals.
Mariner Versus Industrial Worker
    On the topic of mariners is a provision in the U.S. Code which 
disadvantages U.S. vessel operators. 46 U.S.C.  8701 requires all 
persons aboard a U.S.-flagged vessel to have a merchant mariner 
credential, essentially a Coast Guard license. Conversely, almost every 
foreign-flagged vessel only requires the marine crew to have such a 
license. This law has only recently been enforced by the U.S. Coast 
Guard; however, it is very costly for U.S. vessel operators. The amount 
of training and other requirements which are part of a U.S. Coast Guard 
license is at least $7,000, plus the time it takes to secure such a 
license.
    This is especially problematic because as offshore energy 
operations have gotten more complex, and the safety culture of vessel 
operators, charterers, and third parties has improved, more and more 
personnel have been added to the lists of people on board a vessel. 
These additional personnel are remote operated vehicle (ROV) pilots, 
crane operators, acoustic data experts, representatives of the 
charterers and vendors, and other professionals. They are not engaged 
in the operation of the vessel nor are they ever unescorted in critical 
areas. For this reason, in almost every country in the world, they are 
not required to be a licensed mariner. However, they are in the U.S. 
system. This is another U.S. regulation that makes a U.S. flagged 
vessel more expensive than a similarly equipped foreign-flagged vessel.
Portable Accommodation Modules (PAMs)
    Offshore energy vessels are designed to be versatile so that they 
can perform a variety of missions. To customize these vessels, owners, 
charterers, or third-party vendors and contractors will install modules 
on a vessel. These modules can be as simple as a completely 
freestanding shipping container with a light and a workbench inside or 
as complex as living quarters completely integrated into a vessel's 
power, water, and HVAC systems.
    As the risk level varies greatly between the above examples, 
international industry standards have differing inspection 
requirements. The American Bureau of Shipping (ABS) has internationally 
accepted guidelines which distinguish between Portable Accommodation 
Modules (PAMs), which must be inspected, and industrial modules which 
do not ``so long as the modules are unmanned during heavy weather and 
sufficient space for the entire complement of personnel assigned to 
work in the unit(s) is provided in a deckhouse, superstructure, or 
module complying fully with applicable structural requirements.''
    In contrast to the existing industry standards, in 2016, the USCG 
released the CG-ENG Policy Letter 01-16, Portable Accommodation Module 
(PAM) Guidance, (PAM Policy Letter), which applies to ``any non-
integral enclosed space that is installed on a host vessel or facility, 
and occupied by personnel for berthing, recreational, service, or 
industrial purposes''--essentially any module placed on a vessel.
    Not only does the PAM Policy Letter apply a single standard to 
modules with varying risk profiles, its requirements are onerous. The 
Policy Letter requires all plans, arrangements, and specifications for 
the module itself, where it will be placed on the vessel, and how it 
will be attached to the vessel and/or connected to any vessel system to 
be submitted to the relevant Coast Guard inspector, the Authorized 
Classification Society (ACS), and/or the Marine Safety Center (MSC).
    In addition to plan approval, a physical inspection is required by 
the USCG. This requirement is difficult to comply with, as scheduling 
these inspections requires a minimum of two weeks. With the ``just-in-
time'' nature of the offshore energy industry these timelines can 
simply not be adhered to.
    That fact would not be as problematic if every vessel operating on 
the U.S. OCS had to comply with the PAM Policy Letter. However, that is 
not true. The PAM Policy letter again applies only to U.S.-flagged 
vessels. Foreign-flagged vessels have been able to take advantage of 
this requirement, taking jobs from U.S. vessels based upon the fact 
they could get the work done sooner because they did not have to wait 
for Coast Guard inspections.
Inspection Forms
    Additionally, in the last year our industry has noticed a new 
enforcement regime on U.S-flagged vessels. For example, the U.S. Coast 
Guard has long used CG-835V ``Vessel Inspection Requirements'' to 
document deficiencies found on U.S.-flagged vessels. In the past, 
minor, immediately corrected items found during an inspection were not 
recorded on an 835 but were, instead, addressed on the spot, or 
documented on a ``work list'' and addressed immediately after the 
inspection. This system reflected the lower risk profile carried with 
addressing these items.
    However, OMSA members no longer find these accommodations to be 
provided. Instead, every single deficiency is now documented by USCG 
personnel on an 835. While that might not sound like much of a burden, 
the problem is all deficiencies documented on an 835 need to be 
corrected and then the correction needs to be inspected in a follow up 
by a Coast Guard or other third-party inspector. Which means the vessel 
operator either has to wait for a Coast Guard inspector to become 
available or pay a third party to have the repair inspected. This 
change in strategy means that it might cost a vessel operator thousands 
of dollars and a day at the dock to have the changing of a light bulb 
inspected.
    Once again, the 835-inspection system is only for U.S.-flagged 
vessels, thereby creating a cost and time-based competitive 
disadvantage for U.S.-flagged vessels when compared to their foreign-
flagged competitors.
                     lack of jones act enforcement
    The above are just a few examples of how U.S.-flagged vessels carry 
a higher standard of safety and security when compared to foreign-flag 
vessels operating in the same space and providing the same services. 
Thus, one of the best ways the safety of the maritime industry can be 
increased is to fully enforce the Jones Act. Enforcement of this 
statute is OMSA's second primary mission, one complementary of our 
mission to increase the safety of our industry.
    Unfortunately, the Jones Act is not currently fully enforced as it 
relates to the offshore energy industry. Specifically, for the last 
three decades, the Federal Government has allowed foreign vessels to do 
work the Jones Act reserves for U.S.-flagged vessels. In addition to 
benefiting foreign companies, foreign ships, and foreign mariners to 
the detriment of U.S. mariners, shipyard works and U.S. taxpayers it 
also increases the number of vessels on our OCS that comply with a 
lower safety standard.
    Unfortunately, CBP has allowed this to happen by confusing and 
degrading the clear standard proffered by the Jones Act by issuing 
interpretations of the statute that are directly contrary to the Jones 
Act's text, structure, and purpose.
    Specifically, between 1976 and 2009, CBP issued several letter 
rulings which allowed foreign flag vessels to transport offshore energy 
cargos (called ``merchandise'' under the Jones Act) from U.S. ports to 
locations on the U.S. OCS. These letter rulings are CBP's responses to 
private correspondence. They were issued without any notice or comment 
before their publication.
    Without any basis in law, CBP's letter rulings have green lit 
proposals by foreign vessel operators to transport merchandise to and 
from U.S. points on the OCS, using vessels that do not comply with the 
standards that U.S.-flagged vessels have to meet.
    The problem started in Letter Ruling HQ 101925 (also known as T.D. 
78-387 Oct. 7, 1976). In this letter, CBP permitted the foreign-built 
vessel to transport pipeline connectors, pipe and repair materials, 
wellhead equipment, and other materials from the U.S. mainland to a 
point on the OCS. CBP has applied--and extended--the flawed reasoning 
of that letter ruling dozens of times.
    Furthermore, CBP has issued letter rulings that improperly narrow 
the definition of ``merchandise'' that must be transported by Jones Act 
qualified vessels. By its plain language, the Jones Act applies to the 
all transportation of ``merchandise,'' and defines that term with 
broad, sweeping language by specifically including even ``valueless 
material'' in 46 U.S.C.  55102(b), and prescribing only limited, 
explicit exceptions for narrow categories of merchandise, such as empty 
cargo containers--and only then when a foreign government extends 
reciprocal privileges to such items. Despite this binding law by 
Congress, CBP has mis-interpreted ``merchandise'' in an unlawfully 
narrow fashion, labeling as ``vessel equipment'' exempt from the Jones 
Act large categories of articles, such as oilfield equipment, that are 
transported by a vessel from a port and installed on the OCS by vessels 
that comply with a lower safety standard enforced by the U.S. Coast 
Guard.
                         2009 revocation effort
    CBP realized its errors and in 2009 issued a notice that it 
intended to revoke many of these flawed letter rulings. That notice was 
very candid when it admitted that the agency had not been following the 
law:

        CBP recognizes that allowing a foreign-flagged vessel to 
        transport articles that are not needed to navigate, operate, or 
        maintain that vessel or for the safety and comfort of the 
        persons on board that vessel, but rather to accomplish a[n] 
        activity for which that vessel would be engaged, would be 
        contrary to the legislative intent of [the Jones Act] (Proposed 
        Modification and Revocation of Ruling Letters Relating to the 
        Customs Position on the Application of the Jones Act to the 
        Transportation of Certain Merchandise and Equipment between 
        Coastwise Points, 43 Cust. B. & Dec. No. 28, at 61 (July 17, 
        2009)) (2009 Notice).

    The Notice also stated:

        CBP recognizes that allowing foreign-flagged vessels to 
        transport merchandise from one U.S. point and install that 
        merchandise at another point on the OCS on the condition that 
        it merely be accomplished 'on or from that vessel' would be 
        contrary to the legislative intent of [the Jones Act] (2009 
        Notice).

    CBP failed, however, to revoke the unlawful letter rulings. On 
September 15, 2009, at the urging of foreign vessel owners and 
charterers of vessels who were benefiting from CBP's unlawful opinions, 
CBP made a final decision to withdraw its proposed action and announced 
that a ``new notice . . . will be published in the Customs Bulletin in 
the near future.'' While the suspension of the 2009 Notice of 
Revocation was disappointing, CBP did not reverse its determination 
that its letter rulings were inconsistent with the Jones Act.
                  after the 2009 notice of revocation
    Three things happened after CBP suspended their 2009 Notice of 
Revocation. First, relying on CBP's promise to act ``in the near 
future,'' OMSA members invested $2 billion in U.S. shipyards to 
construct dozens of the state-of-the-art vessels required to do the 
work covered by the Revocation notice. Not only were these vessels 
built with the latest technology, they also were, obviously, U.S.-
flagged, and therefore subject to increased safety standards when 
operating in U.S. waters, when compared to foreign-flagged vessels as 
evidenced by the above examples.
    Second, OMSA spent countless hours meeting with CBP and documenting 
violations of the Jones Act that exist under the faulty letter rulings.
    Finally, CBP issued letter rulings which accurately upheld the law. 
Specifically, it issued three rulings referred to as the ``Koff'' 
rulings (HQ H 225102) (September 24, 2012); (HQ H235242) (November 15, 
2012); and (HQ H242466) (July 3, 2013). In these rulings, CBP correctly 
enforced the Jones Act, stating that a foreign-flag heavy lift vessel 
could not move merchandise between two points on the U.S. OCS, even 
though the moves made by this vessel were relatively short in distance. 
These rulings were viewed as problematic within the offshore energy 
community for two reasons. First there were not U.S. vessels to conduct 
the operations at issue in the letter rulings. The vessels necessary 
are large, highly specified vessels that conduct very rare but very 
important projects. These projects are so rare that the small fleet of 
vessels that perform these operations need a worldwide steam of 
projects--and heavily government subsidized shipyards--to be 
profitable.
    While the Jones Act community was pleased that these letters 
represented CBP adhering to the statute, those who sought to utilized 
these vessels were not pleased, not only because of the specific 
operations in question--which again happen only rarely--but also 
because the denial of these letter ruling requests represented the 
apparent change in enforcement posture evident in the Koff rulings 
could spill into the countless other areas of projects that happen on a 
daily basis in which CBP had been allowing foreign vessels to engage.
                       2017 notice of revocation
    The ``near future'' promised by the suspension of the 2009 
revocation effort appeared to come on January 18, 2017 with CBP issuing 
another notice of revocation. The 2017 Notice proposed the revocation 
or modification of 25 letter rulings which allow foreign-flagged 
vessels to move energy related merchandise from U.S. ports to locations 
on the U.S. OCS.
    Like the 2009 notice, the 2017 Notice demonstrated remarkable and 
laudable honesty, stating that it had created wholesale exceptions to 
the Jones Act that were not found in the statute. It also stated that 
the CBP-created loopholes were not found in statute and should be 
withdrawn. (See ``Proposed Modification and Revocation of Ruling 
Letters Relating to Customs Application of the Jones Act to the 
Transportation of Certain Merchandise and Equipment between Coastwise 
Points,'' 51 Cust. B. & Dec. No. 3, at 4 (Jan. 18, 2017)) (2017 
Notice).
    OMSA and numerous OMSA members submitted comments in support of the 
2017 Notice. In addition to these comments, 34 U.S. Representatives--
including half of the members of this Subcommittee--and 10 U.S. 
Senators sent letters in support of CBP's 2017 Notice.
    Despite this second acknowledgement that they were not enforcing 
the laws that Congress had passed and the widespread support this 
Notice received, on May 10, CBP once again made a final decision to 
withdraw their revocation notice stating, ``[b]ased on the many 
substantive comments [it] received,'' it needed ``further research on 
the issue'' and was therefore ``reconsider[ing]'' whether to withdraw 
and/or revoke the letter rulings identified in the 2017 Notice 
(Withdrawal of Proposed Modification and Revocation of Ruling Letters 
Relating to Customs Application of the Jones Act to the Transportation 
of Certain Merchandise and Equipment between Coastwise Points, 51 Cust. 
B. & Dec. No. 19, at 11 (May 10, 2017)).
    This notice and comments from CBP personnel to congressional staff 
are unfortunate because they seem to indicate that CBP's sustained 
acknowledgment that its letter rulings flouting the Jones Act do not 
matter. Further, the comments by CBP imply that the Administration is 
allowed to discuss and study if it wants to comply with the laws passed 
by Congress.
                  after withdrawal of the 2017 notice
    It is clear who benefited from the withdrawal of the 2017 Notice. 
Foreign vessel owners and their trade associations claimed victory. One 
email I received from a London-based trade association for the 
international competitors of OMSA members called it a ``fantastic 
result'' and that everyone should ``celebrate a positive result.''
    OMSA members were not in a celebratory mood. In fact, 12 days after 
CBP withdrew the 2017 Notice, one OMSA member lost a lucrative job to a 
foreign flag vessel. The job in question was work that was covered by 
the revocation notice. The foreign vessel that took this contract was 
able to do so by not complying with the above-described U.S. 
regulations and was able to underbid the OMSA member by 25 percent.
    Again, OMSA attempted to work with CBP and the Administration to 
help them find a way to follow the law. As part of these discussions, 
it became apparent that CBP would not be able to move our issue forward 
until it was able to find a solution to the ``heavy lift'' problem.
    This ``problem'' is the plain reading of the Jones Act and its 
prohibition on foreign-flagged vessels engaging in ``any part'' of the 
transportation of merchandise. Understanding that the U.S. market did 
not have any of these heavy lift vessels because of the factors listed 
above, OMSA worked with members of this committee and Congressional 
leaders, including Chairman DeFazio, Congressman Graves of Louisiana, 
Congressman Garamendi, Congressman Scalise, and Congressman Lowenthal 
to develop a legislative solution.
    We worked with this Committee and these members because OMSA 
understood that if changes to the Jones Act are necessary, Congress 
should enact them. Our solution was based on an existing legislative 
solution that provides market transparency and the ability to utilize 
foreign-flagged heavy lift vessels when there is not a suitable U.S. 
vessel available.
                         2019 revocation effort
    Last month, CBP again issued a revocation notice. (See Customs 
Bulletin (Vol. 53, No. 38, October 23, 2019) ``Proposed modification 
and revocation of ruling letters relating to CBP's application of the 
Jones Act to the transportation of certain merchandise and equipment 
between coastwise points'') (2019 Notice).
    Just as the 2009 and 2017 Notices had before, the 2019 notice again 
confirmed that a number of previously issued letter rulings are not 
consistent with the Jones Act and must be revoked or modified.
    Unfortunately, CBP did not follow the heavy lift solution proposed 
by this Committee and adopted by the U.S. House of Representatives. 
Instead, the 2019 notice revokes the previously mentioned Koff Rulings 
and replaces them with interpretive guidance which will allow for 
foreign-flagged vessels to transport merchandise when engaged in 
lifting operations. This definition does not only cover those very 
specialized and rare operations I mentioned before. Instead, the 
loophole offered by CBP applies to the lifting of any offshore subsea 
merchandise. These are operations that the dozens of U.S. vessels that 
have been built since the 2009 notice conduct on a daily basis--at 
least, those that haven't been idled.
    This definition is also very problematic because it proposes to 
create loopholes in the Jones Act which would allow for foreign-flagged 
vessels to move merchandise on the OCS, provided the foreign-flagged 
vessels claim such movements are necessary for safety or practical 
purposes.
    As previously stated, OMSA and OMSA members view safety as vitally 
important and we stand behind the safety of the U.S.-flagged maritime 
industry. We have doubts that the reasoning CBP adopts will actually 
increase safety; that is, the CBP proposal effectively encourages 
additional lifts of merchandise by multiple vessels, instead of using 
U.S. vessels that can transport from shore and have cranes to lift. 
Moreover, in the statute there is not a safety exemption to the Jones 
Act, and we worry about operators using this flawed reasoning by CBP as 
a pretext to violate the law and use cheap foreign vessels. In 
addition, we agree that heavy lift operations need to happen; for that 
reason we worked with this committee to provide for a legally viable 
way for these operations to happen in a safe and transparent manner. 
And again, the CBP's new loophole covers the work that can and is 
conducted by U.S.-flagged vessels, vessels that when operated in U.S. 
waters adhere to a higher safety standard than their foreign-flagged 
counterparts. If safety is the goal, these U.S.-flagged vessels should 
be utilized.
    For all of the reasons stated above, OMSA will continue to strive 
for increases in safety in our industry and increased Jones Act 
enforcement. We believe these goals will complement each other. We are 
grateful for the support for this mission provided by this Committee 
and we look forward to continuing to work with you on these important 
missions.
    Thank you for the opportunity to testify before the committee on 
such an important matter. I look forward to your questions.

    Mr. Carbajal. Thank you, Mr. Smith.
    Ms. Stephens, you may proceed.
    Ms. Stephens. Thank you, and thank you, Congressman Young, 
for the kind introduction. It is nice to hear from a fellow 
Alaskan.
    I am here today on behalf of the Passenger Vessel 
Association. It is a trade association representing the owners 
and operators of U.S. Coast Guard inspected vessels. Our 
membership has approximately 1,500 vessels, 600 business owners 
and businesses represented.
    PVA and the industry that we represent has a responsibility 
to be vigilant in addressing safety concerns. An essential 
reason for PVA's existence is to promote safety among its 
members and, indeed, among the operators of passenger vessels.
    To meet this responsibility, PVA develops and offers 
effective training programs and tools that vessel operators can 
easily implement. Some of these tools include preventive 
maintenance and guidance and documents, deckhand training 
manuals, and video training tools on firefighting, lifesaving, 
and other systems.
    PVA has its own safety management system for domestic 
passenger vessels. We call this Flagship. In June of 2017, the 
Coast Guard Director of Inspections and Compliance 
characterized Flagship as a remarkable achievement that meets 
the objectives and functional requirements for an SMS and a 
voluntary program that can be accepted by the Coast Guard. All 
of PVA's safety products can use and benefit smaller businesses 
like me or larger businesses with multiple vessels in their 
fleet.
    PVA interacts with the Coast Guard in a formal body known 
as the Coast Guard PVA Quality Partnership or QP. In our most 
recent QP meeting at Coast Guard headquarters last week, we 
discussed, among other things, what PVA has done to communicate 
safety information to members following the fire on the 
California dive boat, the Conception, who was not a PVA member. 
Over the years, the National Transportation Safety Board has 
made several recommendations to PVA, and we have responded to 
each of those appropriately.
    PVA's efforts to promote safety on passenger vessels depend 
on an engaged, well-trained, and adequately funded Coast Guard 
marine safety workforce. Coast Guard inspectors visit and 
rigorously examine domestic passenger vessels at least once a 
year. Having this direct Coast Guard presence on passenger 
vessels is essential and has successfully promoted safety.
    In the early 2000s as the Coast Guard made security a 
priority, the agency allowed the marine safety function to 
deteriorate. This situation became alarming enough that in 
2007, this committee under the leadership of Chairmen Oberstar 
and Cummings, pressed the Coast Guard to reinvigorate its 
marine safety mission. The result was the Coast Guard's action 
plan entitled ``Enhancing the Coast Guard's Marine Safety 
Program.''
    Are the action plan's objectives being met? Are the goals 
for the number and competence of the marine inspectors being 
satisfied? Some have suggested that the Coast Guard should 
delegate inspection functions of domestic passenger vessels to 
a third-party organization as has been done for towing vessels 
and certain deep draught vessels. PVA adamantly believes that 
this would be a mistake in policy. It would deprive the Coast 
Guard marine safety personnel of the intimate knowledge of the 
domestic passenger fleet.
    Furthermore, third-party organizations do not have the 
expertise regarding domestic passenger vessels. Direct Coast 
Guard inspection of domestic passenger vessels is the best way 
to promote safety.
    In the Passenger Vessel Safety Act of 1993, Congress 
determined that a vessel carrying more than six passengers for 
hire must meet rigorous safety standards and be inspected by 
the Coast Guard at least annually. These requirements exist 
primarily for safety of the paying passengers. They ensure that 
the vessel is constructed properly, that its master and crew 
have the proper documents and training, and that it has the 
appropriate fire protection, communications, and lifesaving 
equipment.
    Far too frequently, persons with full knowledge of Coast 
Guard requirements try to take illegal regulatory shortcuts and 
make a quick buck by using an uninspected vessel to carry more 
than six passengers for hire. This is unlawful and jeopardizes 
the passenger safety.
    In my written statement, you will find details about two 
recent incidences in Florida in which passengers on illegal 
charters died as a result of improper training and inactions by 
the boat crew. The problem of illegal charters has always 
existed, but it seems to have become much worse. It is simple 
to market an illegal charter to any audience on boat-sharing 
websites. This happens all over the country. The Coast Guard 
has recognized the problem and has begun to crack down. PVA 
applauds the Coast Guard, but unfortunately, the temptation for 
people to engage in illegal charters is so compelling that the 
enforcement seems to be a constant game of whack-a-mole for 
them to keep up with.
    Thank you very much for this opportunity to participate in 
the hearing. PVA encourages the subcommittee to stand by the 
statutory and regulatory requirements for safety on vessels 
that carry passengers for hire. Congress can best ensure safety 
on domestic vessels by strongly supporting and adequately 
funding the Coast Guard and marine safety mission. Thank you.
    [Ms. Stephens' prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Colleen Stephens, Vice President, Passenger 
                           Vessel Association
                              introduction
    Good afternoon. I am Colleen Stephens of Valdez, Alaska. My 
company, Stan Stephens Glacier & Wildlife Cruises, operates two 149-
passenger Coast Guard-inspected sightseeing vessels. We offer multi-
hour cruises to view glaciers and wildlife in Prince William Sound. We 
have been in business 48 years and carry roughly 18,000 persons each 
year from May to September.
    I testify in my capacity as Vice President of the Passenger Vessel 
Association (PVA). PVA is the national trade association representing 
owners and operators of U.S.-flagged, Coast Guard-inspected passenger-
carrying vessels of all types, including sightseeing and excursion 
vessels, vehicle-carrying and passenger-only ferries, dinner cruise 
boats, whalewatching vessels, gaming vessels, ``small-ship'' overnight 
cruise vessels, and windjammers. Our members operate approximately 
1,500 vessels. Our total membership is about 600 companies, including 
associate members who are shipyards, engine manufacturers, naval 
architects, marine equipment suppliers, and insurance companies.
                         pva's roots in safety
    PVA and the industry that we represent have a responsibility to be 
ever-vigilant in addressing safety concerns. An essential reason for 
PVA's existence is to promote safety among its members and indeed among 
all operators of domestic passenger vessels. We believe strongly that 
this is a primary mission of our association. To meet this 
responsibility, PVA develops and offers effective training programs and 
tools that vessel operators can easily implement.
    PVA has deep roots in safety. In fact, the association was formed 
nearly 50 years ago around a need to identify reliable sources of 
marine insurance and to work with the Coast Guard on regulatory matters 
and vessel inspection issues.
    In those early days, PVA (then the National Association of 
Passenger Vessel Owners) was made up of a relatively small group of 
individuals who operated primarily on the U.S. Inland River System. 
These operators were industry pioneers, who in many cases fashioned 
their businesses to reflect the romance associated with our country's 
rich riverboat history. While they built their businesses, they also 
recognized the need to expand training to protect passengers and crew. 
As the association grew, its members became more diverse, and PVA 
started attracting other types of vessel operators as members. A prime 
attraction for these new members was their desire access safety 
training tools produced by PVA.
    An essential component of PVA is its Safety, Security and Risk 
Management Committee. The committee's volunteer members have produced 
and released an array of new training tools, manuals and guidelines for 
PVA members to use in company training programs. These include:
    <bullet>  Preventative Maintenance checklists and guidance 
documents;
    <bullet>  Deckhand and Senior Deckhand training manuals;
    <bullet>  PVA/Coast Guard Risk Guide;
    <bullet>  Rail Jumper Guidance;
    <bullet>  Crew Drug Testing tools;
    <bullet>  Video training tools on firefighting, line handling, 
lifesaving equipment, personal safety for crew members, and preventing 
slips, trips, and falls; and
    <bullet>  A white paper focusing on combatting ``slips, trips and 
falls'' aboard passenger vessels.
    More recently, PVA launched an online crew training program to help 
PVA members make their safety and risk management programs and training 
even easier, effective, and more sophisticated.
    Following enactment of the Coast Guard and Maritime Transportation 
Act of 2010, PVA developed its own Safety Management System (SMS) 
expressly for domestic passenger-carrying vessels. We call it 
``Flagship.'' In June 2017, the Coast Guard's Director of Inspections 
and Compliance characterized the Flagship SMS as a ``remarkable 
achievement'' and advised PVA that ``Flagship SMS meets the objectives 
and functional requirements for a SMS as per 33 Code of Federal 
Regulation (CFR) Part 96, and this voluntary program can be accepted by 
the Coast Guard as it endeavors to enhance regulatory compliance and 
safety on domestic passenger vessels.''
    All PVA safety products are such that they can be used by and 
benefit smaller vessel operators, such as myself, as well as larger 
organizations with fleets of 20 or more vessels.
    PVA works closely with the U.S. Coast Guard and the National 
Transportation Safety Board (NTSB). Its relationships with both 
government entities helps to continuously raise the bar on safety. We 
interact with the Coast Guard in many venues, but especially in a 
formal body known as the Coast Guard-PVA Quality Partnership (QP) in 
which leaders of both organizations meet at least twice a year to 
examine pressing issues. At our most recent QP meeting at Coast Guard 
Headquarters last week on November 7, we discussed what PVA has done to 
communicate safety information to members following the fire on the 
California dive boat Conception (not a PVA member). Over the years, the 
NTSB has made several recommendations to PVA, and we have responded 
appropriately to them. For example, PVA has convened two ``summits'' of 
amphibious vehicle operators to discuss best safety practices in this 
segment of the industry.
               importance of coast guard's safety mission
    PVA's efforts to promote safety by passenger-carrying vessel 
operators depend heavily on an engaged, well-trained, and adequately-
funded Coast Guard Marine Safety Mission. Coast Guard inspectors visit 
and rigorously examine domestic passenger vessels at least once a year. 
Any detected deficiencies must be corrected. Having this direct Coast 
Guard presence on passenger vessels is essential and has successfully 
promoted safety.
    It is imperative that the Coast Guard safety function be preserved. 
In the early 2000s, as the Coast Guard made security a priority after 
enactment of the Maritime Transportation Security Act of 2002, the 
agency allowed its Marine Safety function to deteriorate. The situation 
became alarming enough that in 2007 this committee, under the 
leadership of Chairmen Oberstar and Cummings, convened a hearing to 
press the Coast Guard to reinvigorate its marine safety mission. Then-
Commandant Thad Allen promised corrective action, and the result was 
the action plan entitled Enhancing the Coast Guard's Marine Safety 
Program. After its issuance, things improved. However, PVA encourages 
this Subcommittee to review the objectives of Enhancing the Coast 
Guard's Marine Safety Program. Are they still being met? Specifically, 
are the goals for number of marine inspector billets being filled?
    Occasionally, some have suggested that a response to Coast Guard 
budgetary constraints would be to delegate inspection functions of 
domestic passenger vessels to a third-party organization, as has been 
done for towing vessels and certain deep-sea vessels. PVA adamantly 
believes that this would be a mistaken policy. It would deprive Coast 
Guard marine safety personnel of intimate knowledge of the domestic 
passenger fleet and would ``drive a wedge'' into the current good 
relationship between passenger vessel operators and Coast Guard 
personnel. Furthermore, third-party organizations such as 
classification societies do not have expertise regarding smaller 
passenger vessels that operate on domestic routes. The current 
commitment to direct Coast Guard inspection of domestic passenger 
vessels is the preferable policy and is the best way to promote safety.
                            illegal charters
    Many years ago, Congress determined that a vessel that carries six 
or more passengers ``for hire'' must satisfy numerous and rigorous 
safety standards and that it must be inspected by the Coast Guard at 
least once annually to ensure compliance. The key statute is the 
Passenger Vessel Safety Act of 1993.
    These requirements exist primarily for the safety of paying 
passengers. A person who purchases a ticket to ride on a compliant 
commercial vessel should be confident that the vessel is constructed 
properly, that its master and crew are properly certified and trained, 
and that it has appropriate fire protection, communications, and 
lifesaving equipment. The annual Coast Guard inspection ensures that 
the vessel meets these requirements.
    Far too frequently, a person with full knowledge of the Coast Guard 
requirement tries to take a regulatory ``short cut'' and make a buck by 
using an uninspected vessel to carry passengers for hire. This is 
illegal and jeopardizes the safety of passengers.
    Last year in Miami, the unlicensed captain of an illegal charter 
vessel killed a paying passenger by losing track of the number of 
swimmers in the water and running the boat over an unaccounted-for 
customer. The Coast Guard had previously issued an order telling the 
vessel owner to cease offering illegal charters. The captain pleaded 
guilty to violating the Seaman's Manslaughter Act and has received a 
prison term.
    In March 2017 off the coast of St. Petersburg, Florida, a swimming 
passenger from an illegally-operated charter vessel carrying 15 
passengers was swept away from the boat. Violating well-understood 
safety rules, an untrained deckhand dived into the sea attempting to 
save the passenger. Both the passenger and the deckhand drowned.
    The problem of illegal charters has always existed, but it seems to 
have become much worse with the proliferation of boat-sharing web 
sites. In the past, the illegal operator had to ``advertise'' locally 
by word of mouth. Now it is simple to market an illegal charter to a 
nationwide audience with a listing on a boat-sharing web site. There 
are many such web sites. The sponsor of the web site doesn't know or 
care whether the vessel is operating legally, and it's virtually 
impossible for the potential customer to tell.
    The Passenger Vessel Association has been ``sounding the alarm'' 
about the prevalence of illegal charters to the Coast Guard for several 
years. We are gratified that the Coast Guard, especially in certain 
geographic areas, recognizes the problem and has cracked down. Coast 
Guard units in Chicago, Miami, and elsewhere have undertaken extensive 
education and enforcement actions. Individual illegal charter voyages 
have been halted, owners and captains have been assessed civil fines, 
Captain of the Port orders to cease operations have been issued, and 
now we are beginning to see criminal penalties imposed on repeat 
offenders. PVA applauds the Coast Guard for these actions, but the 
temptation for people to engage in illegal charters is so compelling 
that enforcement often seems to be a game of ``whack-a-mole.''
    PVA encourages this Subcommittee to stand by the statutory and 
regulatory requirements for safety on vessels that carry passenger 
``for hire'' and to signal to the Coast Guard that enforcement actions 
against operators of vessels that carry passengers illegally should 
remain a high safety priority.
                               conclusion
    Thank you for this opportunity to participate in this hearing. An 
essential reason for PVA's existence is to promote safety among its 
members and indeed among all operators of domestic passenger vessels. 
Congress can best support safety on domestic passenger vessels by 
strongly supporting and adequately funding and staffing the existing 
Coast Guard Marine Safety Mission with direct inspection of passenger 
vessels. Combatting the proliferation of illegal passenger vessel 
charters is an important component of that safety mission.

    Mr. Carbajal. Thank you, Ms. Stephens.
    Mr. Sterbcow, you may proceed.
    Mr. Sterbcow. Thank you, Mr. Chairman, Ranking Member 
Gibbs, and members of the committee. I thank you for the 
opportunity to speak to you from the perspective of an attorney 
who has represented those injured in marine disasters and the 
survivors of those who have been killed in marine disasters for 
32 years.
    My experience and our experience dictates that safety in 
the marine environment is a product of accountability, pure and 
simple. Whether we are talking about a $100 million drill ship 
that sinks in the Gulf of Mexico or a jet ski that is rented at 
the beach, the goal must be to protect people, and that goal is 
only reached by holding those responsible accountable.
    Some examples of the law that applies to these cases that 
is severely lacking, in our opinion, is number one, the Death 
on the High Seas Act. It was passed in 1920. The Death on the 
High Seas Act applies to marine deaths occurring more than 3 
nautical miles from the coast of the United States or any 
Territory. The act limits recovery of damages to economic 
losses and funeral and burial expenses.
    Therefore, in cases where the victim is a child, a retiree, 
or a stay-at-home parent, those survivors who seek redress for 
the death of the decedent are limited to funeral and burial 
expense recovery. There is no accountability. That is not 
protecting people.
    Second, and an example--actually, a recent example of this 
that I would like to point out to you is in August of 2017, you 
may recall that the USS John S. McCain was rammed in the 
Singapore Strait by a freighter. Ten sailors were killed. The 
sailors hailed from New York, New Jersey, Connecticut, 
Illinois, Ohio, Maryland, Missouri, and Texas. Unless any of 
these sailors were supporting others economically or had 
economic dependents, their survivors are limited in damage 
recovery to their funeral and burial expenses. There is no 
accountability. There is no protecting people. And in this 
example, we are not protecting our servicepeople.
    A second example of inadequate legislation is what is known 
as the Limitation of Liability Act. Passed first in 1851, the 
act allows a vessel owner to limit its liability in cases of 
personal injury and death to the value of the vessel after the 
catastrophe. The vessel owner actually is the plaintiff in this 
case. The vessel owner files suit and alleges in Federal court 
his or her ability to limit liability growing out of a marine 
disaster to the value of the boat following the casualty.
    One need only look at the Conception to see the inequity, 
the gross inequity of the statute. Thirty-four people burned 
alive in a boat. Within 72 hours and before the Coast Guard had 
completed its investigation, the owner of the Conception filed 
suit in Federal court in California alleging an ability to 
limit its liability to the families of these 34 people to zero 
dollars, the value of the vessel as she sat burned at the 
bottom of the Pacific Ocean. It's unconscionable, there is no 
accountability, and it should change.
    A third example of inadequacy, not so much in maritime law 
but in the maritime setting in terms of protecting people is 
forced arbitration. Forced arbitration in maritime employment 
agreements and in passenger vessel boarding agreements are 
grossly unfair.
    A passenger vessel boarding agreement example that I am 
currently familiar with is a family from Ohio who drives down 
to the Alabama gulf coast for a weeklong beach vacation. They 
decided to take a parasail trip. In order to board the parasail 
vessel, they are required to sign a boarding agreement which 
requires either a complete waiver of liability for any and all 
problems, or alternatively, forced arbitration.
    They go parasailing. The father, the breadwinner of the 
family, suffers a severe injury that has disabled him and 
prevented him from going back to work. So this family is now 
faced with the prospect of either facing a complete waiver of 
liability, or in the alternative, being forced to go to a 
secret arbitration proceeding where there is no accountability, 
and most importantly, their right to seek redress in the State 
or Federal court system and their Seventh Amendment right to a 
jury trial is denied them. No accountability, no protecting 
people, and encourages, frankly, ongoing unsafe practice.
    In conclusion, the Death on the High Seas Act and the 
Limitation of Liability Act are antiquated. Forced arbitration 
in this maritime setting is grossly unfair. The common thread 
among all three is that they all protect the wrongdoer. None of 
them protect the people who are being injured or the survivors 
of those who are killed.
    I stand ready to address any questions and make any 
recommendations on these laws or other areas of the maritime 
legal regime, and I appreciate the opportunity to speak to you 
today.
    [Mr. Sterbcow's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Paul M. Sterbcow, President, Louisiana 
                        Association for Justice
    Chairman DeFazio and members of the subcommittee:
    I am honored to testify today. Thank you for inviting me.\1\
---------------------------------------------------------------------------
    \1\ Curriculum Vitae.
---------------------------------------------------------------------------
    I am Paul M. Sterbcow. I live in New Orleans, Louisiana with my 
wife, Laurie, and youngest child. I am the Managing Partner of the law 
firm of Lewis, Kullman, Sterbcow & Abramson, LLC in New Orleans. I 
received my Bachelor of Science in Political Science from Tulane 
University, and my law degree from Tulane Law School. I have 
represented injured individuals and the families of persons killed in 
maritime catastrophes for over thirty-two years. I practice primarily 
in federal court in New Orleans and other Gulf Coast cities. I have 
authored over forty-five continuing legal education papers and have 
been published in the Journal of Maritime Law and Commerce and the 
Loyola University New Orleans Maritime Law Journal. I was a member of 
the Plaintiff's Steering Committee and co-lead trial attorney in the 
liability trial arising out of the Deepwater Horizon explosion and 
subsequent largest oil spill in the history of the United States. The 
incident led to the largest civil litigation in United States History.
    I have been asked to comment on three discreet areas: (1) the Death 
on the High Seas Act, 46 U.S.C.  30301, et seq. (DOHSA); (2) the 
Limitation of Liability Act, 46 U.S.C.  30501, et seq. (LOLA); and (3) 
Forced Arbitration in cases falling within the Maritime Jurisdiction of 
the United States.
                                overview
    The founding fathers knew that the United States needed a uniform, 
distinct and strong body of national maritime law if the young 
democracy was to compete and prosper in maritime commerce. As a result, 
Article III of the U.S. Constitution extended the judicial power of the 
United States to ``all cases of admiralty and maritime jurisdiction'' 
in order to ensure that maritime law remained federal and consistent 
among the states.\2\ In addition to federal statutes enacted by 
Congress as part of its legislative function, the federal courts have 
exercised this unique constitutional authority to create a body of 
common law applicable to cases within admiralty jurisdiction, generally 
referred to as the ``general maritime law.'' Therefore, admiralty law, 
including maritime personal injury and death, is federal law over which 
Congress can and should exercise its legislative authority.\3\
---------------------------------------------------------------------------
    \2\ U.S. Const. art. III,  2, cl.1.
    \3\ U.S. Const. art. I,  8, cl.18.
---------------------------------------------------------------------------
    Against this background, DOHSA, LOLA and Forced Arbitration have a 
common thread--they arbitrarily, unfairly and without cause deprive 
maritime personal injury and death victims of rights and remedies 
afforded other classes of tort victims. The inequity is compounded by 
the fact that by their very nature, maritime torts, which frequently 
involve unforgiving perils of the sea, typically have severe and long-
lasting consequences for the victims. Given the significant 
advancements in marine safety systems, procedures and technology, 
combined with the steady and precipitous decline in U.S. commercial 
shipbuilding,\4\ the damage limitations of DOHSA, LOLA and forced 
arbitration are not justifiable. Indeed, DOHSA and LOLA stem from 
antiquated notions of having to protect otherwise ``innocent'' vessel 
owners from calamities at sea occurring out of their control and 
incentivizing shipbuilding. This rationale is demonstrably invalid 
today. Respectfully, these antiquated laws need to be updated to 
reflect the changes and progress in technology and society in our 
constitutional democracy.
---------------------------------------------------------------------------
    \4\ In the 1950's, U.S. shipyards built most of the world's fleets. 
Today, America ranks nineteenth in the world in commercial 
shipbuilding, accounting for less than 1% of new construction. See: 
Klein, Aaron, Decline in U.S. Shipbuilding Industry: A Cautionary Tale 
of Foreign Subsides Destroying U.S. Jobs, Emo Transportation Weekly, 
September 1, 2015.
---------------------------------------------------------------------------
                 the death on the high seas act (dohsa)
    Congress passed DOHSA on March 30, 1920. DOHSA created a right to 
sue in court for the death of a spouse, parent, child or dependent 
relative.\5\ The Act applies to a tort occurring on the high seas 
beyond a marine league (three nautical miles) from the shore of any 
state, or the District of Columbia, or the territories or dependencies 
of the United States.\6\ The Federal Courts have defined ``High Seas'' 
as including territorial waters of another country as long as the 
disaster site is more than one marine league from United States 
waters.\7\
---------------------------------------------------------------------------
    \5\ 46 U.S.C.  30302 (formerly 46 U.S.C.  761).
    \6\ Id.
    \7\ Motts v. M/V Green Wave, 210 F. 3d 565 (5th Cir. 2000).
---------------------------------------------------------------------------
    DOHSA specifies the remedies available to the survivor Plaintiffs. 
Recovery is limited to `` . . . the pecuniary loss sustained by the 
individuals for whose benefit the action is brought . . . .'' \8\ 
``Pecuniary loss'' includes loss of economic support from the decedent 
and funeral and burial expenses.\9\ The statute contemplates only the 
death of the family breadwinner. The statute as written does not 
provide compensation for the emotional loss of survivors with the one 
limited exception described below. When the decedent is a person not in 
the workforce, such as a retiree, a child or a stay-at-home parent, the 
statute's combination of only providing compensation for loss of 
economic support and not recognizing emotional loss is inadequate and 
unfair. Further, the statute does not provide for pre-death pain and 
suffering of the decedent, another unjustifiable inequity.
---------------------------------------------------------------------------
    \8\ 46 U.S.C.  330303 (formerly 46 U.S.C.  762(a))
    \9\ Lasky v. Royal Caribbean Cruises, Ltd., 850 F. Supp. 2d 1309 
(S.D. Fla. 2012).
---------------------------------------------------------------------------
    Congress has amended DOHSA only once since 1920. Following the 
crash of TWA Flight 800 in international waters off the New York coast 
on July 17, 1996, the victims of which included a number of high school 
students from Pennsylvania, the statute's unreasonable recovery limits 
understandably became a significant political issue. The families of 
those children correctly persuaded lawmakers that their losses should 
be accorded the same respect as those associated with accidents over 
land. As a result, Congress amended former Sections 761 and 762 of 
DOHSA to limit DOHSA coverage in commercial aviation disasters beyond 
twelve nautical miles from the shore and to add `` . . . compensation 
for non-pecuniary damages for wrongful death of a decedent . . . for 
death resulting ``from a commercial aviation accident . . . .'' ``Non-
pecuniary damages'' is statutorily defined as ``damages for loss of 
care, comfort and companionship.'' \10\ Therefore, the lone DOHSA 
amendment in the eighty-nine years of the statute's existence extends 
the jurisdictional line from three out to twelve nautical miles from 
shore and affords the survivors of commercial aviation accident victims 
damages for the wrongful death of their loved one, a remedy previously 
unavailable. However, damages for the pre-death pain and suffering of 
the deceased victim remain prohibited.\11\
---------------------------------------------------------------------------
    \10\ 46 U.S.C.  30307.
    \11\ Id.
---------------------------------------------------------------------------
    Unfortunately, this limited exception does nothing to address the 
clear inequity caused by DOHSA's recovery limitations in the vast 
majority of deaths covered by DOHSA, those being non-commercial 
aviation accidents occurring on the high seas. I personally know of 
numerous examples of the injustice caused by DOHSA over the years. The 
following are some examples:
Example #1:
        A current example is a July 4, 2019 helicopter crash in the 
        Bahamas that took the life of a prominent West Virginia coal 
        producer and six others, including his 25-year-old daughter and 
        three of her 25-year-old friends. My firm is privileged to 
        represent the families of two of the girls killed when the 
        helicopter transporting them from the Bahamas to Florida 
        crashed shortly after takeoff in the Atlantic Ocean. The 
        families of these beautiful young ladies, one of whom had just 
        earned her registered nurse license and the other had scored 
        highly on her first MCAT medical school entrance examination, 
        may be limited to recovering insured funeral and burial 
        expenses if DOHSA's statutory limit on damages is held to 
        control their claims. If so, the claims are worthless. If the 
        same helicopter accident occurred on land, the families would 
        be entitled to damages for the pre-death pain and suffering of 
        their daughters, and loss of care, comfort and companionship 
        for their daughters' wrongful deaths. The fortuity of the 
        incident's location should not control the measure of damages 
        and certainly should not cheapen the lives of these girls. 
        DOHSA as presently written does just that.
Example #2:
        Another example is the tragic August 21, 2017 collision between 
        the ALNIC MC Liberian-flagged tanker and the U.S.S. John S. 
        McCain in the Singapore Straits. The tanker negligently rammed 
        into the destroyer and killed ten Navy sailors. While there is 
        clear liability on ALNIC's part, DOHSA limits recovery to 
        nothing more than funeral and burial expenses for the families 
        of any unmarried sailors who were not supporting anyone 
        financially. This is a travesty and horribly disrespectful to 
        the sailors who gave their lives for their country.

    Unfortunately, there are also numerous instances of otherwise 
meritorious cases that maritime attorneys refuse to accept due to 
DOHSA's injustice. Two examples are:
Example #1:
        A 61-year-old cruise ship passenger became ill at sea. The 
        medical center diagnosed stomach flu. Six days later, while 
        still on the cruise, the passenger died of acute pyelonephritis 
        \12\ and urinary tract infection. The ship's physician missed 
        the obvious diagnosis, and the lack of treatment allowed the 
        infection to convert to sepsis. Timely treatment would have 
        resulted in a complete recovery. The passenger left behind a 
        son with whom she had a very close and loving relationship, but 
        who was not dependent on her financially. The case was not 
        pursued because DOHSA limited the son's recovery to funeral and 
        burial expenses for which his mother had a pre-paid plan.
---------------------------------------------------------------------------
    \12\ Pyelonephritis is an infection that generally begins in the 
urethra or bladder and spreads to one or both kidneys.
---------------------------------------------------------------------------
Example #2:
        A 70-year-old physically fit male cruise ship passenger went to 
        the ship's doctor complaining of acute left shoulder pain. His 
        blood pressure was extremely high. The passenger sat unattended 
        in the ship's infirmary for approximately three hours before 
        cardiac evaluation and appropriate care was instituted. 
        Approximately one hour later, the passenger went into cardiac 
        arrest and died on the vessel. Again, the case was rejected by 
        the evaluating attorney because DOHSA limited the recovery of 
        the decedent's spouse and daughter to funeral and burial 
        expenses.

    In summary, if the decedent is unmarried, a minor, a stay-at-home 
parent or a retired parent/grandparent or person who does not support 
others financially, then those left behind are constrained to sue for 
funeral and burial expenses, which in many cases are either pre-paid or 
insured. It is time for DOHSA to fully compensate the survivors for the 
pre-death pain and suffering of their lost loved ones, all economic 
losses resulting from the death, and their own lost care, comfort and 
companionship. Anything less is unjust.
    Recommendation: Amend the Death on the High Seas Act so that all 
decedents have the same remedies, and personal injury and death victims 
on the high seas are treated the same as those on land. Such an 
amendment will necessarily include recovery for economic loss, loss of 
care, comfort and companionship of the survivors, and pre-death pain 
and suffering of the decedent.
                 the limitation of liability act (lola)
    In 1851, Congress enacted a law exonerating an owner of any vessel 
from liability to any person or any loss or damage caused by fire on 
board the vessel unless the fire was caused by the design or neglect of 
the vessel owner.\13\
---------------------------------------------------------------------------
    \13\ Formerly 46 U.S.C.  182 (1851).
---------------------------------------------------------------------------
    In 1871, this vessel owner liability limitation was extended to 
owners and masters of vessels carrying valuable commodities such as 
precious metals, precious stones, jewelry, china, furs, etc. unless the 
cargo owner provided the master or vessel owner written notice of the 
``true character and value thereof'' and entered the same information 
on the bill of lading.\14\
---------------------------------------------------------------------------
    \14\ Formerly 46 U.S.C.  181 (1871).
---------------------------------------------------------------------------
    The purpose of these laws, which the courts held had to be 
liberally construed in the ship owner's favor, was to encourage ship 
building and protect an otherwise innocent ship owner from catastrophes 
at sea over which the ship owner had no control or ability to prevent. 
America was emerging as a leader in maritime commerce, the exclusive 
method for transporting goods to Europe, Africa, Asia and the Pacific. 
Although the use of iron instead of wood as the primary material of 
ships' hulls began in the 1830's, this advance was limited primarily to 
war ships. Commercial vessels remained wooden and were therefore more 
vulnerable to fire, weather and cargo damage. Modern vessel design, 
safety and navigational systems, and storm warning systems were not 
imaginable. Congress decided that ship owners needed liability 
protection to ensure their profitability and encourage investment in 
maritime commerce.
    In 1935, Congress expanded these liability limitations. The new law 
limited vessel owner liability in the case of `` . . . any loss, 
damage, or injury by collision, or for any act, manner, or thing, loss, 
damage, or forfeiture, done, occasioned, or incurred, without the 
privity of knowledge'' of the vessel owner.\15\ In such cases, vessel 
owner liability shall not exceed ``the amount or value of the interest 
of such owner in such vessel, and her freight then pending.'' \16\
---------------------------------------------------------------------------
    \15\ 46 U.S.C.  30505 (formerly 46 U.S.C.  183(a) (1935)).
    \16\ Id.
---------------------------------------------------------------------------
    The Article III (federal) courts developed a procedure somewhat 
unique to maritime law to handle LOLA proceedings. The vessel owner 
files a lawsuit as the plaintiff alleging entitlement to exoneration 
or, alternatively, limitation of liability per LOLA. Any personal 
injury or death claims arising out of the catastrophe forming the basis 
of the LOLA proceeding must then be filed into the pending LOLA 
lawsuit, which actions are immediately stayed. This becomes a concursus 
\17\ proceeding, whereby the federal judge having exclusive 
jurisdiction decides whether the vessel owner is exonerated (i.e., did 
not cause injury or death). If the court finds fault (i.e., denies 
exoneration), then the judge decides whether the owner can limit its 
liability to the value of the vessel and pending freight based on the 
privity or knowledge statutory test. If the incident occurred without 
the owner's privity or knowledge, then the owner's damages exposure is 
limited to the vessel's post-accident value, regardless of the severity 
of the catastrophe or the number of injuries or deaths involved. Like 
its predecessor limitation statutes, section 30505 was intended to 
encourage ship building and induce capital investment in the marine 
industry. As one court stated, the section, providing for limited 
liability of vessel owners, was designed to induce the heavy financial 
commitments the shipping industry requires by mitigating threat of a 
multitude of suits and hazards of vast unlimited liability as the 
result of maritime disaster.\18\
---------------------------------------------------------------------------
    \17\ Concursus is a procedural method staying legal proceedings in 
a LOLA action after the ship owner's limitation fund has been created. 
The primary purpose of the concursus is to avoid a multiplicity of 
suits and actions. It contemplates a proceeding leading to a single 
judgment that resolves all issues between all parties.
    \18\ Petition of Wood, 124 F. Supp. 540 (D.C.N.Y. 1954).
---------------------------------------------------------------------------
    While requiring multiple claimants to file claims against a vessel 
owner for a marine disaster in one proceeding is laudable, the 
limitation of the vessel owner's liability to the value of the vessel 
and freight pending can no longer be justified. Encouragement of 
investment in ship building should no longer be accomplished on the 
backs of victims of maritime torts. In the age of international 
corporate vessel ownership, marine insurance, contractual claim 
limitation, and technology that provides ship owners the ability to 
retain complete operational control over vessels at sea, it is patently 
unfair to penalize those injured and the families of those killed in 
shipboard catastrophes. Every blue water commercial vessel operating in 
international waters can be tracked in real time.\19\ Direct shore to 
ship communication is easy and occurs in real time. Navigational 
technology allows ship operation in virtually any environmental 
condition without the risk of encountering an unknown hazard or 
situation out of the vessel owner's control. There is no reason to 
allow the owner to limit its liability.
---------------------------------------------------------------------------
    \19\ GPS tracking systems allow vessel owners to track and control 
any vessel, regardless of size or geographical scope of navigation.
---------------------------------------------------------------------------
    This is particularly true with respect to coastal trade and 
hydrocarbon exploration and production in the Gulf of Mexico. In 
Louisiana, the center of the offshore exploration and production 
industry, limitation of liability is regularly sought by owners of 
inland tugs, river push boats and oilfield supply boats that neither 
venture into open water nor travel more than 100 miles from the coast. 
It is even more ludicrous that the owners of pleasure boats and jet 
skis, both deemed vessels for purposes of LOLA, can attempt to limit 
their liability to the value of the boat or jet ski and force the 
victim to participate in the concursus proceeding with the potential of 
no recovery. The proceeding prevents the marine personal injury or 
death victim from pursuing a lawsuit in a court of competent 
jurisdiction until such time that the concursus is completed and the 
judge lifts the standard limitation stay order.\20\ The delay is often 
lengthy and is unnecessary.
---------------------------------------------------------------------------
    \20\ In a single claimant limitation proceeding (i.e., when only 
one person is hurt or killed), the claimant is more apt to obtain a 
lift of the stay order early in the proceeding. However, if there are 
more than one claimant (including property damage and insurance 
indemnity claimants) then all must agree on a stipulation as a 
prerequisite to lift the stay order. This occurs very rarely.
---------------------------------------------------------------------------
    Moreover, because of draconian limitation periods built into the 
law, ship owners attempt to misuse the statute to deprive victims of 
remedies by defaulting them, without appropriate due process. If 
victims do not file claims within a short time period (ranging from 60 
to 120 days), they could forever be barred from seeking any 
compensation--even if the LOLA action is frivolous and the owners have 
no factual basis to achieve limitation or exoneration. Often federal 
courts allow notice to victims, which is intended to inform victims of 
their rights and requirements to file a claim, to be posted in 
classified sections of obscure local newspapers. In instances of 
tragedies where families have lost loved ones to a maritime disaster 
(examples below), families often are in a state of shock and just 
beginning the mourning process in these early days. Yet, under the 
current law, they may lose all their rights and remedies if they do not 
take the necessary legal steps within a short period of time.
    Some examples of maritime disasters that prompted ship owners to 
hastily seek protection under LOLA are:
Example #1:
        A current and compelling example of the extreme injustice of 
        LOLA is the disaster involving the 75-foot commercial diving 
        vessel Conception. On September 2, 2019, at 3:14 a.m., the U.S. 
        Coast Guard received a distress call from the vessel, anchored 
        215 nautical miles south-southwest of Santa Barbara, 
        California. Thirty-nine people were on board for a three-day 
        diving trip. A crew member awoke to a fire aboard the vessel. 
        Although the crew saved themselves, thirty-three passengers 
        burned to death because they were unable to escape. The vessel 
        burned to the waterline and sank in sixty feet of water.

        Three days later, while bodies were still being recovered by 
        the Coast Guard, the owners of the Conception filed a Petition 
        for Exoneration and/or Limitation under LOLA in federal court 
        in the Central District of California.\21\ The owner 
        specifically pled the right to be exonerated from all liability 
        or, if they are found to be negligent, to limit their exposure 
        to the value of the vessel after the casualty, which is $0.00. 
        Now the families of the thirty-three victims must act hastily 
        in order to deal with the limitation concursus and the owner's 
        quest to limit its liability to nothing.
---------------------------------------------------------------------------
    \21\ In the Matter of the Complaint of Truth Aquatics, Inc., 2:19-
cv-07693-PA-MRW (C.D. Ca. Sept. 5, 2019).
---------------------------------------------------------------------------
Example #2:
        A second prominent example of LOLA's unfairness is the Missouri 
        duck boat catastrophe. In July 2018, seventeen people were 
        killed, including nine members of the same family, when a duck 
        boat sank in bad weather on a lake near Branson, Missouri. The 
        voyage should never have occurred, as the duck boat owner had 
        ample warnings of approaching severe weather. Duck boats are 
        not the safest means of maritime transport under the best of 
        conditions. Here, the vessel was unable to handle the seas and 
        quickly sank. Passengers might have survived, but they became 
        entrapped in the duck boat's canopy, which the vessel owner had 
        not removed in direct violation of an NTSB recommendation.

        The duck boat owner's use of LOLA is a ridiculous contortion of 
        the law that should not be allowed as a means to escape legal 
        responsibility. This duck boat owner was in direct and constant 
        communication with the crew operating this vessel. Anyone with 
        an operating marine radio, television or even a cell phone 
        could have obtained real time weather and lake conditions. The 
        fact is this disaster was easily foreseeable and readily 
        preventable. Yet, the vessel owner has used LOLA to try to 
        limit its liability to the families of seventeen drowned 
        passengers to $0.00.
Example #3:
        The most notorious example of the inequity created by LOLA is 
        the Deepwater Horizon disaster. On April 20, 2010, the 
        Deepwater Horizon drilling vessel exploded in the Gulf of 
        Mexico approximately fifty miles south of the mouth of the 
        Mississippi River after the crew lost control of the well. The 
        steady flow of hydrocarbons feeding the fire prevented it from 
        being extinguished. This resulted in the vessel sinking 5,000 
        feet to the Gulf of Mexico floor two days after the 
        explosion.\22\ This catastrophe caused eleven deaths, numerous 
        severe injuries to the rest of the 126 people aboard the 
        vessel, and billions of dollars in environmental damage. Yet, 
        Transocean, the owner of the drilling vessel, sought protection 
        under LOLA by filing a complaint for exoneration for limitation 
        in federal court in Houston, Texas. Transocean claimed that the 
        catastrophe occurred without the privity or knowledge of 
        Transocean management. As a result, it claimed entitlement to 
        limit its liability for all legal claims arising out of the 
        explosion, vessel sinking and subsequent massive oil spill to 
        approximately $27 million, the calculated salvage value of the 
        Deepwater Horizon and her pending freight as she sat at the 
        bottom of the Gulf of Mexico.
---------------------------------------------------------------------------
    \22\ This incident resulted in the largest pollution event in the 
history of the United States. The owner of the well, BP, was found 
grossly negligent by the federal judge handling the multidistrict 
litigation and has paid over $60 billion in damages.

    The fact that the owners of the Conception, the duck boat, and 
Transocean as owner of the Deepwater Horizon were legally able to take 
this step is unconscionable. The limitation funds could not adequately 
compensate the families of the people killed (recall two of the three 
are $0.00), much less the hundreds of thousands of other claims for 
damages in the Deepwater Horizon disaster.
    Ship owners will undoubtedly argue that elimination of their 
ability to pursue liability limitation will somehow put them out of 
business. There is no data or credible study to support this argument. 
Additionally, marine insurance is readily available. Indeed, LOLA is 
now being used to protect the marine insurance industry, not the ship 
owner, by allowing insurance companies to avoid their contractual 
responsibilities and risk. The truth is that a pre-Civil War law, 
designed to encourage shipbuilding in the United States, has turned 
into a tool to safeguard the bottom line of insurance companies at the 
expense of marine personal injury and death victims. This was never 
intended by Congress, nor should it be.
    The concerns of the marine industry regarding multiple suits in 
multiple jurisdictions arising out of a marine accident are valid. LOLA 
can still be used as a jurisdictional vehicle to consolidate all 
potential claims in one place to allow the ship owner to fully assess 
the severity of the disaster and potential financial exposure. However, 
there is no longer any social or economic justification to limit a ship 
owner's liability. Ship owners have extensive means to monitor and 
control the condition of the vessel at the outset of the voyage as well 
as her movements and crew conduct throughout the voyage. The extent of 
recovery for injury and death in these situations should not be 
dependent on an owner's privity or knowledge and should not be more 
restrictive than recovery afforded for land-based personal injury and 
death. Persons injured or killed in a boat accident should not have a 
more limited recovery than persons injured or killed in a train or 
commercial trucking accident. There is no principled reason to treat 
marine personal injury and death victims differently, particularly when 
Congress' motive for enacting the laws in the 1800's and 1935 no longer 
exist.
    Recommendation: Amend the Limitation of Liability Act to remove the 
vessel owner's ability to limit its liability to the vessel's value in 
cases of personal injury or death to passengers and crew.
                           forced arbitration
    The gross inequities of forced arbitration are well documented and 
publicized. Indeed, they were subject to much discussion and debate in 
the U.S. House of Representatives, which discussion resulted in passage 
of the Forced Arbitration Injustice Repeal Act (``FAIR Act''). Although 
passage of the FAIR Act by the House addresses arbitration clauses in 
employment agreements, until the bill is passed by the U.S. Senate, 
maritime employees and others continue to be subject to forced 
arbitration. Some recent examples of forced arbitration in the maritime 
context are:
Example #1:
        An American crewmember was working aboard a foreign-flagged 
        cruise ship. During a voyage, the crewmember fell down a flight 
        of steps injuring her shoulders, neck and back. Despite having 
        a broken shoulder as well as other serious injuries, she was 
        kept on the ship working for twenty-three days. After initially 
        approving payment for her medical expenses, the cruise line 
        mismanaged her benefits, which resulted in lengthy delays in 
        her care and recommended surgeries. The delays resulted in her 
        developing psychological issues, including documented anxiety 
        and depression, due to the stress caused by her medical and 
        financial issues. Her medical condition has continued to 
        deteriorate, and she still has outstanding medical needs that 
        require attention.

        Her employment agreement with the cruise line incorporates a 
        Collective Bargaining Agreement (``CBA'') with the Norwegian 
        Seaman's Union. She is not a member of this Union and has no 
        voting or other rights provided to Union members. The CBA 
        mandates binding arbitration in accordance with the laws of the 
        Bahamas, ``notwithstanding any statutory claims for negligence, 
        unseaworthiness, maintenance, cure, failure to provide prompt 
        proper or adequate medical care, personal injury, or property 
        damages which might be available under the laws of any 
        jurisdiction.'' Bahamian law does not provide the equivalent or 
        anything close to the legal rights she would have under U.S. 
        law. Expert testimony from Bahamian lawyers supports this 
        conclusion. Moreover, the arbitration may take place overseas 
        depending on whether the parties can agree on a location. As 
        such, the U.S. crewmember is left at home to suffer while she 
        undergoes a forced arbitration process, potentially on foreign 
        soil, applying foreign law that deprives her of rights and 
        remedies afforded a U.S. citizen. No U.S. citizen should be 
        forced to suffer this type of mistreatment and humiliation 
        without the protection of U.S. law, regardless of the 
        circumstances of their employment.
Example #2:
        A family traveled to the Gulf Coast for a beach vacation. They 
        decided to go parasailing. The vessel owner required all 
        parasailers to sign a ``Release of Liability, Assumption of 
        Risk, Waiver of Claims, Indemnification and Binding Arbitration 
        Agreement'' as a condition of boarding the vessel.

        According to the Complaint filed on the family's behalf, at the 
        end of the ride, the father, who is the family breadwinner, was 
        pulled into a winch positioned on the vessel stern that is used 
        to play out and reel in the parasail. He suffered a severe 
        pelvic fracture that required hip replacement surgery. He has 
        remained out of work since the incident and may be physically 
        foreclosed from returning to his job with a local gas company.

        If the binding arbitration language in the Release of Liability 
        form is enforced, this family has no right to file a lawsuit 
        against the vessel owner or obtain a trial by jury as is 
        guaranteed by the 7th Amendment of the U.S. Constitution. As if 
        this was not bad enough, the vessel owner in this case has also 
        filed a Petition for Exoneration from or limitation of 
        liability, claiming that its liability to this family should be 
        limited to $86,000.\23\
---------------------------------------------------------------------------
    \23\ In the matter of Fruisher, LLC, et. al., 1:19-cv-00618 (S.D. 
Ala. Sept. 6, 2019).

    Therefore, a person alleging severe injury through no fault of his 
own while on vacation at the beach is now subject to (1) forced 
secretive arbitration that deprives him of his right to seek redress in 
court; and (2) a LOLA concursus proceeding described herein and a 
potential recovery limit of $86,000 in a case that may reasonably be 
worth a far greater amount if justice is to be achieved.
    Recommendation: Adopt a clear and concise statute ending forced 
arbitration for all maritime employees and vessel passengers who are 
U.S. citizens.
                               conclusion
    As has been shown, there has been no meaningful attempt to update 
federal statutory maritime law to ensure justice for passengers and 
crew members injured and killed on the high seas in a century. The last 
meaningful change to limitation of liability occurred in 1935, and it 
came to the detriment of those injured and killed in maritime 
catastrophes. The laws are antiquated. They do not promote 
accountability, which we know encourages safety and reduces injury and 
death. Further, commercial and recreational vessel owners now have 
insurance to adequately cover their risk, much of which further 
accountability will reduce or eliminate. Respectfully, Congress should 
act now to modernize DOHSA and LOLA and end the use of forced 
arbitration clauses in maritime recreational agreements and employment 
contracts. These steps will improve the current system, which 
arbitrarily, unfairly and without cause deprives maritime personal 
injury and death victims of rights and remedies afforded to other 
classes of tort victims.

    Mr. Carbajal. Thank you, Mr. Sterbcow.
    We will now move on to Member questions. Each Member will 
be recognized for 5 minutes, and I will start by recognizing 
myself.
    Mr. Sterbcow, in relation to the Conception tragedy off the 
coast of my district, how does accountability improve overall 
maritime safety?
    Mr. Sterbcow. Well, it just--really, it extends beyond the 
maritime setting. It is particularly important in the maritime 
setting because there is no incentive on the part of vessel 
owners and operators to ensure that their vessels are safe, 
they are staunch, they are seaworthy unless there are 
consequences in the event that they set sail, and there are 
not.
    Accountability breeds attention to detail. Accountability 
breeds compliance with rules and regulations. We have heard a 
lot today from the Coast Guard, from the NTSB, from these 
various organizations who all do good work and have done good 
work for a long time.
    The problem is that despite this good work, we repeatedly 
see one maritime disaster after another, and the problem is 
that at the end of the day, if the vessel owner knows, 
regardless of the severity of the catastrophe, it could either 
limit its liability or walk away with no liability, then there 
is really no incentive at the end of the day to ensure that 
these vessels are fit for their intended purpose.
    Mr. Carbajal. It seems to me that the Limitation of 
Liability Act is no longer relevant to today's maritime 
industry given the advances in technology and changes in the 
ability of insurance and the corporate structure. It has 
outlived its purpose. Would you agree?
    Mr. Sterbcow. I totally agree. It was originally enacted in 
1851 when we were a fledgling country trying to compete in 
maritime exercises with European powers, at a time when boats 
were wooden, cargo was routinely ruined, and boats caught fire 
and sank in a matter of minutes. There was no modern 
communication. There was no ability of a vessel owner to 
control his ship once it left port.
    All of those considerations are now gone. Vessel owners can 
call ships regardless of their location in the world by cell 
phone just as you and I would talk by cell phone in Washington, 
DC. We track ships in real-time. We know exactly where they 
are. We know exactly where they are going. Crews are much 
better trained. They have safety management systems.
    The notion that there is an innocent vessel owner who needs 
to be protected from perils out of his control has long since 
passed, and all the Limitation of Liability Act does now in 
addition to eliminating accountability is it limits the 
liability of the marine insurer because none of these boats 
leave port without insurance. So what you are really doing is 
protecting the insurance industry and not the people riding the 
vessels.
    Mr. Carbajal. Thank you. How do you propose we fix the law?
    Mr. Sterbcow. Limitation of liability is simple. It can be 
amended to eliminate the ability to limit liability in cases of 
injury or death. Very simple fix. You remove the problem, you 
increase the accountability.
    In terms of the Death on the High Seas Act, my 
recommendation would be to extend damages to include the 
preterminal pain and suffering of the person who unfortunately 
is the victim of a marine disaster and extend to the survivors 
the right to sue for what we typically call wrongful death 
damages.
    Those are damages for--say, if a child is killed, the 
parents of that child cannot sue at this point for their 
losses, for their emotional distress, loss of care, comfort, 
and companionship. Those, the parents, and the survivors of 
decedents in this situation should be permitted to recover 
those damages.
    And, by the way, there is precedent for this. In 1996, 
Congress carved out what is called the commercial aviation 
exception to the Death on the High Seas Act following the TWA 
800 disaster. If you remember, it went into the Atlantic Ocean 
off the coast of Long Island, and a group of students from 
Pennsylvania were killed.
    And when their parents learned that their recovery in that 
case was limited to funeral and burial expenses, it created a 
situation that ultimately made its way to Congress which 
ultimately led to what is called the commercial aviation 
exception which allows parents to recover their damages for the 
loss of a child in the limited case of a commercial aviation 
disaster more than 12 miles off the coast.
    My fix is very simple. Extend that to all disasters falling 
under DOHSA. There is no reason to treat a plane disaster 
different than a boat disaster, and after all, the vast 
majority of these cases involve vessels and not airplanes.
    Mr. Carbajal. Thank you very much for that thorough answer. 
Now I would like to recognize Ranking Member Gibbs.
    Mr. Gibbs. Thank you.
    Mr. Smith, in your written testimony, you talk about the 
safety of U.S.-flagged vessels carrying a higher standard of 
safety and security than foreign-flagged vessels, and you go on 
to say that if we fully enforce the Jones Act, that would 
enhance that but as it relates to we are not enforcing offshore 
energy, offshore energy. Can you expound on that and explain 
what is really going on so I can understand that better?
    Mr. Smith. Yes, sir. Starting in 1976, Customs and Border 
Protection started issuing kind of private correspondence to 
charters. They would request a determination if a certain 
activity violated the Jones Act or not. CBP would respond with 
a letter saying yes, it did, yes, it did not. In approximately 
160 of these letter rulings of customs provided basically 
loopholes to the Jones Act that are not found in the statute.
    These were concepts based on well, the vessel was only 
moving a small amount of cargo, or it was only moving cargo a 
small distance. Therefore, we should--or they were doing 
something legal, so they should also be able to do something 
illegal simultaneously.
    None of that--as I said, none of these exceptions are found 
in law. That is something that, as I said in my testimony, CBP 
has recognized three times now and has tried to revoke those 
letter rulings, has tried to close those loopholes two times. 
After announcing their intention to do so, they have 
backtracked and said no, we are not going to do that at this 
time.
    In fact, in 2009, when they retracted that, they said we 
will get back to this in the near future. In 2017, they said we 
received a lot of emails, so we need to study this. I didn't 
know you could not enforce a law because you got a lot of 
emails. I am sure that would change how your office operates, 
sir. So they have now again said we want to correctly enforce 
the law.
    Unfortunately, in doing so, they have also issued some new 
definitions which we believe create new loopholes to replace 
the old loopholes they are trying to close. That is probably 
not the best of situations.
    Mr. Gibbs. I would also, I guess, like to kind of follow up 
with the idea. I know LNG was exporting LNG, now largest 
producer in the world of natural gas and oil, and my 
understanding is because we pick up LNG shipments in the gulf 
area, and then they export to other countries, but to get LNG 
in needed areas of the country like our New England area, for 
example, they had to get it from foreign.
    What can we do to adjust or fix it? How do we handle that 
so Americans can burn LNG natural gas, the domestically 
produced LNG natural gas?
    Mr. Smith. Sure. Thank you for the question, Ranking Member 
Gibbs. The American maritime industry is willing to meet any 
challenge, and in fact, what we are best at is overbuilding a 
market.
    If you give us the signals that a market will be protected, 
we are probably going to build too many ships for it. And with 
the signals now that LNG is going to be protected by this 
administration, what we are seeing is even the European trade 
magazines are already saying that there is going to be U.S. LNG 
capacity.
    One of my members just launched an ATB, an articulated tug 
and barge, to transport LNG, and I know that they can take that 
design and are taking that design to produce more of those so 
we can have that.
    It is my understanding--although this isn't necessarily 
exactly what we do on a day-to-day basis, but it is my 
understanding that we are right now basically at the export 
of--there is no extra capacity in the export terminals. Once 
there is, we will have the vessels capable to carry that.
    Mr. Gibbs. That is good to know, because it just makes so 
much sense to do that, plus our U.S.-flagged vessels would be 
safer, probably, theoretically, anyway, than other ones 
especially carrying LNG.
    So glad to hear that because I think that makes a lot of 
sense, and we need to do that and open up the market because we 
need to move as much as we can out of the Permian Basin in 
Texas and of course the Dakotas and also produce a lot of 
natural gas in Ohio and Pennsylvania. So it would be great to 
be able to export as much as we can on American vessels. I am 
glad to hear that.
    Mr. Smith. Completely agree, Ranking Member Gibbs.
    Mr. Gibbs. Thank you, and I yield back.
    Mr. Carbajal. Thank you, Representative Gibbs.
    I think that pretty much concludes our hearing.
    Are there any further questions from members of the 
subcommittee?
    Seeing none, I would like to thank each of the witnesses 
for your testimony today. Your contributions to today's 
discussion have been informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing. Without objection, so ordered.
    If no other Member has anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

       Letter of November 14, 2019, from Hon. Doris O. Matsui, a 
Representative in Congress from the State of California, Submitted for 
                       the Record by Hon. Larsen
                                                 November 14, 2019.
Hon. Peter DeFazio
Chairman
House Committee on Transportation and Infrastructure. U.S. House of 
        Representatives, Washington, DC.
    Dear Chairman DeFazio:
    I would like to request that the testimony submitted by the 
International Cruise Victims Association (ICV) on November 13th, 2019 
be included as part of the official record for the Transportation and 
Infrastructure's November 14th hearing entitled ``Commercial and 
Passenger Vessel Safety: Challenges and Opportunities.''
    As the original sponsor of the Cruise Vessel Security and Safety 
Act (CVSSA) (P.L. 111-207), which was signed into law in 2010, I have a 
particular interest in these issues and am committed to continue the 
work of protecting passengers and victims of crime on cruise ships.
    Despite this success 10 years ago, it is clear that additional work 
is needed to implement safeguards that protect families and provide 
information to consumers in an open, accessible, and transparent manner 
before they ever board a cruise ship. Last Congress, I introduced 
follow-up legislation, the Cruise Passenger Protection Act (CPPA) to 
address shortcomings in reporting requirements, medical standards, and 
legal protections for victims. It is time for Congress to act to see 
that the law is implemented and carried out as we originally intended 
and that additional protections are secured to provide for the security 
and well-being of all cruise passengers.
    Today I have introduced an updated version of the Cruise Passenger 
Protection Act for the 116th Congress to bring attention to this issue 
just ahead of the 10th anniversary of House passage of the CVSSA. I 
look forward to working with ICV and this Committee to advance our bill 
and ensure these vital consumer protections become law.
        Sincerely,
                                            Doris O. Matsui
                                                 Member of Congress

                                 <F-dash>
 Statement on behalf of the International Cruise Victims Association, 
                Submitted for the Record by Hon. Larsen
    Thank you Chairman Maloney and Chairman DeFazio, and thank you 
Ranking Members Bob Gibbs and Sam Graves. Thank you also to all 
distinguished members of this committee for allowing us to submit this 
statement.
    As long-time volunteer members of the victims advocacy organization 
known around the world as the International Cruise Victims Association 
(ICV), we are grateful for the opportunity to submit this statement on 
behalf of all those who have experienced trauma, tragedy or 
victimization while onboard a cruise ship. And we especially submit 
this in the memory of all those whom we have loved and lost while on 
what they hoped and dreamed would be their vacation of a lifetime.
    In 2006 four families, each having lost loved ones while on cruise 
vacations, banded together. With a common and dedicated goal to improve 
safety and increase the rights of cruise ship passengers the 
International Cruise Victims Association (ICV) was formed. Today, that 
grass-roots organization with its modest beginning has become the major 
voice for victims of crime at sea around the world. With an all-
volunteer, unpaid staff and a history of highlighting the need for 
legislative action, increased passenger protection, and public 
awareness, ICV's membership has grown to include several hundred 
members in over 25 countries around the world.
    In 2010, ICV's efforts were rewarded when Congress passed the 
historic Cruise Vessel Security and Safety Act (CVSSA), which was first 
introduced in the House by Representatives Doris Matsui and Judge Ted 
Poe. Such bi-partisan support was subsequently echoed in the Senate 
when Senator John Kerry introduced the companion bill which passed 
unanimously. With the passing of that bill, our nation saw for the 
first time, a dedication and commitment to the safety and security of 
millions of vulnerable cruise ship passengers. However, despite this 
carefully crafted bill, safety and health incidents continue to happen 
on cruise ships. An appalling percentage of crimes are going 
unreported, and cruise ship compliance is uncertain. These concerns, 
together with tremendous advances in technology (marine and otherwise), 
stand to open the door for the strengthening, improving, and updating 
of the measures previously signed into law almost ten years ago.
    As cruise ships increase in size, so does the cruise ship 
industry's stream of revenue creating an environment where industry 
profit and its marketing emphasis on fun might be on the upswing but 
concern over people and safety has a lot of catching up to do. 
Circumstances and incidents, some of which we will highlight here in 
this statement, have exposed the fact that even with the CVSSA in 
place, cruise passengers remain vulnerable. In truth, the calculated 
disregard for passenger safety makes a mockery of the cruise lines' 
all-too-frequent public declaration that ``passenger safety is our 
number one priority.'' The inherent dangers that still exist for 
Americans who are considering a cruise vacation compel us to press 
forward with renewed commitment to stronger language that not only 
reinforces the CVSSA but adds additional protections as well.
    As a victims' advocacy organization, we hear tragic, heartbreaking 
stories nearly every week. What makes this unique is the fact that the 
stories aren't coming from police logs, or the newspaper headlines. 
Instead, they are coming from people who were taking the vacation of a 
life time until quite suddenly, when they least expected it, something 
went terribly wrong.
    We are always touched and amazed by the members of ICV who have 
been courageous and determined enough to share their stories, even the 
families of minors who have been affected, so that the real truth 
behind the cruise industry's glamorous ads and the constant claims that 
safety is their number one concern might be uncovered. Again and again, 
since 2006, we have gathered all the courage anyone could muster to 
walk the halls of Congress equipped only with our tragic stories in an 
effort to gain support for legislation. Many times we have been 
uplifted by members and their staff who, though shocked and saddened, 
have encouraged us by telling us to go back and tell our grassroots 
organization that we are doing the right thing by coming to 
Washington--that in America, this is how things get done.
    Still, as we have traveled and lectured around the world, we find 
that one of the most commonly asked questions we receive is, ``What 
could possibly go wrong on a cruise?'' So, today we submit to you a few 
abbreviated stories from some of our victims, each representing a 
different scenario of what could and does go wrong in hopes that it 
presents a clearer picture of how powerful they are to hear, yet 
difficult to tell and relive over and over again.
    In 2004, a 43 year old divorced mother of one, and daughter of Ken, 
one of the original four ICV founders, decides to take a cruise 
vacation to Alaska while her teen-aged daughter is visiting her father 
in England. After two days onboard, her cabin steward notices that her 
room has not been disturbed or slept in and reports his concern to his 
staff supervisor who downplays the situation as a possible ship-board 
romance. When her room remains the same for several more days, the 
steward again goes to his supervisor to report her as missing. The 
supervisor tells him to ``forget it.'' But when there was no sign of 
the woman by the time the voyage was to end, the steward asked his boss 
what he should do with her personal items. He was told to put them in a 
bag and lock them in a storage closet. He did what he was told to do, 
put the unclaimed items in a closet where they remained until the 
cruise line later discarded them. No one . . . no law enforcement, no 
family was notified that she was missing, no search was conducted, no 
announcement was made, no attention was paid. The woman and her baggage 
simply disappeared.
    Meanwhile, her daughter back in England, having no idea her mother 
had taken a cruise, kept trying to reach her at home but couldn't get 
an answer. With growing concern she called her maternal grandfather 
Ken, in Arizona, to see if he knew where she was. He did not. But he 
did contact the authorities in his daughter's hometown of Boston who 
entered her apartment and searched her belongings, eventually 
discovering a cruise ticket purchase for a voyage during the dates the 
woman went missing. The cruise line was contacted and their records 
revealed that she had gotten on the cruise ship but had never gotten 
off. The authorities in Boston ordered the ship to notify the 
authorities in Vancouver where the cruise ended so that they could 
investigate this as a missing person report. They did not. Instead, a 
week later the cruise lines notified the FBI, who by this time refused 
to open a case claiming they did not have jurisdictional authority to 
do so. This left the woman's family with no choice but to hire an 
attorney who then hired a private investigator who finally found the 
only person who ever saw the woman on the cruise, her cabin steward who 
kindly offered everything he knew which is all included in the 
statements above. The family asked for surveillance video but they were 
told they were too late, there was none by that point, and that if 
there had been they would not be able to share it with them for 
security reasons. Months later, as their personal costs, frustration 
and tears were mounting by the day, during a deposition, the family 
discovered the beginning of many lies and cover ups. There had been 
video when they requested it but it had not been shared with them and 
three months later it was destroyed by the cruise line. Now they were 
lost, there was no evidence, no case and no authority to care what 
happens to this family or their loved one Merrian. No one who knew the 
process or was willing to tackle this extreme consolidation of wealth 
and power with its nearly total freedom from a strong governmental 
hand--the cruise industry. Thus began ICV.
    The second tragic story involves Georgia, who is also one of the 
senior vice presidents of ICV. Georgia and her family became victims of 
one of the worst cruise ship disasters of recent history. On January 
13, 2012, the Costa Concordia Cruise ship crashed and nearly sunk in 
Italy. 32 people paid the ultimate price of losing their lives, and 
thousands of other passengers suffered with pain, fear, and emotional 
as well as physical traumas. The Costa Concordia disaster was 
especially difficult for her family, as they had been long time 
cruisers, and were devastated by the way they were treated by the 
cruise lines.
    ``It has been almost 8 years and we still have not been adequately 
compensated for the damages we suffered,'' Georgia explains, but ``more 
important than compensation for us though, is the need for the cruise 
line to take responsibility for their actions, to be transparent, and 
willing to put safety for their passengers at the forefront which they 
have refused to do.''
    Few tragedies in life are more devastating than the loss of a 
child. For many of us, it is difficult to imagine anything worse. But 
the unimaginable becomes the harshest reality for those whose children 
are lost due to the negligence of a ``trusted'' corporation; 
specifically a global one touting a business model that ``supports 
policies and practices that foster a safe, secure, healthy and 
sustainable environment.'' This is the story of Ashley. Her mother 
Jamie has served as president of ICV since 2007. She is also an 
ordained transitional Deacon in the Episcopal Church and will be 
ordained to the priesthood in January of 2020. But what precipitated 
her calling to the priesthood was the tragic loss of her only daughter 
Ashley Barnett on October 15, 2005. Ashely took a 3-day cruise from 
Long Beach, California down to Ensenada, Mexico with her boyfriend and 
several of his friends, six days before her 25th birthday. Less than 
24-hours later, she was dead. Her boyfriend, who was a recovering drug 
addict somehow managed to smuggle illegally obtained liquid methadone 
onto the ship in an emptied out bottle of Dayquil. And somehow, that 
methadone made its way into a non-drug using, adamantly and profoundly 
opposed to drugs of any kind, young lady's system. Having both 
anecdotal and scientific proof that she was not a drug user, the 
question of how this got into her system is of extreme interest and 
importance.
    Ashley and her boyfriend had an argument the first night of the 
cruise. He left her in their cabin and when he returned, she was 
asleep. He got into bed beside her. The next morning he got up and she 
was still sleeping according to his report. He left the cabin to meet 
up with his friends and plan the day, again according to his story. 
When he returned he found he couldn't wake her up and began to scream 
out into the hallway for help. A volunteer fireman rushed in and began 
CPR on Ashley. It is important to note that the fireman's story, quite 
different from that of the cruise lines, says that Ashley was viable, 
warm and with a slight, faint pulse at the time a nurse finally 
arrived, empty-handed from her office one flight directly below their 
cabin. She took over the resuscitation efforts and called for the 
doctor to come. When he got there they began to perform a few albeit 
unsuccessful life saving measures but none of the ones you would expect 
in a land based hospital, especially when the patient is suspected of 
having ingested methadone which her boyfriend finally admits is 
missing. No Narcan is administered, no line is put in, and over 20 
minutes go by before a defibrillator arrives. By this time, it is too 
late. She is pronounced dead.
    ``Once I was notified, an experience I will never recover from,'' 
says Jamie, she was told the FBI and Mexico were investigating but the 
ship was requesting that her body be allowed to remain onboard in their 
small morgue and return along with everyone else to Los Angeles 36 
hours later. It would be months before she learned that in actuality 
her body had already been removed and left alone in a morgue in Mexico. 
No one stayed with her. The ship sailed on.
    Five days later, Jamie was able to get Ashley's autopsied, embalmed 
body back to Los Angeles where she was told she would have to hire a 
private forensic pathologists if she was ever to know what killed 
Ashley (other than the cruise line's medical negligence). And it had to 
be good one, because he or she would have precious little to work with 
when they received her.
    Meanwhile the FBI maintained that they could not discuss anything 
with Jamie. And the cruise line offered nothing in the way of 
information or help and the boyfriend, who was never charged with 
anything . . . not even illegal possession of drugs, or manslaughter, 
or reckless homicide, remained free. These were only some of the legal 
hurdles, the jurisdictional murkiness, the lack of laws and rights that 
victims of crime at sea or their survivors have, the pain, the sense of 
powerlessness and secondary victimization Jamie was beginning to become 
painfully familiar with.
    Our final story comes from Laurie, another senior vice president of 
ICV, who while on a Royal Caribbean cruise vacation with her best 
friend Michelle was brutally raped by a crew member who was employed as 
a janitor but who was at the time filling in as a security guard. The 
crew member followed Laurie to her cabin, forced his way in and 
sexually assaulted her. She was left unconscious and when she woke up 
she discovered that her pants had been removed and that she not only 
had an impacted tampon she also had had ligature marks on her neck from 
what she could suddenly recall must have been caused by the perpetrator 
holding her down while she was trying to kick and push him off of her.
    After Laurie reported the rape, two supervisors, the purser and the 
head of security, came to her cabin and sat on the bed where the rape 
occurred to interview her. When Laurie was interviewed by the men one 
of the questions they asked her was how much she had had to drink that 
evening, and Laurie's answer was that over the course of the afternoon 
and night, she probably had a total of four alcoholic beverages.
    The purser then rose, clasped his hands behind his back and turned 
to face Laurie, who thought he was now going to say that medical help 
was on the way. Instead what she heard was this, ``Ms. Dishman, it 
sounds to me like you need to control your drinking.''
    Several hours later, she was taken to the infirmary. There she and 
her friend Michelle were handed two trash bags and told to go back to 
their cabin and collect her own evidence. ``Everything with my case was 
horribly mishandled by the cruise line, and I was provided with no 
course of action,'' Laurie says. Eventually after finding an attorney 
to help her she says, ``I had a eight hour deposition where the cruise 
line attorneys questioned me the entire time about my character because 
they knew what had happened with the janitorial employee they put in a 
security guard uniform was going to be big trouble. He had already been 
in trouble for falsifying records, insubordination and harassing two 
women six weeks before he raped me.''
    Laurie later wrote to her Congresswoman, Doris Matsui, when it 
became clear that neither the FBI nor the DOJ could help her. 
Afterwards she made over 30 trips to Washington for hearings and to 
gain support for legislation which the Congresswoman introduced as the 
Cruise Vessel Safety and Security Act. The bill was passed and signed 
into law July 27, 2010.
    The details involved in each of these cases and so many others 
points loudly to the fact that the cruise industry has, to an 
astonishing extent, functioned as a privatized society, ruled almost 
solely by their own corporate policies. This is an industry that has 
cleverly crafted a business model that allows them to ``enjoy virtually 
every benefit and protection of operating as an American company--
indeed icons of Americana--without being required to shoulder any of 
the responsibilities commonly understood to accompany the privilege. 
For all intents and purposes, they pay no federal taxes, and contend 
with no labor restrictions. Modern ships have expanded to size to a 
small city--they can carry approximately 9000 passengers and crew. 
While most cruise customers are from the U.S., their workers come from 
impoverished nations like Indonesia, Honduras or the Philippines. Their 
corporate headquarters are often found in Miami yet instead of paying 
taxes and registering their ships here in the U.S. they pay nominal 
fees to countries like Liberia, Panama, or the Bahamas, which affords 
them the right to fly their ships under what is known as ``flags of 
convenience.'' Tragically, this means that the ships are now registered 
in countries which are essentially legal and regulatory vacuums, unable 
and largely unwilling to exercise oversight and control. Doing this 
allows them to not only avoid U.S. laws and standards such as OSHA, and 
other regulatory controls, but labor laws, hiring practices and 
conditions, and a host of other requirements that would significantly 
cut into their profit margins.
    Critics rightfully claim that the cruise industry is effectively 
being subsidized by the U.S. government. These claims are based on the 
fact that the cruise industry actually represents a significant 
government expense. First of all, its ships are highly attractive 
targets for terrorists with unparalleled potential for mass casualty 
given their powerful symbolism of American consumer culture. With that 
in mind, the U.S. has spent millions of taxpayer dollars to fund port 
security to safeguard these cruise ships. These funds include but are 
in no way limited to the U. S. Coast Guard's patrol of the ships coming 
into and going out of our ports, shoreside security, the FBI which has 
jurisdiction over crimes involving U.S. citizens, and customs agents. 
Even more egregious is the treatment of passengers who become victims 
of crime or other tragic acts of negligence on these ships while at 
sea. Typically, the passenger is an American, having bought their 
cruise ticket in America and boarded the ship in an American port. 
Naturally, if they even think of it at all, they assume that the 
rights, laws and protections they have as an American go with them as 
they step onto the ship. What they don't know is that as soon as their 
ship sails away, so does all of that. Not until something goes wrong do 
these unsuspecting passengers realize that they are instead trapped on 
a tiny piece of Liberia or Panama . . .
    Here we are today, in 2019 and the 25,000,000 passengers projected 
to take a cruise this year are still in jeopardy and in need of 
protection and awareness. Many could unknowingly fall victim to the 
number one crime occurring on cruise ships; sexual assault. And yet the 
cruise lines continue to shield the truth of how many of these crimes 
are actually occurring and how many of them involve minors. Thanks to 
Senate testimony, we do know and we feel that the public needs to know. 
On average, an appalling total of 33% of all sexual assaults on cruise 
ships are committed against minors.
    Without the efforts of ICV and the congressional action taken over 
the past nine years, no legislation would been passed to improve the 
safety of passengers. While our voice will not be heard at the current 
public hearing, we appreciate the opportunity to submit this statement 
of need for continued oversight and additional legislation. Beginning 
with the fact that reportable crime categories should be expanded to 
include all crimes, not only the ones included under the CVSSA but all, 
so that they too may be included in the crime statistics. As it appears 
now, the cruise lines themselves are able to decide and label any 
offense or crime, with the possibility of downgrading the seriousness 
of such crimes (i.e. instead of categorizing an incident as a sexual 
assault which is a reportable offense, the cruise line has the option 
of categorizing it as ``inappropriate touch'' which is not currently a 
reportable offense). Such limited and unchecked reporting serves to 
protect the cruise line rather than the passenger. This calls for your 
attention.
    Another issue of deep concern is the fact that cruise lines resist 
legislation claiming that they are already highly regulated. However, 
these claims are unsubstantiated and can be easily refuted. One need 
only refer to a statement submitted on a slide included in a power 
point presentation given by the International Maritime Organization 
(IMO) itself stating the following:

``Roles and Functions . . .
IMO is not:
<bullet>  A policeman
IMO does not:
<bullet>  Implement anything
<bullet>  Develop standards for strength or determine design 
    requirements
<bullet>  Approve equipment and systems
<bullet>  Have (m)any sanctions''

    Additionally one can only look with suspicion upon the Cruise Lines 
International Association (CLIA) self-adopted and promoted Passenger 
Bill of Rights--an obvious public relations initiative. Sadly, an 
evaluation of that claim reveals that while many of the promises 
included there seem reassuring to cruise passengers, a deeper dive into 
them indicates it is filled with empty promises and lacks any legal 
substance or guarantee for passenger recourse when seeking fair 
compensation.
    Finally, unlike companies on land, cruise lines face virtually no 
financial exposure when their passengers die or disappear. Even if the 
cruise line is clearly negligent or acts maliciously. This is because 
of a nearly one hundred year old law known as the Death on the High 
Seas Act (DOHSA), which was originally passed to provide for a widow's 
ability to obtain limited recovery when her seaman husband died at sea. 
This same law is still being used--now as a shield by the cruise 
industry to avoid financial accountability for the wrongful deaths of 
passengers. Applied to the cruise lines, DOHSA today provides no 
recovery when the victim is a retiree or a child. This passenger 
demographic accounts for a significant portion of the 25 million 
passengers who cruise each year. Cruise lines and their insurance 
companies have profited enormously due to this ancient law. 
Understandably, many grieving passengers are not only floored when they 
learn of this, they are also made to feel victimized once again when 
told their loved one's life was worthless under current maritime law.
    ICV implores Congress to not only continue but to in fact 
strengthen its resolve to warn and protect the public from danger when 
they are the most vulnerable and the least aware: on a cruise ship. Our 
hope and our mission is to change the fact that even as we seek to 
increase safety, create awareness, and open up opportunities for the 
public to hear and know the details of tragic stories such as the 
victim members stories presented here, the cruise are engaged in 
efforts to shield and protect themselves while they shame and overwhelm 
the victims in many cases such as in the sexual assault of Laurie, or 
the costly PTSD Georgia, Dean, Valerie, and Cindy are still living with 
as a result of their harrowing evacuation of a sinking cruise ship off 
the coast of Italy. Not to mention the heartache and scapegoating 
tactics used after the fiery deaths of Richard, or Larry and Christy. 
Several ICV members can certainly speak to the medical negligence on 
the supposedly fun ships that led to the deaths of Ashley, Matthew, and 
Christina; or the truth behind the disappearance of Merrian, or 
Rebecca, or Blake, or Amy, or Daniel. And all of us could tell you the 
truth of what could have been done to prevent these tragedies.
    The congressional champions we have had along the way have made all 
the difference in our fight for answers and justice. There is an old 
African proverb that says, ``Until the lion tells the story, the hunter 
will always be the hero.'' While stories are most often told by the 
hunter--the customary hero--there is always another story. One that 
struggles to be told. In this case, the story struggling to be told is 
that of victims of crime on cruise ships. We are that lion--we have a 
story too. The world is counting on you to listen to that story.

                                 <F-dash>
 Educational paper, ``Spotlight On Safety: Why Accidents Are Often Not 
 Accidental'' by International Organization of Masters, Mates & Pilots 
 and Dalhousie University, Department of Industrial Engineering, July 
             2019, Submitted for the Record by Hon. Larsen
                               __________
[This educational paper is retained in committee files and appears in 
abridged form below. It is available in its entirety online at https://
bridgedeck.org/actionnetwork/Spotlight-MMP-WMRC-Final071619.pdf.]

                               __________

    This Paper is background information to the Poster Presentation at 
the World Maritime Rescue Congress, Vancouver, British Columbia, 
Canada, June 2019.
                                abstract
    The best search and rescue (SAR) response is the one that does not 
have to take place. The International Maritime Organization (IMO) and 
the International Maritime Rescue Federation (IMRF) recognize that 
prevention is a key function of rescue organizations. If the number of 
maritime casualties is reduced, lives are saved, pollution averted and 
there are fewer risks to SAR personnel and lower costs for SAR 
organizations.
    The IMO, the International Labour Organization (ILO) and national 
and private regulatory bodies provide a regulatory regime which, if 
followed, substantially reduces the risk and severity of maritime 
casualties. In the shipping economy, however, commercial pressures may 
lead to conflicts with the regulatory regime. It is therefore no 
surprise that failure to comply with the regulatory regime is a factor 
in many maritime casualties.
    The General Maritime Law that governs international shipping has 
effectively insulated upper level managers from the consequences of 
regulatory noncompliance, provided that they can deny knowledge of it. 
The International Safety Management (ISM) Code, with its provision 
requiring that deficiencies be reported to a Designated Person Ashore, 
is designed to inform managers and bring them into the circle of 
responsibility. Although technology provides ship operators with the 
ability to have immediate knowledge of conditions aboard ship, 
including the degree of compliance with regulatory standards, there is 
a tendency to discourage reporting so as to maintain management's 
immunity from personal liability. It is difficult to establish a shared 
safety culture between the ship and management when the future of the 
master and crew may depend on not sharing safety information with 
management.
    This problem may be exacerbated by ``regulatory capture,'' which 
can happen when marine inspectors are pressured by their superiors to 
``look the other way.''
    With modern technology, the burden of responsibility can, and must, 
extend to ship operators, ship owners, classification societies and 
flag states.
    In this paper, the International Organization of Masters, Mates & 
Pilots (MM&P), in conjunction with Dalhousie University, explores this 
complex problem, along with possible solutions. The authors also 
present their personal experiences in attempting to maintain safety 
standards.
                                glossary
ABS--The American Bureau of Shipping, a classification society, IACS 
member and Recognized Organization.

ACP--The U.S. Alternate Compliance Program is a voluntary alternate 
inspection process for U.S.-flagged vessels in which an approved 
Classification Society (Recognized Organization) may issue certificates 
of inspection on behalf of the U.S. Coast Guard.

CAR--Corrective Action Report. Under the International Safety 
Management Code (ISM), ship operators are required to maintain Safety 
Management Systems (SMS). In the context of these systems, Corrective 
Action Reports are used to report safety deficiencies to management.

Classification Societies--Classification societies are non-governmental 
organizations that establish and maintain technical standards for ship 
construction and operation. They confirm that ship designs and their 
underlying calculations meet published standards. They also carry out 
periodic surveys to ensure that ships continue to meet standards. Flag 
states may authorize classification societies to carry out surveys on 
their behalf.

DPA--Designated Person Ashore. Under the ISM Code, DPAs serve as a link 
between shipboard personnel and top management ashore.

Flag State--The nation in which a commercial ship is registered. Flag 
states have the legal authority and responsibility to enforce 
regulations (on inspection, certification, safety and pollution) on 
vessels registered under their flag.

IACS--The International Association of Classification Societies. The 
IACS is a not-for-profit membership organisation of classification 
societies that establishes minimum technical maritime safety and 
environmental standards and requirements and ensures their consistent 
application. The IACS is recognized as the IMO's principal technical 
advisor.

IMO--The International Maritime Organization. The United Nations 
specialized agency with responsibility for the safety and security of 
shipping and the prevention of marine and atmospheric pollution by 
ships. Its primary mission is to create a fair and effective regulatory 
framework that is universally adopted and universally implemented. It 
works to create a level playing field, one in which ship operators 
cannot address financial challenges by compromising on safety, security 
and environmental performance.

ISM Code--The International Safety Management Code. It is intended to 
provide an international standard for the safe management and operation 
of ships and for pollution prevention.

NGO--Non-Governmental Organization.

Port State Control (PSC)--The inspection of foreign ships in national 
ports to verify that the condition of the ship and its equipment 
complies with the requirements of international regulations and that 
the ship is manned and operated in compliance with these rules.

Recognized Organization (RO)--An organization (principally a 
classification society) authorized to carry out survey and 
certification functions.

SMS--Safety Management System. Under the International Safety 
Management Code (ISM), operators are required to maintain a Safety 
Management System (SMS). The SMS details: how a ship is to be operated 
on a day-to-day basis; emergency procedures; measures to be taken for 
safe operation; and requirements for reporting to the DPA ashore.

SOLAS--The Safety of Life at Sea Convention, widely considered the most 
important international treaty on the safe operation of merchant ships.
 1) the maritime safety regulatory regime and commercial pressures vs. 
                    regulatory compliance and safety
    The international maritime shipping sector, which carries 95 
percent of international trade and makes globalization possible, is 
dominated by the ``flag-of-convenience'' (FOC) system. This system 
allows a ship owner to register a ship under the flag of one of more 
than 30 foreign countries, usually small island nations that operate 
open registries.
    FOC registries are often managed by private corporations as for-
profit enterprises that provide ships with an assumed nationality for 
tax and regulatory purposes. The system allows the ship owner to 
operate free of the taxes, regulations, labor and environmental laws of 
his or her home country. It also allows owners to crew their ships with 
seafarers from low-wage labor supply countries in the developing world.
    FOC registries compete with each other to offer the least 
burdensome tax and regulatory environment. In effect, they create an 
international industry that operates in a nearly stateless environment. 
This leads to an uneven playing field and a race to the bottom with 
substandard shipping enjoying a competitive advantage.
    To counter the destabilizing effect of the FOC system and bring 
some semblance of regulatory uniformity to international shipping, the 
United Nations has acted through its International Maritime 
Organization (IMO) to establish minimum safety, pollution and emission 
standards for ships in the international trade. The London-based IMO 
has 174 member states. There are also more than 60 non-governmental 
organizations (NGOs) with consultative status; they include industry 
trade associations, professional associations, class societies and 
maritime labor organizations. The IMO provides a forum for oversight 
and debate on amendments to more than 50 international conventions and 
codes covering all aspects of shipping, from design and construction to 
fire protection, equipment performance standards, manning, hours of 
work and rest, training, pollution and emissions, navigation safety, 
communications, search and rescue, and safety of life at sea.
    The IMO recognizes the International Association of Classification 
Societies (IACS) as its principal technical advisor in the development 
of technical and safety standards. The membership of the IACS consists 
of twelve class societies that verify the structural strength and 
integrity of essential parts of the ship's hull and its appendages, and 
the reliability and function of the propulsion and steering systems, 
power generation and other auxiliary systems. The IACS is the only NGO 
at the IMO that is able to develop and apply its own rules.
    It should be noted that the IMO has no enforcement power. Its 
function is to provide a forum for member states to debate both the 
adoption of new conventions and codes and the need for safety-related 
revisions in existing conventions and codes. Member states that are 
signatories to a specific convention have a contractual treaty 
obligation to conform their national laws to its terms.
    Enforcement remains at the national level, under the purview of the 
administration of each flag state. The majority of ships in 
international trade are registered in FOC flag states; as sovereign 
nations, they can interpret, implement and enforce their treaty 
obligations as best serves their national interests. FOC and 
traditional national flag states alike are reluctant to place their 
ships at a competitive disadvantage by implementing regulations that go 
beyond the international minimum standards as they interpret them.
    IMO conventions permit flag states to delegate ship inspection and 
surveying to class societies that meet the requirements of the IMO Code 
for a Recognized Organization (RO). This is a reflection of the fact 
that many flag state administrations do not have the technical 
experience, manpower or global coverage necessary to undertake all the 
IMO-required inspections and surveys on their own. It is for each flag 
state to decide how much authority to delegate. In most cases, the RO 
class society is empowered by the flag state to require repairs or 
other corrective action and to withdraw or invalidate the relevant 
certificates required to operate the ship if that action is not taken. 
Often, the RO class society and its surveyors are the frontline actors 
in the enforcement of regulations that address ship design and 
construction, along with the maintenance required to keep ships in safe 
condition over the course of their life cycles.
    Because the ship owner is free to choose which FOC flag state and 
class society to use, there is commercial pressure on flag states and 
class societies to satisfy their clients. This obviously puts pressure 
on RO class society employees, i.e., the surveyors and auditors 
responsible for certifying regulatory compliance and the condition of 
the ship. The ship owners themselves are under commercial pressure from 
other ship owners operating under competing FOC and RO systems of 
regulatory enforcement and compliance verification.
    The IMO's International Safety Management (ISM) Code contains 
regulations that govern the safe management and operation of ships, 
along with pollution prevention. The ISM Code requires that companies 
have a Safety Management System (SMS) that sets out their safety and 
pollution prevention policies and complies with all mandatory 
international and national regulations and maritime industry standards 
and guidance. The SMS contains company policy on all aspects of its 
safety program. As with other IMO regulations, the flag state can 
delegate to RO class societies the enforcement, auditing and issuance 
of certificates of compliance. Ship owners can also delegate to the 
same RO class societies the preparation of the company's SMS.
    One of the principal purposes of the SMS is to provide a link 
between onboard safety management and a designated person ashore (DPA) 
who has access to the highest level of management in the company. The 
designated person is responsible for monitoring the safety of the ship 
and ensuring that adequate resources and shore-based support are 
provided.
    The system places responsibility on the master and the designated 
person to communicate information related to: onboard safety 
deficiencies and non-conformities and their possible causes; 
regulations pertaining to corrective actions; and recordkeeping of such 
actions. The intent is to make shore-side management directly 
responsible and liable for the safe condition and operation of the ship 
and for documenting the actions taken in this regard. This has major 
implications, as it undermines the ability of the company to limit its 
liability based on a lack of knowledge, or privity, of the unsafe 
conditions. It also calls for creation of a documented record of 
deficiencies that could prove a case of negligence on the part of the 
company.
    It was hoped that the ISM Code would lead companies to embrace a 
more positive safety culture. In a well-managed company with 
experienced staffers who have the authority and resources needed to 
take action, an SMS will contribute to the development of a positive 
safety culture. But not all companies are managed well or staffed with 
the resources necessary to support the master in maintaining a safely 
operated ship. In these cases, the reporting of deficiencies may be 
looked upon as a problem rather than as an opportunity to improve 
safety. In such companies, a master who brings safety management 
problems to the company is himself a problem and risks being replaced. 
This can have a chilling effect on other masters who then become 
reluctant to bring their own safety concerns to management.
    The underlying problem with maritime safety is that the regulatory 
system is subject to commercial pressure from the top down.
    Even at the highest level within the IMO, commercial considerations 
are taken into account in drafting and adopting regulations. To some 
extent this may be acceptable because, as is the case in any high-risk 
industry, there must be an appropriate balance between commercial 
viability and safety. The problem is that the IMO is not a regulatory 
body in that it does not implement or enforce the regulations in the 
conventions and codes that its member states adopt. It is left to 
member flag states to bring their national laws into compliance with 
the international regulations.
    Flag states in the FOC system are essentially competitive flags for 
hire. They dominate international shipping and they delegate most of 
their responsibilities and authority to private RO class societies. The 
RO class societies are employed by companies but act on behalf of flag 
states in implementing and enforcing international regulations. 
Companies, in turn, employ RO class societies to prepare their ISM Code 
safety management systems and conduct audits of SMS documentation and 
performance. The end result is that companies are regulated by private 
organizations that they themselves employ and have a choice in 
selecting.
    Despite the apparent conflict of interest, in most cases the system 
works well: the flag state, the RO class society, the company and 
shipboard personnel cooperate to achieve a quality operation. In many 
trades and maritime sectors, quality confers commercial benefits. But 
there are significant differences in the quality and integrity of FOC 
flag states and RO class societies, and companies take these 
differences into consideration when making the choice of which to 
select. A bad actor with a substandard ship may select a flag state and 
class society with a reputation for lax enforcement of standards. There 
may be a penalty for doing so, as it may subject the ship to more 
stringent Port State Control inspections because of the reputation of 
the flag state or class society. However, that may be a risk the owner 
is willing to take to gain a competitive advantage.
    Port State Control (PSC) is the inspection of foreign ships in 
national ports to verify that the condition of the ship and its 
equipment comply with the requirements of international regulations and 
that the ship is manned and operated in compliance with these rules.
    The inspections were originally intended to be a backup to flag 
state implementation, but experience has shown that they can be 
extremely effective--particularly in cases in which the regulatory 
organizations (flag state, class society) have not fully met their 
obligations.
    PSC came about partly in response to the March 1978 grounding of 
the VLCC Amoco Cadiz off the coast of Brittany, France, which caused a 
220,000-ton oil spill.
    Nine regional agreements on Port State Control--Memoranda of 
Understanding, or MoUs--have been signed: Europe and the North Atlantic 
(Paris MoU); Asia and the Pacific (Tokyo MoU); Latin America (Acuerdo 
de Vina del Mar); Caribbean (Caribbean MoU); West and Central Africa 
(Abuja MoU); the Black Sea region (Black Sea MoU); the Mediterranean 
(Mediterranean MoU); the Indian Ocean (Indian Ocean MoU); and the 
Riyadh MoU. The United States Coast Guard maintains the tenth PSC 
regime.
    Where vigorously enforced, PSC has been effective in detaining 
substandard ships, discouraging them from operation in regions with 
effective PSC, banning substandard ships, publicizing and penalizing 
substandard ships, their operators, their flag state and the 
classification society. (In contrast, ships operating in domestic 
waters only, and not subject to PSC, are often less safe).
        2) maritime incidents--risk to life and the environment
    The shipping industry is prone to repetitive incidents, which have 
often resulted in loss of life and damage to the environment. With 
proper oversight--by ship management, inspectors, regulatory 
authorities, and crew--the deficiencies, which caused these incidents, 
would have been corrected before disaster struck. Many of the 
shortcomings identified during subsequent investigations of the 
casualties were related to survey items: machinery, hull structure or 
load line issues. Some were related to the operators' safety culture. 
In many cases, investigators found both survey issues and a lack of 
safety culture.
    In this section we highlight several serious incidents that 
resulted in loss of life. Although different on the surface and 
separated by time, distance and vessel type, they have at least one 
significant factor in common: in every case, the risks were obvious and 
predictable.
    Bulk Carriers: In March 2000, the bulk carrier Leader L sank in the 
North Atlantic off the eastern coast of Canada. Eighteen crew members 
died. The Leader L was one of about 100 bulk carriers to sink in the 
1990s; nearly 700 mariners were lost in bulk carrier casualties in this 
time period. (Associated Press, 2000). There were allegations of 
serious structural deficiencies in this ship.
    Efforts have been made to increase the safety of bulk carriers, 
which have been among the vessels most vulnerable to casualty (see 
illustration on the following page). But the ships continue to sink. As 
recently as March 2017, the bulk carrier Stellar Daisy, the largest 
such vessel ever to sink, went down in the South Atlantic, taking with 
it 22 of 24 members of the crew.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Figure 1. Making bulk carriers safer (Bulk Carrier Guide, 2010a).

    Tankers: Although international efforts to improve the safety of 
tankers have met with some success, incidents still occur--often with 
catastrophic effects on the environment--and a flawed international 
regulatory system can shield those responsible.
    In 2002, the structurally deficient tanker Prestige sank off the 
coast of northern Spain, spilling over 60,000 tons of heavy fuel oil. 
In an outrageous case of injustice, the master of the vessel, 81-year-
old Captain Apostolos Mangouros, was held accountable and imprisoned, 
even though the Spanish government had refused his request to provide a 
place of refuge when the foundering vessel was in distress (Maritime 
Executive, 2016). The owner of the ship had knowledge of its condition 
and should not have permitted it to sail. It subsequently broke-up, 
with disastrous effects on the Spanish coast. (Maritime Knowledge, 
2018).
    Ferries: The continuing loss of ferries and tour boats around the 
world has led to calls for improved regulation of these vessels.
    In the Philippines, the Sulpicio Lines ferry Princess of the Stars 
capsized in a typhoon in 2008, causing the death of more than 800 
people. In 1987, in what is considered the deadliest peacetime disaster 
in maritime history, another Sulpicio Lines vessel, the Dona Paz, sank 
after a fiery collision. The ferry was seriously overcrowded: nearly 
4,400 people died, many times the number that the company said it was 
certified to carry, and almost three times the number listed on its 
manifest. There were just 24 survivors.
    In 2009, in the South Pacific Kingdom of Tonga, another domestic 
ferry, the Princess Ashika, sank with considerable loss of life. 
Investigators were told later by an officer for the Ministry of 
Transport that ``any fool (could) tell how bad the ship was . . .'' 
(Kavaliku, 2010, p. v).
    The Russian riverboat Bulgaria sank in 2011 on the Volga River; 122 
people died, many of them school children (Appendix F).
    A particularly horrifying ferry disaster occurred in 2014, when the 
Korean ferry Sewol capsized, trapping over 300 people--mostly students 
on a school trip--inside.
    The American-flag bulk carrier Marine Electric sank in 1983, 
largely due to its deteriorated condition. There were only three 
survivors; the other 31 members of the crew died. The Marine Electric 
has been referred to as `The Wreck That Changed the Coast Guard 
Forever' (Zilnicki, 2019). Yet the loss of the El Faro with all hands 
(33 souls) occurred in 2015, more than three decades after the Marine 
Electric sank.
    Did the safety culture really change as a result of the Marine 
Electric disaster?
     3) pressures on front line personnel: ships officers and crew
    Mariners are guided through darkness, fog, and foul weather by 
radar and a multitude of other electronic navigational aids. The 
electronic era, and Satellite Telephone, has in some cases also induced 
micro-management from ashore; often by managers with little or no 
seagoing experience. While the electronic age has given us new tools to 
assist in progressing from one port to another, intense commercial 
pressures have increased for: on time arrivals, timely departures, and 
fuel conservation wherever possible.
    The fact is, ships do not make money at the berth. So, while we 
have all of this electronic navigation to illuminate the way, and 
``help'' from management ashore, what keeps the ship safe? The best set 
of eyes and ears to ensure safety and regulatory compliance for any 
ship is its crew. Unfortunately, the seamen are often underutilized in 
keeping a ship within regulatory compliance. Indeed, in some cases they 
are pressured to keep quiet and keep the ship moving. Ships make money 
at sea!
    Under the International Safety Management Code (ISM), operators are 
required to maintain a Safety Management System (SMS). A requirement of 
an approved SMS is reporting, and documentation, of deficiencies via 
``Corrective Action Reports'' (CAR's). Maritime companies do not like 
having a documented trail of failures to comply with the ISM Code or 
other regulatory requirements. Multiple infractions may make them 
susceptible to increased scrutiny by Port State Control or other 
regulatory agencies. This could jeopardize schedules, increase repair 
costs at an inconvenient time, or leave a trail for a charge of 
negligence and liability in the event of an accident. Hence management 
can develop a negative attitude towards ship's personnel who originate 
CAR's and open up the documentation trail. Thus, officers can be 
reluctant to write CAR's for fear of retaliation, which can be subtle 
in nature, such as lack of advancement, or more acute as job loss.
    Any company intent on retaliation, no matter how subtle, will 
exploit an available issue to disqualify the complainant. Effectively, 
within the maritime industry, these companies work against the ISM Code 
to their own advantage, and to cover any wrongdoing at the management 
level. We have classification societies and Port State Control that 
visit ships but do not review CAR files, nor ask officers if there are 
any outstanding deficiencies not included in the CAR file. Often, the 
presumption by agencies is that because the ship has passed annual 
inspections and is properly certificated there are no problems. Closer 
scrutiny is definitely needed. If the CAR file is historically without 
mention of any safety violations or non-compliance issues, this should 
raise a red flag for the auditor.
    In addition, in the United States, we have the ``Alternate 
Compliance Program'' (ACP), under which classification societies 
perform marine inspection duties that were once the sphere of the U.S. 
Coast Guard. On the one hand, the classification society is there to 
inspect for noncompliance, which could possibly cause delays. On the 
other hand, it is being paid by the ship's owner to authorize the 
various certificates needed for marine operation, so the ship can sail. 
This manifests as a serious conflict of interest. Classification 
societies are self-financing and so require revenues to continue to 
operate, not to lose clients that can go to an alternative society. In 
the United States, under the ACP, the U.S. Coast Guard is the agency 
that issues the Certificate of Inspection, and other certificates, 
based on the inspection of the classification society. It should be a 
double check; it is not.
    One of the findings of the USCG Marine Board of Investigation into 
the sinking of the SS El Faro was the USCG's lack of manpower for 
marine inspection oversight. The Coast Guard, when under ACP, is 
relying heavily on the classification society to perform proper 
inspections. In the case of the SS El Faro, the Board's findings showed 
a distinct failure by both the ABS and the USCG.
    What was the operator's accountability in the loss of the El Faro? 
No official was held to account. Contrast this with a Russian court's 
decision in 2014 regarding the 2011 sinking of the riverboat Bulgaria. 
In this case, managers and others found guilty of failure to comply 
with regulations were imprisoned (see Appendix F). Alternatively, in a 
legal case of retaliation by a major U.S. shipping company, Captain 
John Loftus v. Horizon Lines, the ship's master was awarded over $1.154 
million dollars. The judge called the actions of management 
``REPREHENSIBLE.'' Here, there was violation of federal law by some of 
the highest corporate executives in the company to cover their own 
mismanagement and to silence a ship's master who was reporting major 
safety issues to protect his ship and crew. (See Appendix A)
    The case parallels that of Jeff Hagopian, who was abruptly 
terminated from his job as captain of Noble Drilling's Noble Danny 
Adkins after filing a report of safety violations.
    Hagopian had been a captain with the company from 2010 to 2015. 
Each year, he had received highly positive, complimentary performance 
evaluations.
    He reported two violations to Noble's alternate designated person 
ashore: a false ``red entry'' in the logbook which claimed the crew had 
performed the quarterly launching and maneuvering of the lifeboats; and 
an attempt to mislead USCG inspectors during the vessel's annual 
Certificate of Compliance Inspection about the defective condition of 
the gravity davit that deploys the fast rescue craft.
    Eleven days after filing his report, he received a phone call from 
his direct supervisor and Noble's human resources manager claiming the 
company had ``lost confidence'' in his ``ability to manage the 
vessel.''
    Unbeknownst to Hagopian was the fact that his safety report had 
exposed directives by management to not be forthright with the U.S. 
Coast Guard. And while the company constantly stressed its safety 
policy, it had actually just begun four years of criminal probation 
after pleading guilty to eight felony counts related to safety and oil 
pollution violations and major non-conformities with the safety 
management system on the Noble Discoverer.
    Hagopian filed a lawsuit against Noble Drilling under the 
``Seaman's Protection Act'' in U.S. District Court for the Southern 
District of Texas. It was settled out of court in February 2017 (case # 
3:2016-cv-00099).
    As Captain Hagopian has stated, ``Law enforcement, regulatory 
agencies and classification societies are all failing the mariner due 
to conflicts of interest, politics, cronyism and corporate pandering. 
Safety regulations should be enforced more vigorously to help support 
anyone who is trying to protect their crew and vessel without fear of 
retaliation.''
    Rear Admiral Paul F. Thomas said it best in the Spring (2016) Issue 
of USCG Proceedings in discussing Safety Management Systems and the ISM 
Code: ``An effective SMS must not only be very well developed in terms 
of process and procedures; it must also be deployed from the boardroom 
to the boiler room. There shouldn't be any disconnect between the 
auditors and the surveyors, or between the CEO and the seaman. We all 
must work together to discover and eliminate such disconnects.'' (Rear 
Admiral Thomas, 2016, p. 4)
                   4) pressures on safety inspectors
    The safety inspection regulatory regimes, such as classification 
society and flag state, are the top level of the safety system. If they 
fail, the only safety check is an effective Port State Control regime, 
which does not apply in many cases.
    The pressures on the safety inspection system may come at several 
levels: the organization level,and, often as a result, the personal 
level.
a) At the organizational level (``regulatory capture'')
    The Safety Inspection System is subject to conflicting pressures: 
on the one hand, pressure from industry seeking to reduce the 
regulatory burden and the ``cost'' of safety; on the other hand, public 
pressure to maintain safety. Industry pressure is generally ongoing, 
through public fear of job losses due to the cost of safety, and 
through political pressure (often as a result of lobbying and political 
contributions). Pressure from the public generally only comes after a 
major tragedy, such as the sinking of the El Faro or the Marine 
Electric, and usually subsides after a few years.
b) At the level of individual safety inspectors
    Why do safety inspectors often pass over and not identify obvious 
deficiencies for needed repairs? In some cases, it may be a genuine 
oversight, or a lack of training (itself a serious issue). However, in 
many cases it is pressure from their managers, (themselves subject to 
pressure from more senior managers). There may also be pressure from 
colleagues to be ``part of the team,'' to not rock the boat.
    Those who endear themselves to management and get the job done on 
time and at less cost are likely to be rewarded with better personnel 
reviews as well as promotions. The desire for career advancement may 
interfere with taking the actions necessary to protect the safety of 
the public. Absent a collective response and/or legal protections, it 
may be difficult for individual inspectors within an organization to 
withstand these pressures. (See Appendix B)
                       5) pressures on management
        ``And in competitive markets, whatever is possible becomes 
        necessary.''
        (Shaxson, 2011, p. 130)

    Pressures on ship management include the need to compete based on 
price and other factors such as timely delivery of cargo. Many ships 
are an important link in a ``just in time'' supply chain aimed at 
maximizing efficiency, minimizing cost and improving customer 
satisfaction.
    Delays, due perhaps to rectifying ``minor'' safety issues raised by 
ship's crew or the class society, can interrupt this supply chain, with 
a significant impact on the shipping firm's customers. These customers 
may seek another ``more reliable'' shipping firm, one where the crew 
does not cause delays by reporting defects, one where the 
classification society is ``more reasonable.'' Senior management is 
under pressure from the stock market, from shareholders, and from the 
board of directors, to keep costs down, to keep ships running on time. 
Middle managers, in turn, come under pressure from senior management to 
achieve these goals.
                           6) accountability
    The public has the right to expect, and must demand, that those 
tasked with protecting public safety be competent to perform the 
responsibilities they are assigned, act with integrity, and place their 
responsibilities to the public ahead of all other considerations.
    After the Marine Electric sank in 1983, the owner--Marine Transport 
Lines--pleaded guilty to criminal negligence and was fined $10,000. No 
one in senior management was convicted of a crime, or even penalized by 
the company. But, a few years later, the CEO and his team were removed 
because the cost of new (safer) ships had reduced the company's 
profitability.
    In the case of major marine incidents, the senior managers of 
shipping firms are very rarely successfully prosecuted. Senior 
management, albeit often not making the day-to-day front-line 
decisions, established the safety culture of the organization. In many, 
if not most cases, this corporate culture discouraged reporting of 
regulatory violations and safety concerns up the management chain, 
effectively insulating management from responsibility for the firm's 
actions.
    Earlier this year (2019), more than a decade after the Philippine 
ferry Princess of the Stars sailed into Typhoon Frank and capsized with 
the loss of over 800 lives, criminal charges of reckless imprudence 
were filed against Edgar S. Go, Sulpicio Lines first vice president and 
team leader of the firm's crisis management committee. (Supreme Court 
of the Philippines, 2019)
    The charging document alleged that ``the DOJ (Department of 
Justice) panel found that Go was involved in making decisions on 
whether a vessel should be allowed to sail such that he should have 
cancelled or discouraged the voyage considering the severe weather 
(Typhoon Frank) at that time.'' Originally, the loss was blamed solely 
on the master.
    In the case of the tourist boat Bulgaria, unlike most cases, not 
just operating personnel but senior company officials, regulatory 
officials and a senior inspector were sentenced to significant terms of 
imprisonment (see Appendix F).
    U.S. Coast Guard Final Action Memo on the October 2015 Sinking of 
the SS El Faro:

        ``This tragic story points to the need for a strong and 
        enduring commitment at all elements of the safety framework. 
        First and foremost, the company must commit to safety culture 
        by embracing their responsibilities under the ISM Code. 
        Secondly, Recognized Organizations (ROs) must fully and 
        effectively perform their duties and responsibilities. Finally, 
        the Coast Guard must, and will, provide the final safety net 
        with sustainable policy, oversight, and accountability'' 
        (Commandant Admiral Zukunft, 2017, p. 3).
7) conclusion: the way forward--effective regulatory oversight & a real 
                             safety culture
    We have shown that the regulatory framework, based on IMO 
standards, is generally adequate, and is capable of being periodically 
updated as may be required.
    In most cases it is the lack of compliance with existing standards, 
be they ship construction and maintenance, or safety management 
procedures, which is the root cause of safety incidents.
    The following proposals geared toward American regulations could be 
adopted worldwide:
    1.  Greater uniformity by flag and port states in implementation of 
international safety regulations, with strict enforcement by Port State 
Control, including the ability to look behind certificates of 
compliance issued by flag states or other inspection organizations.
    2.  The right and obligation of ship's officers to raise 
``Corrective Action Reports'' (CAR's) and have them addressed in a 
timely manner.
    3.  Classification society inspectors, or USCG/port state control 
personnel, should be ``required'' to review the CAR file ``every'' time 
they board a vessel. There should be accountability to ensure 
compliance with the system as intended.
    4.  Consider ending, or modifying, the Alternate Compliance 
Program. ACP is a ``pay for play'' program, where there is a direct 
conflict of interest for the regulatory agency (such as ABS, or another 
classification society).
    5.  Protection of crew and other personnel by a legal framework, 
such as the American ``Seaman's Protection Act'' (See Appendix D), and 
by enforcement of the rights established under the Maritime Labour 
Convention of 2006.
    6.  Ensure the company's operational team includes management 
personnel with extensive seagoing experience who can review policy and 
be available for consultation with the ship's senior officers.
    7.  Legal (criminal) accountability, such as the Canadian ``Westray 
Bill'' (See Appendix E), for officers and directors of an organization 
as well as the organization itself, including Regulatory Organizations, 
where their action, or lack of action, results in injury or death.
                 8) authors' notes and acknowledgements
    This Paper is based on the authors' and contributors' professional 
knowledge and experiences. In particular, three of the contributors 
were penalized by their employers and ultimately terminated as a 
consequence of their attempt to comply with regulations and safety 
protocols.
    These whistle-blowers would like to take this opportunity to thank 
the many colleagues, including some in senior positions, who supported 
them; the many others, including prominent politicians, who understood 
the significance of their situation; and the families who stood by them 
through many frustrating times. They would also like to thank their 
lawyers, whose sense of fairness and justice led them to carry on, at 
some risk to themselves, without a clear prospect of reward.
    The authors also thank Jeff Hagopian, former captain at Noble 
Drilling, for sharing his safety experience on the Noble Danny Adkins.
    Finally, they would like to acknowledge the efforts and enthusiasm 
of student co-author Tara Sherrard, for whom this project presented an 
opportunity to learn the somewhat disillusioning difference between the 
`Paper' academic world, and the `Real' world experienced by many.
                               references
Associated Press. (2000). 6 Dead, 12 Missing as Cargo Ship with 31 
Aboard Sinks off Bermuda. Retrieved from https://www.latimes.com/
archives/la-xpm-2000-mar-25-mn-12610-story.html

Bulk Carrier Guide. (2010a). Making bulk carriers safe [Diagram]. 
Retrieved from http://bulkcarrierguide.com/survival-and-safety.html

The Maritime Executive. (2016). Industry shocked as 81-year-old faces 
jail. Retrieved from: https://www.maritime-executive.com/editorials/
industry-shocked-as-81-year-old-faces-jail

Maritime Knowledge. (2018). Learn from the past: Prestige sinking, one 
of the worst oil spills in Europe. [Digital image]. Retrieved from 
https://safety4sea.com/cm-learn-from-the-past-prestige-sinkingone-of-
the-worst-oil-spills-in-europe/

Kavaliku, M. S. (2010). Report of the Royal Commission of Inquiry into 
the Sinking of the MV Princess Ashika. Retrieved from https://
www.scribd.com/document/29878635/Ashika-Final-Report

Supreme Court of the Philippines. (2019). SC reinstates criminal case 
against Sulpicio Lines Inc. official regarding MV Princess of the Stars 
tragedy. Retrieved from http://sc.judiciary.gov.ph/2596/

Zilnicki, C. (2019). Marine Electric: The Wreck That Changed The Coast 
Guard Forever. The Maritime Executive. Retrieved from: https://
www.maritime-executive.com/features/marine-electric-the-wreck-that-
changed-the-coast-guard-forever

Rear Admiral Thomas, F.P. (2016). Safety management systems: Assistant 
commandant's perspective. The Coast Guard Journal of Safety & Security 
at Sea, Proceedings of the Marine Safety & Security Council, 73(1), 4. 
https://www.dco.uscg.mil/Portals/9/DCO%20Documents/
Proceedings%20Magazine/Archive/2016/Vol73_No1_Spring2016.pdf?ver=2017-
05-31-120938-307

Shaxson, N. (2011). Treasure Islands: Tax havens and the men who stole 
the world. London, England: The Bodley Head.

Commandant Admiral Zukunft, p. (2017). United States Coast Guard El 
Faro final action memo. Retrieved from https://media.defense.gov/2017/
Dec/21/2001859858/-1/-1/0/EL%20FARO%20FINAL%20ACTION%20memo.pdf

                               __________

    [Appendixes A through F are retained in committee files and are 
available in the online version of the educational paper at https://
bridgedeck.org/actionnetwork/Spotlight-MMP-WMRC-Final071619.pdf.]



                                Appendix

                              ----------                              


Questions from Hon. Peter A. DeFazio for Rear Admiral Richard V. Timme, 
      Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. Are there any changes to vessel safety requirements or 
the processes used by the Coast Guard or ROs to enforce the 
requirements that warrant being amended to make them more efficient 
and/or effective?
    Answer. The Coast Guard will continue to evaluate safety 
regulations and associated processes for their effectiveness and to 
determine whether they warrant adjustment. The Coast Guard will also 
continue to work closely with Recognized Organizations to ensure they 
follow a similar process for their individual rule sets and ensure any 
updates align with national regulations. The Service does not recommend 
any changes to enforcement processes at this time.

    Question 2. How does the Coast Guard determine that U.S.-flagged 
commercial vessels have sufficiently addressed the new safety 
requirements?
    Answer. The Coast Guard generally conducts annual inspections on 
U.S. flagged commercial vessels that are subject to inspection to 
verify compliance with all applicable laws, policy, and international 
regulations. For new safety requirements, the Service provides 
compliance/enforcement guidance to field units and maritime 
stakeholders where necessary.
    If a vessel is not in compliance following the implementation date 
for a new safety requirement, a Coast Guard marine inspector will issue 
a deficiency, using Coast Guard Form 835V, where required, describing 
the regulation the vessel did not meet, the required actions to come 
into compliance, the timeline for resolution, and any operational 
restrictions as necessary.

    Question 2.a. To what extent does the Coast Guard review updated 
Safety Management System Plans for U.S.-flagged commercial vessels to 
ensure those vessels are in compliance with the new safety requirements 
vs. rely on third-parties (Recognized Organizations-RO), such as the 
American Bureau of Shipping and others, to review the updated plans?
    Answer. The International Safety Management (ISM) Code includes a 
framework to provide operators an outline of key elements required to 
be considered for inclusion in a Safety Management System (SMS) 
program. The Recognized Organizations (ROs) have the responsibility to 
verify compliance by auditing the vessel's program to ensure 
conformance with applicable statutes, laws, and conventions.
    Although the Coast Guard does not directly review a vessel's SMS or 
approve the SMS plan, Coast Guard marine inspectors examine/test crew 
knowledge of the vessel, emergency actions, and the vessel's material 
condition and its equipment/machinery during vessel inspections. If 
there are serious deficiencies noted in these areas, marine inspectors 
will determine if these deficiencies may be linked to a Safety 
Management issue and may require a RO or Third Party Organization (TPO) 
to conduct an audit of the vessel's SMS.
    Additionally, the Coast Guard established a new Flag State Control 
Division at Coast Guard Headquarters that is principally focused on 
oversight of ROs and TPOs. The Coast Guard also continues to revise and 
develop improved policies for third party inspections, audits, and 
monitoring activities for Coast Guard marine inspectors and third party 
surveyors. Finally, the Coast Guard is developing a robust set of 
performance measures and improving communications with field commands 
and third parties to ensure performance expectations are well known and 
widely understood.

    Question 2.b. To what extent does the Coast Guard conduct 
inspections of U.S.-flagged commercial vessels to ensure those vessels 
are in compliance with the new safety requirements vs. rely on third-
parties (Recognized Organizations-RO), such as the American Bureau of 
Shipping and others, to conduct such compliance reviews?
    Answer. With the exception of towing vessels enrolled in the Towing 
Safety Management System (TSMS), the Coast Guard conducts annual exams 
on all certificated vessels even if a third party is conducting exams 
on behalf of the Coast Guard. These focused Coast Guard inspections 
encompass critical systems and new safety requirements.

    Question 3. Safety Management Systems, which include details 
ranging from safely conducting day-to-day operations to procedures for 
emergencies, drills, and training, are required by the US Code for 
certain classes of vessels.
    What is the current and future role and importance of Safety 
management System and how it relates to vessel safety?
    Answer. Safety Management Systems (SMS) are a structured and 
documented system that enable companies and personnel involved in 
vessel operations or management to effectively implement safety and 
environmental protection requirements. SMS are intended to be 
continuously updated by the companies who use them, based on observed 
non-conformities and lessons learned as a result of reviewing 
incidents. SMS facilitate a culture of safety and continuous 
improvement from the company's leadership down to the operational 
vessel level.
    Vessels engaged in international trade are required to establish a 
SMS under the International Safety Management (ISM) Code. Towing vessel 
owners or operators also have the option to implement these systems as 
an alternate compliance option under 46 CFR Subchapter M.

    Question 4. To the extent that the Coast Guard relies on Recognized 
Organizations to perform SMS plan reviews and vessel safety inspections 
on behalf of the Coast Guard, how does the Coast Guard ensure that 
these SMS plan reviews and vessel compliance inspections are conducted 
in line with requirements?
    Answer. The newly created Flag State Control Division within the 
Office of Commercial Vessel Compliance, established as a result of 
recommendations in the wake of the SS EL FARO tragedy, is responsible 
for monitoring Key Performance Indicators that measure Recognized 
Organization and Third Party Organization (TPO) performance.
    This Division also performs oversight of these entities, such as 
conducting quality assurance and vertical contract audits of third 
parties, actively monitoring and tracking findings to ensure corrective 
actions are being executed, and observing company and vessel audits to 
ensure adherence to the International Safety Management (ISM) Code to 
name a few.
    The Coast Guard has also increased outreach and coordination with 
these entities, including holding regular meetings and two TPO 
workshops within the past two years.

    Question 5. What types of compliance activities, if any, does the 
Coast Guard employ to ensure that the ROs are performing their review 
and inspection activities in line with requirements?
    Answer. The Coast Guard uses several compliance oversight 
activities to ensure Recognized Organizations (ROs) are performing 
their review and inspection services in line with requirements. Coast 
Guard Oversight activities of ROs include:

    1.  Plan Review Oversight
    2.  New Construction Oversight
    3.  Inspection Oversight
    4.  Additional Fleet Risk Oversight Exams
    5.  Safety Management Certificate (SMC) Audit Observation and 
Oversight
    6.  Document of Compliance (DOC) Audit Observation and Oversight
    7.  Direct observation of the RO's employees performing services
    8.  Observation of each authorized RO's external Quality System 
Audit

    The first six listed activities may also result in a formal request 
from the Coast Guard for the RO to conduct an internal review of their 
quality system to ensure statutory certification and services are 
performed in line with requirements.

    Question 6. What types of performance indicators, if any, does the 
Coast Guard employ to monitor and track the extent to which the ROs are 
performing their SMS plan reviews and vessel safety inspection 
activities in line with requirements?
    Answer. The Coast Guard monitors the following Key Performance 
Indicators (KPIs) and may publish the results in internal or public 
documents, as appropriate:

    <bullet>  KPI #1: Number of Recognized Organization (RO) issued 
statutory findings divided by the number of statutory surveys conducted 
(e.g. 100 findings / 10 surveys = KPI of 10).
    <bullet>  KPI #2: Number of RO Safety Management Certificate (SMC) 
and related Statement of Voluntary Compliance (SOVC) audit findings 
(total of observations, non-conformities, and major non-conformities) 
divided by the number of all types of SMC audits conducted.
    <bullet>  KPI #3: Number of RO Document of Compliance (DOC) and 
related SOVC audit findings (total of observations, non-conformities, 
and major non-conformities) divided by the number of all types DOC 
audits conducted.
    <bullet>  KPI #4: Number of RO associations to Port State Control 
Detentions under the Paris Memorandum of Understanding, Tokyo 
Memorandum of Understanding, and Coast Guard Port State Control 
programs.
    <bullet>  KPI #5: Number of International Association of 
Classification Societies Procedural Requirement 17s (IACS PR-17) issued 
divided by the total number of RO statutory surveys conducted.

    Question 7. To the extent the Coast Guard monitors and reports on 
the results of ROs' SMS plan reviews and vessel safety inspection 
activities, what metrics or data has the Coast Guard gathered on the 
results of the ROs' activities?
    Answer. Recognized Organizations (ROs) are required to notify the 
Coast Guard prior to conducting a management company Document of 
Compliance (DOC) Audit or a vessel's Safety Management Certificate 
(SMC) audit. The Coast Guard attends and observes certain DOC and 
International Safety Management (ISM) audits performed by ROs. Each 
audit attendance is documented in the Coast Guard Marine Information 
for Safety and Law Enforcement (MISLE) system under a Management System 
Oversight (MSO) activity. Additionally, RO's audit findings are 
included in the Key Performance Indicator (KPI) data submitted by each 
RO on a quarterly basis.

    Question 8. How is the Cruise Ship National Center of Expertise 
working with MARAD and cruise lines to establish safety standards for 
the industry?
    Answer. The U. S. Coast Guard, the Maritime Administration (MARAD), 
and the Federal Bureau of Investigation (FBI) jointly developed the 
training standard and curriculum for commercial providers of Cruise 
Vessel Security and Safety Act (CVSSA) training. Per Coast Guard 
policy, Coast Guard Foreign Passenger Vessel Examiners verify training 
for the prevention, detection, evidence preservation, and reporting of 
criminal activities in the international maritime environment. 
Additionally, the Cruise Ship National Center of Expertise (CSNCOE) has 
developed a Tactics, Techniques, and Procedures manual (TTP) to verify 
crewmembers are in compliance with these training requirements.

    Question 9. Under the Cruise Vessel Security and Safety Act of 
2010, Vessel Owners are required to post information on how victims can 
report a crime and how to contact the FBI. How do victims receive this 
information? Where is it posted? And what has the Coast Guard done to 
work with the FBI on responding and investigating crimes occurring on 
Cruise Ships?
    Answer. Cruise lines disseminate information including consulate 
phone numbers and addresses and local Federal Bureau of Investigation 
(FBI) contact information in several ways:

    <bullet>  Most cruise lines provide passengers contact information 
in the terms of agreement that are signed at the time of booking.
    <bullet>  Additionally, the cruise lines provide daily local 
information in either a book, newsletter, or on the television in each 
stateroom.
    <bullet>  Crew members with specific Cruise Vessel Security and 
Safety Act (CVSSA) training are also available to provide assistance in 
contacting law enforcement when a report of a crime is made.

    On a case-by-case basis, the Coast Guard has previously assisted 
the FBI, the lead investigating agency, with local investigations in a 
support capacity.

 Questions from Hon. Sean Patrick Maloney for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. During the hearing you mentioned that the Coast Guard 
put together a ``small passenger vessel task force'' in the wake of the 
Conception incident. Could you provide details on this taskforce and 
how it is working to implement improving passenger vessel safety?
    Answer. On November 8, 2019, the Assistant Commandant for 
Prevention Policy chartered the Small Passenger Vessel (SPV) Safety 
Task Force. This task force is comprised of naval engineers, marine 
inspectors, traveling inspectors, marine investigators, and data 
analytics personnel. The task force will review risk-based targeting, 
safety management systems, the results of the concentrated overnight 
accommodation vessel inspection campaign, and the results of SPV marine 
casualty investigations.

    Question 2. You gave an example of response the Coast Guard is 
providing in the wake of the Conception incident as a direct 
concentrated inspection campaign of all vessels carrying the type of 
overnight passengers that the Conception catered to. Please provide 
more details on this campaign and what the Coast Guard has found so 
far.
    Answer. Shortly after the passenger vessel CONCEPTION marine 
casualty, the Coast Guard released a Marine Safety Information Bulletin 
as guidance to owners and operators of passenger vessels with overnight 
accommodations to review their own operations and to reinforce items of 
concern found during the initial stages of the investigation.
    The Coast Guard also initiated a nationwide vessel inspection 
campaign of over 350 vessels to review overnight accommodations spaces, 
fire safety, and electrical installations. One purpose of the campaign 
was to take immediate action to ensure inspected small passenger 
vessels (SPVs) with overnight accommodations were complying with 
applicable regulations. The secondary purpose during the campaign was 
to educate vessel owners and operators about key safety concerns 
identified in the early stages of the Conception investigation, and 
recommend owners and operators take voluntary action to improve the 
safety of their vessels when warranted.
    The Assistant Commandant for Prevention Policy has formed a task 
force to examine SPV issues. Information from the vessel inspection 
campaign will be shared with the SPV safety task force for 
consideration.

   Questions from Hon. Bob Gibbs for Rear Admiral Richard V. Timme, 
      Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. Recently we have heard concerns from towing vessels 
operators working in South Louisiana on the lack of consistency in the 
interpretation and implementation of new safety standards under 46 CFR 
Subchapter M from one Officer in Charge of Marine Inspection (OCMI) 
Zone to another. Within the Eighth District, operators have encountered 
inconsistencies in the way that OCMIs construe regulatory requirements, 
resolve implementation issues, and manage towing vessel certification 
and other processes. In a segment of the maritime industry as transient 
as the towing industry, where companies own and operate vessels that 
routinely cross OCMI boundaries and frequently change areas of 
operation, consistency is critical to facilitate maritime commerce and 
reduce compliance burdens on towing vessel operators and crewmembers. 
While I appreciate and support the Coast Guard's empowerment of OCMIs 
to act with discretion where local conditions compel a distinct 
approach, most OCMI Zones share similar operational environments and 
most towing vessels share similar operational characteristics.
    Will you work with your staff as well as stakeholders in the 
industry to identify or develop mechanisms through which you can 
elevate Subchapter M implementation issues, find reasonable and 
effective solutions, and promote the consistent application of those 
solutions by inspectors in the Coast Guard? Is the Coast Guard already 
taking any measures to increase consistency?
    Answer. Yes. Coast Guard members are engaged across Headquarters, 
Areas, Districts, and field units to promote consistency and facilitate 
timely and effective solutions. The Coast Guard continues to work with 
industry stakeholders to minimize inconsistencies in interpretation and 
enforcement of 46 CFR Subchapter M. Additionally, Pub. L. 115-282, 
enacted on December 4, 2018, established a formal mechanism to promote 
consistency in the interpretation of regulations starting at the local 
Officer in Charge, Marine Inspection (OCMI) level. The Coast Guard has 
implemented this process nationwide, and will continue to encourage 
field units to expedite appeals to the Headquarters level where local 
concurrence cannot be achieved.
    The Service also holds industry outreach days and regular meetings 
with industry organizations such as the American Waterways Operators to 
address potential areas for inconsistencies in regulatory 
interpretation.

   Questions from Hon. Alan S. Lowenthal for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. During the hearing, you mentioned that you would 
provide investigation statistics regarding crew training on uninspected 
and inspected passenger vessels. Please provide those statistics.
    Answer. Reportable Marine Casualties (RMCs) involving U.S. flag 
Passenger Vessels (inspected and uninspected), 2017-2019

------------------------------------------------------------------------
                                 RMCs where Training was identified as a
                                              Causal Factor
                               -----------------------------------------
                                    2017          2018          2019
------------------------------------------------------------------------
Passenger Vessels (Inspected).           17            14             8
------------------------------------------------------------------------
Passenger Vessels                         1             4             1
 (Uninspected)................
------------------------------------------------------------------------

  Questions from Hon. Stacey E. Plaskett for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. While vessels sailing internationally are generally 
required to carry out-of-water survival craft, the Coast Guard has 
previously reviewed such a requirement for certain small vessels and 
determined that such vessels operating in certain environments do not 
need to carry such craft. Coast Guard regulations, under Subchapter W, 
allow for exemptions in situations where the conditions of voyage would 
render specific requirements unreasonable or unnecessary, and in which 
the course of the voyage is less than 20 miles from the nearest land.
    In the U.S. Virgin Islands, international voyages to the British 
Virgin Islands are commonly offered and, in many cases, span less than 
5 miles, and are shorter than a lot of domestic voyages. Meanwhile, 
longer inter-island domestic voyages do not require out-of-water 
survival craft because regulations on these voyages only require such 
craft on vessels operating in cold water.
    Numerous operators in my district have been granted exemption for 
these short international voyages in warm water, but I understand that 
this has only been granted through the end of this year.
    Will the Coast Guard provide risk-based consideration of continued 
requests for status quo treatment under reasonable circumstances?
    Answer. As with all exemption requests, the Coast Guard will 
conduct a comprehensive review of the request. The route, service, 
operations, and regulatory requirements will be thoroughly examined to 
ensure accurate risk analysis. Based on the risk appraisal, the Coast 
Guard will make a determination.

   Questions from Hon. Salud O. Carbajal for Rear Admiral Richard V. 
  Timme, Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. What additional steps could be taken to ensure that 
passenger vessels are safer in light of recent insides like the 
CONCEPTION and ISLAND LADY?
    Answer. Shortly after the passenger vessel CONCEPTION casualty, the 
Coast Guard (1) released Marine Safety Information Bulletin guidance to 
owners and operators of passenger vessels with overnight accommodations 
to review their own operations and to reinforce items of concern found 
during the initial stages of the investigation; and (2) initiated a 
nationwide vessel inspection campaign (including over 350 vessels) to 
review overnight accommodations spaces, fire safety and electrical 
installations. The nationwide campaign resulted in the issuance and 
correction of deficiencies with a focus on operating conditions, fire 
safety and escape routes.
    Additionally, the Assistant Commandant for Prevention Policy 
directed the creation of a task force to analyze the inspection data 
and implement enhancements to the small passenger vessel compliance 
program.

    Question 2. The NTSB believes the Coast Guard could be doing more 
to improve safety on small passenger vessels. Do you concur with the 
NTSB's recommendations increase safety regulations to required enhanced 
fire detection, protection and suppression technologies required on 
Passenger Vessels and require two routes of escape from passenger 
accommodations?
    Answer. The Coast Guard carefully considers National Transportation 
Safety Board (NTSB) recommendations through a deliberate process that 
involves multiple layers of review by subject matter experts and senior 
leaders responsible for implementing the potential policy and 
regulatory changes.
    Related to the passenger vessel CONCEPTION marine casualty, the 
Coast Guard Marine Board of Investigation and NTSB are still conducting 
thorough and detailed investigations to determine the causal factors 
associated with this tragedy. Each agency will conduct an independent 
analysis of all the evidence and propose appropriate recommendations to 
improve passenger vessel safety.
    If the vessel's construction and equipment standards, or regulatory 
regime, are determined to be contributing factors, the Coast Guard will 
consider updates at that time as appropriate.

    Question 3. What is the current role of firefighting training on 
small passenger vessels and should firefighting training for all crew 
onboard play more of a role on small passenger vessels?
    Answer. To obtain a merchant mariner credential, small passenger 
vessel officers are required to demonstrate knowledge of firefighting 
during required exams. Additionally, the officer and non-credentialed 
crew (if any) are required to be familiar with a vessel's 
characteristics before they assume duties and responsibilities on a 
vessel, including the proper operation of the installed firefighting 
equipment.
    The main goal of firefighting on small passenger vessels is to 
ensure passengers remain safe on board or when abandoning the vessel. 
Establishing additional requirements for standardized hands-on 
firefighting training for the small passenger vessel industry would be 
challenging due to the varied construction and layout of vessels in 
this fleet.

  Questions from Hon. Chris Pappas for Rear Admiral Richard V. Timme, 
      Assistant Commandant for Prevention Policy, U.S. Coast Guard

    Question 1. As you know, offshore wind energy facilities along the 
Atlantic Coast are developing rapidly. We anticipate that several major 
projects on the Atlantic Outer Continental Shelf will have steel in the 
water as early as next year. The Coast Guard's Office of Marine 
Transportation Systems has initiated a rulemaking project to establish 
an Atlantic Coast fairway based on recommendations within the 2017 
Atlantic Coast Port Access Route Study (ACPARS), a comprehensive 
analysis of the navigational and maritime safety impact of offshore 
wind projects planned off the Atlantic Coast. I also understand that 
the Coast Guard is actively engaged in discussions with BOEM to ensure 
that the proposed fairway preserves safe navigation lanes, and the 
Coast Guard Authorization Act of 2018 requires the Coast Guard to 
report back to Congress on its progress in implementing the ACPARS 
recommendations. Can you provide an update on how the Coast Guard is 
ensuring that the Atlantic Coast fairway rulemaking is released as soon 
as possible?
    Answer. The Advanced Notice of Proposed Rulemaking ``Shipping 
Safety Fairways Along the Atlantic Coast,'' was determined to be a high 
priority rulemaking project in September 2018. The rulemaking project 
is moving forward and currently under departmental review before 
entering interagency review.

Questions from Hon. Peter A. DeFazio for Vice Admiral Brian M. Salerno, 
   U.S. Coast Guard (Ret.), Senior Vice President of Global Maritime 
             Policy, Cruise Lines International Association

    Question 1. The Cruise Vessel Security and Safety Act (CVSSA) of 
2010 was intended to introduce tighter security regulations and crime 
reporting requirements.
    While the CVSSA was a good start to tackle these issues, we 
continue to hear tragic stories from victims that shed light on the 
need for additional action. For example, while CVSSA mandated new 
requirements for cruise ships to report crimes to the FBI to provide 
for greater transparency to the public, there remain a number of issues 
that lead to underreporting of crimes.
    How soon is the FBI notified after a crime occurs?
    Answer. Allegations of serious incidents as identified in the CVSSA 
must be reported to the nearest FBI Field Office or Legal Attache by 
telephone as soon as possible. These provisions of the CVSSA were 
supported by the cruise industry as the law was being developed and 
reflect an earlier (2007) voluntary agreement between the industry and 
the FBI. In addition to those legal requirements, CLIA cruise lines 
have additionally agreed to and implemented a mandatory crime reporting 
policy which makes reporting allegations of serious crime to local law 
enforcement applicable worldwide.

    Question 2. Who gets to determine how a crime is categorized? The 
victim of the crime or a cruise ship employee?
    Answer. Crimes are categorized based upon how they are reported and 
conform to federal statutory definitions and the FBl's Uniform Crime 
Reporting program. All allegations are reported and thereby become 
subject to FBI investigations.

    Question 3. What actions have CLIA and its members taken to ensure 
that accurate and timely information regarding crimes onboard cruise 
ships is promptly conveyed to relevant federal agencies? What 
additional actions can be taken to improve these efforts?
    Answer. CLIA member policies underscore the need to report all 
allegations of serious crimes to the FBI and other law enforcement 
authorities, the vessel's flag state and other appropriate shoreside 
authorities. Implementation of CLIA Policies is a condition of 
membership and is certified annually by the CEO of each member cruise 
line. Security policy provisions are incorporated into the ship's 
Safety Management System (SMS) and subject to internal and third party 
auditing. The CVSSA imposes civil and criminal fines and penalties for 
non-compliance. CLIA is unaware of any prosecution of any cruise line 
member for violating the crime reporting requirements.

    Question 4. What actions have CLIA and its members taken to ensure 
that timely, accurate and accessible information regarding crimes 
aboard cruise ships is provided to the general public? What more can be 
done to improve public information efforts?
    Answer. CLIA members are required by the CVSSA, and as a condition 
of membership in CLIA, to report allegations of serious crimes as soon 
as possible. In accordance with the modifications to the CVSSA in 2014, 
all allegations of serious crimes are publicly reported on the 
Department of Transportation website; DOT publishes the crime 
statistics quarterly broken down by each cruise line. To further inform 
the interested public, CLIA provides a link on its website to a report 
produced by Dr James Fox of Northeastern University, which compares 
crime rates on cruise ships to those of comparably sized cities. Cruise 
ships are demonstrably safer in all categories analyzed: Homicides (119 
x safer), Sexual assault (3 x safer), and Aggravated Assault (130 x 
safer). Cruise lines must also provide a link on their websites to the 
DOT reporting data.

    Question 5. In your testimony you state that operational incidents 
have declined by 35% but also state that it only includes fires, 
groundings, collisions, los of propulsion and persons overboard, but do 
not state that it includes incidents of crime such as sexual assault. 
Recent articles by the Washington Post and Business Insider suggest an 
increasing trend of incidents of sexual assaults being reported on 
Cruise Vessels.
    How is the Cruise industry working to reduce these instances of 
sexual assault and protect passengers?
    Answer. The cruise industry works hard to provide a secure and safe 
environment for all of its guests. Overall, the rate of crime on board 
cruise ships, including sexual assaults, aggravated assaults and 
homicide, is a fraction of that committed on land in comparably sized 
U.S. cities. Looking at sexual assaults specifically, the rate on 
cruise ships occurs at 19.5 per 100,000 persons, compared to 63.8 per 
100,000 on land, or 1/3 the rate on land. Cruise lines security staffs 
work diligently to bring the shipboard rate to zero. Hiring and vetting 
programs reduce the likelihood of employing crewmembers who could pose 
a threat. CLIA also has a specific policy for vetting workers in Youth 
Activity Centers. On most new ships, crew entry into guest rooms for 
daily servicing can be electronically tracked, further reducing the 
likelihood of illegal contact. Company security officers and vessel 
security officers are trained in responding to allegations of criminal 
activity including preservation of evidence and coordination with law 
enforcement authorities. Per CLIA mandatory policy, medical teams must 
follow the guidelines developed by the American College of Emergency 
Physicians (ACEP) and care teams are available to provide emotional 
support to victims. Also, a number of CLIA cruise line members use the 
training and certification services provided by RAINN (Rape, Assault, 
Incest National Network), the nation's largest anti sexual violence 
organization.

    Question 6. What additional crime prevention actions have CLIA and 
its members taken to minimize crime occurring aboard cruise ships since 
implementation of the CVSSA?
    Answer. By policy, CLIA's members have agreed that all passengers 
and crew are to be provided the means and assistance to contact law 
enforcement authorities, even for cruises not otherwise covered by the 
CVSSA. CLIA's members have further agreed that these serious incidents 
are also to be reported to the ship's flag State. Voluntary, industry-
led cooperative measures have been agreed regionally whereby cruise 
lines distribute security information to passengers and follow 
protocols and reporting practices. One prominent example is the 
Guidelines which have been developed between cruise operators and the 
Pacific Islands Chiefs of Police (PICP), to provide a high-level good 
practice guide for reporting and responding to allegations of crimes 
committed on-board cruise ships at sea in this region.

    Question 7. What actions have CLIA and its members taken to 
implement crew training related to crime aboard cruise ships (including 
such things as preservation of a crime scene, collecting evidence and/
or treatment of crime victims)? Have there been attempts to create an 
industry wide standardization of crime scene preservation or evidence 
collection?
    Answer. CLIA member lines must comply with 46 U.S.C. Sec.  3508 for 
crime scene preservation training for passenger vessel crewmember and 
satisfy applicable MARAD certification requirements. CLIA policy 
further requires member lines to develop training for their crews and 
encourages use of incident scene management training materials prepared 
by the FBI. Topics covered in the FBI materials include: initial 
response, securing the scene, victim assistance, reporting and 
investigation. In 2013, the Legal Committee of the International 
Maritime Organization adopted a proposal which CLIA co-sponsored with 
IMO Member states on international standards for crime reporting, 
cooperation between governments, evidence preservation and pastoral and 
medical care for victims.

    Question 8. What is the status of efforts to improve crew training 
pertaining to crime victims and crime scenes aboard cruise ships? What 
benefits and challenges are associated with the provision of this 
training? Are there industry wide efforts to standardize these 
trainings?
    Answer. (Same as for 6 above.)

    Question 9. What more could be done to enhance the safety and 
security of cruise ship passengers?
    Answer. Cruise lines support an improved risk-based video 
surveillance approach to help ensure ship board awareness of 
potentially unsafe activity and providing forensic capability should an 
allegation of illegal activity occur. The risk-based approach would 
account for demographics (e.g., age), vessel configuration, and 
recognizes that cruises span a wide spectrum from mass appeal to niche 
markets.

    Question 10. By the time the CVSSA was enacted, to its credit, the 
cruise industry had already taken many actions to address the CVSSA's 
expected requirements. However, there are still several pending 
requirements (e.g. related to technology and technology information 
storage and crew training) for which the Coast Guard issued a proposed 
rule in 2015.
    How has the cruise industry been involved in this proposed 
rulemaking? To what extent, if at all, has industry already taken 
action to address the concerns that these proposed rules are expected 
to address?
    Answer. The cruise industry offered comments on the proposed 
rulemaking to the public docket which focused on the state of existing 
technology, and has remained in contact with the Coast Guard regarding 
the progress being made toward the development of a technical standard 
at the International Organization for Standardization.

    Question 11. Going further, the CVSSA calls for the installation of 
man overboard, or MOB, detection systems. Yet, these systems have not 
been fully implemented or really considered by the cruise industry 
often sighting the inaccuracy of the technology.
    In late 2017, MSC Cruises announced its first installation of MOB 
technology onto one of their vessels, the MSC MERAVIGLIA, and its 
intention to retrofit the rest of its vessels with MOB systems.
    What is the progress with this installation and is the technology 
working on this vessel?
    Answer. Detection equipment has been fitted on several cruise 
ships, including by several different cruise lines, on a developmental 
basis. A variety of different detection systems have been evaluated, 
with some performing better than others. One area of concern has been 
the high false alarm rate with this novel technology. The companies 
which have deployed these systems have also been working with CLIA and 
the International Organization for Standardization (ISO) in the ongoing 
effort to develop technical standards for these systems. So far, the 
ISO has issued a Publicly Available Specification (PAS) to aid in the 
evaluation phase of standard development and is working toward 
publication of an ISO standard for MOB detection equipment.

    Question 12. What are CLIA and its members current views on the use 
and efficacy of overboard technology, and data storage requirements for 
various types of video data? What are the benefits and challenges 
associated with having this technology in place onboard cruise ships?
    Answer. One challenge has been the high false alarm rate associated 
with several of the available systems. As the systems are improved, 
correcting this fault is a major objective. Currently, CLIA member 
lines comply with the requirements of the CVSSA, in that the statute 
allows for video capture in lieu of MOB detection systems, recognizing 
that reliable MOB system technology had yet to be developed.

    Question 13. In light of these developments, why haven't MOB 
systems been deployed more broadly within the cruise industry?
    Answer. CLIA member line ships operating from the US already comply 
with the CVSSA. Most are using video capture technology as allowed by 
the statute. MOB detection technology is improving, and several lines 
have been sharing their practical experiences with the ISO as it 
continues to work towards development of a MOB technical standard.

    Question 14. Would you object to a requirement that there be 
publicly available information on which ships have MOB systems in place 
and if so, why?
    Answer. Cruise ships operating from U.S. ports already comply with 
the provisions of the CVSSA in that they either have MOB detection OR 
video capture capability, as permitted by the statute. We would 
anticipate the number of ships fitted with MOB detection systems will 
increase once the ISO standard is finalized and the market can respond 
with reliable equipment.

    Question 15. Given how few cruise ships actually have MOB systems, 
can you describe the procedure that is followed once a person is 
declared missing on a ship? Is it immediately assumed they have gone 
overboard?
    Answer. Regardless of whether a ship is fitted with an MOB 
detection system, when a person is observed/detected going over the 
side of a ship at sea, the ship's bridge team can be immediately 
alerted and the alarm sounded for crew to prepare the ship for recovery 
of the MOB from the water using well-established procedures in the 
ship's Safety Management System. MOB incidents on cruise ships are the 
unfortunate result of an intentional or reckless act. When the cause of 
the MOB could be established following a careful investigation, it was 
determined to be the unfortunate result of an intentional or reckless 
act.
    From 2009 to 2018, although the number of man overboard incidents 
globally was unchanged, the incidence rate of 0.0000425 overboard 
reports per active lower berth (synonymous with a cabin's bed) 
decreased in 2018 compared to 0.0000657 in 2009 due to a 54.4% increase 
in active lower berths during that same period. During this same 
period, the number of passenger fatalities from man overboard incidents 
decreased from 15 to 13. Crew fatalities remain around the period 
average of five per year, around one in every 50,000 crew serving in 
the fleet at any one time in 2018.
    In 2018, with 28.5 million cruise passengers globally, MOB 
incidents on cruise ships resulted in about one passenger fatality per 
2.19 million cruise passengers annually--or 0.0456 fatalities per 
100,000 cruise passengers annually. By way of comparison, recent data 
from the United States Centers for Disease Control and Prevention (CDC) 
reports the U.S. suicide rate to be 14 events per 100,000 people 
annually. Given the average length of a cruise is about a week, this 
would equate to about 0.27 suicide events per 100,000 people per week.

    Question 16. How much time would you say elapses before such a 
declaration is made and what entity ultimately conducts a search for 
the missing person? The cruise line itself, or Coast Guard?
    Answer. Absent direct observation of an MOB, once it has been 
determined that a person is not accounted for on the vessel, 
notification would be made by ship's bridge team to the responsible 
Rescue Coordination Center. In US waters, plus significant portions of 
the North Atlantic and North Pacific oceans, and the Caribbean Sea, 
rescue operations would be coordinated by the U.S. Coast Guard. Cruise 
ships would follow the directions of the RCC/Coast Guard in conducting 
Search and Rescue efforts.

    Questions from Hon. Peter A. DeFazio for Adam W. Moilanen, Vice 
President of Health, Safety, Quality, and Environment, American Bureau 
                              of Shipping

    Question 1. What new safety requirements, if any, has your company 
required to be incorporated into U.S.-flagged commercial vessels' 
safety management system (SMS) since the EL FARO sinking?
    Answer. First, ABS has fully complied with the recommendations of 
the National Transportation Safety Board (NTSB). ABS has also supported 
the Coast Guard in addressing and implementing the recommendations of 
the Coast Guard's Marine Board of Investigation and Final Action Memo. 
Further, we have gone above and beyond those recommendations internally 
to improve the safety of the vessels we class, by including new and 
updated training for our surveyors and further enhancing the 
requirements for surveying older vessels.
    It is also important to note that the International Safety 
Management Code (ISM), which sets forth the requirements of the Safety 
Management System (SMS), is an International Maritime Organization 
(IMO) initiative and the requirements contained therein are not driven 
by Classification Societies or Recognized Organizations (ROs). When any 
ISM Code change is made, ABS incorporates that change into its work 
instructions and audit processes, including any specific requirement by 
the Coast Guard.
    Following the EL FARO sinking, ABS did initiate training 
improvements for SMS by requiring all Surveyors and Auditors to 
complete a refresher training course in 2018. The training was enhanced 
in 2019, and all ISM Auditors were required to attend ISM refresher 
training in the first quarter of 2019.
    ABS also piloted an ISM Refresher course for shipowners/operators 
in October 2019. Our Corporate Learning Organization is addressing the 
feedback from this ``pilot'' course. We are now ready for delivery to 
additional shipowners/operators in the first quarter of 2020.
    Further, internal ABS work instructions have been updated, 
including additional guidance to Auditors for major nonconformities. In 
addition to requiring mandatory drills during full scope ISM audits, 
ABS has issued several new job aids which cover fire drills, lifeboat 
drills, enclosed space entry drills, and Guidance Notes on 
cybersecurity during ISM audits. ABS is currently developing an online 
training course to prepare ISM Auditors to verify that cybersecurity 
risks have been addressed in the Safety Management Systems of vessel 
operators for compliance with IMO Resolution MSC. 428 (98), which 
enters into force on January 1, 2021.
    In addition, quarterly meetings are being held between the Coast 
Guard's Officer-in-Charge of Marine Inspection and ABS Surveyors-in-
Charge in various ports and sectors. ABS Surveyor meetings are held on 
a monthly basis in each port to discuss survey and audit issues.
    With regards to the Alternate Compliance Program (ACP), there are 
quarterly meetings at the headquarters level between Coast Guard, ABS 
Engineering, and ABS Operations to review ACP performance, including 
engineering, survey/inspection and audit issues.
    ABS has provided additional ACP training that addresses the latest 
ACP Navigation and Vessel Inspection Circular and Supplement. The 
Supplement captures critical standards and certain operational 
requirements in Coast Guard regulations that are not adequately 
addressed in IMO instruments or the RO's Rules, and to provide any 
additional Flag Administration interpretations where necessary. To 
date, 382 ABS Surveyors have completed this training.
    Specifically, in order to document a vessel's condition, at each 
Annual Survey of a vessel 10 years of age and older, an additional ABS 
requirement has been implemented whereas the Surveyor is to take 
approximately 25 representative photos, including the following areas 
to support the annual survey report: Fire Dampers, Cable Penetrations, 
Load Line items including watertight closures, Air Pipes, Vents, 
Machinery space condition, Bilges, and Life Saving Appliances and 
Firefighting equipment.
    Lastly, ABS supported the Government Accountability Office (GAO) in 
evaluating the implementation and effectiveness of Safety Management 
System (SMS) plans for U.S.-flag vessels. This review was mandated by 
the Hamm Alert Maritime Safety Act of 2018 (P.L. 115-265) which asked 
GAO to evaluate Coast Guard's oversight of SMS plans, and review SMS 
plans for a range of vessel types and sizes. ABS facilitated this 
effort at the request of the GAO by requesting copies of the SMS 
manuals from selected U.S. vessel operators for onward transmittal to 
the GAO. ABS and the GAO then held meetings to discuss questions 
related to the SMS review and audit process.

    Question 2. To what extent has your company amended its SMS plan 
review procedures to verify compliance with the new safety requirements 
since the EL FARO sinking?
    Answer. See the response to No. 1 above. In addition, ABS internal 
work instructions for U.S.-flag ISM Code were amended in 2018 to 
include the Coast Guard's interpretations of the ISM Code.
    As stated earlier, there are quarterly meetings between the Coast 
Guard, ABS Engineering and ABS Survey Operations (including ISM 
auditing) to review ACP performance, including engineering, survey/
inspection and audit issues. Coast Guard concerns, if any, are 
discussed and actions taken as appropriate. Similarly, ABS seeks 
clarifications on Coast Guard positions/interpretations on the ISM Code 
implementation (e.g. advance audit notification requirements to the 
Coast Guard, Coast Guard expectations on implementation of IMO Guidance 
documents, etc.). These clarifications are then implemented within the 
ABS work instructions for Surveyors, Auditors and Engineers to follow.

    Question 3. What controls, if any, does your company have in place 
to ensure that reviews of SMS plans are sufficiently thorough and 
verify that required safety elements/issues are addressed in the SMS 
plans?
    Answer. The main controls that ABS has put in place include the 
following:
    <bullet>  Selection of Surveyors/Auditors and Engineers is carried 
out per documented procedures (which includes requirements for minimum 
technical and industry experience).
    <bullet>  Classroom, web-based and on-the-job training is required 
for all Surveyors, Auditors and Engineers.
    <bullet>  100% report review by an experienced Surveyor/Auditor, 
and 100% task review by an experienced Engineer, are required for all 
design reviews.
    <bullet>  Internal audits are required, that include sampling SMS 
work activity.
    <bullet>  External audits (by the Coast Guard and other external 
entities) are required, which include sampling SMS work activity.
    <bullet>  Port State Control inspectors do inspect SMS during 
onboard inspections.
    <bullet>  Activity monitoring is carried out on 100% of all 
Surveyors, Auditors, and Engineers.

    Question 4. In your testimony you mentioned ABS performs internal 
and external audits. What additional controls, if any, does your 
company have in place to ensure that your company's inspections of U.S-
flagged commercial vessels are sufficiently thorough and verify that 
required safety elements/issues are addressed? How does your company 
limit the possibility of an inherent conflict of interest during 
inspections and ensure that a fair, unbiased inspection is completed?
    Answer. In addition to those items detailed in item #1 to #3 above, 
the following have been put inplace:
    <bullet>  ABS requires that all Surveyors attending repairs of main 
propulsion boilers must be also certified for boiler surveys effective 
February 1, 2018.
    <bullet>  As of February 1, 2018, for Special Periodical Survey No. 
5 and subsequent surveys, the Principal Surveyor/Surveyor-in-Charge is 
to take part in the Special Survey of all self-propelled vessels, other 
than yachts, to confirm that the survey has been properly carried out 
and reported upon as required by the Rules.
    <bullet>  As of February 1, 2018, for U. S. Flagged vessels 
enrolled in ACP or Maritime Security Programs (MSP or MSP Select) that 
reach 10 years of age, ABS requires two qualified Surveyors to attend 
each subsequent annual survey and special survey.
    <bullet>  ABS has confirmed to the Coast Guard that ABS will have 
Surveyors available to attend Advanced Journeyman training at Yorktown. 
ABS has not been invited to attend these courses as of this date.
    <bullet>  ABS has sent a total of eight Surveyors to the Coast 
Guard's Steam Propulsion Course. An ABS Surveyor is now one of the 
instructors.
    <bullet>  ABS has been reconfirming the accuracy of the data 
contained in each vessel survey status and the details for the Load 
Line assignment (form LL-11-D).
    <bullet>  ABS requires all Surveyors to complete an annual web-
based training course on statutory regulation and ABS Rule changes.
    <bullet>  Training presentations on the Coast Guard's ACP, MSP, and 
MSP Select are given to the ABS Special Committee and Ship Operations.
    <bullet>  ABS worked with IACS to require, starting at Special 
Survey No. 3 and subsequent Special Surveys, that structural down 
flooding ducts and structural ventilation ducts are to be internally 
examined as per the current version of IACS Unified Requirement UR Z7.
    <bullet>  A comprehensive review and update of the ACP Supplement 
and ABS check sheets has been completed.
    <bullet>  ABS continues to support the Coast Guard's efforts in 
developing a single US Supplement applicable to all ACP Vessels, 
including critical safety items.
    <bullet>  ABS has a ``Targeted Ship List'' (TSL) that allows ABS to 
identify and follow-up on vessels not considered to be satisfactorily 
maintained between surveys. Items that typically are identified include 
lack of maintenance on hull structure, main and essential auxiliary 
machinery, load-line items, safety equipment, oil pollution prevention 
equipment, etc. The objective of placing vessels on the TSL is to 
require the vessel's owner to maintain and improve the quality of their 
fleet. In 2019, ABS had 20 U.S. flagged vessels on our Targeted Ship 
List.
    <bullet>  ABS has implemented ABS Freedom, which includes improved 
controls within the workflow. ABS Freedom is the internal workflow 
application that all ABS Surveyors/Auditors use to complete and 
document their surveys/inspections and audits.
    <bullet>  The ABS Rule Change process has been enhanced to speed up 
the time that ABS can implement ABS Rule changes.

    ABS conducted two Regional Lead Auditor meetings in 2019 to address 
audit activity related matters and to improve performance.
    The Coast Guard is notified of all audits of U.S.-flag companies 
and vessels. Many of these audits are observed by the Coast Guard 
travelling inspectors and local Coast Guard staff.
    Regarding the possibility of conflicts of interest, there are 
numerous controls in place to address this possibility.
    First, ABS is a non-profit organization created with a Mission to 
protect life, property and the environment. As a non-profit, ABS does 
not have incentives to sacrifice quality or provide less than thorough 
professional and ethical services.
    Second, ABS uses a system of Principal Surveyors-in-Charge and Area 
Managers to provide support to the Surveyors/Auditors during surveys 
and audits. This is in addition to survey departments in each 
hemisphere that can provide detailed interpretations and guidance for 
policies and Rules and Regulations to the Surveyor/Auditor. Certain 
surveys require two Surveyors, which reduces the potential for conflict 
of interest and provides consistent application of the Rules/
Regulations.
    Furthermore, the controls noted above such as internal and external 
audits, Flag State Inspections and Port State Control help to ensure 
that ABS conducts its activities in accordance with its Rules, with 
international standards, and with all Coast Guard guidance and 
requirements. The Coast Guard's oversight of ABS includes engineering 
design review activities, survey and audit activities, and involvement 
during external audits, too.
    Finally, ABS also has a Code of Ethics and a robust ethics and 
compliance program to manage any potential conflicts. All employees are 
required to conduct an annual review and acknowledgement of the 
Conflict of Interest. Each work order assigned requires the surveyor or 
auditor to confirm no conflict of interest.

    Question 5. Does your company track the results of SMS plan reviews 
and vessel inspections for internal control purposes and to determine 
the compliance rate of your clients? If so, what do those compliance 
data show in terms of compliance rates for (a) SMS plan reviews and (b) 
vessel inspections in recent years?
    Answer. As noted above, ABS does carry out a 100% review of our SMS 
activities.
    The results of SMS review and vessel inspections are recorded in 
the ABS reporting system to which the Coast Guard has access. Findings 
are recorded as ``major nonconformities, nonconformities and 
observations''. IACS procedures and Coast Guard instructions for 
handling these findings, including corrective action plans, are 
followed. No ISM certificate is issued or endorsed with an unresolved 
major nonconformity. The Coast Guard is notified when a major 
nonconformity is issued, or ABS has significant concern with the 
client's SMS implementation.
    Actual data from January 1, 2018 through November 7, 2019 shows 
that:
    a)  Of a total number of 329 Document of Compliance (DOC) audits 
(e.g. corporate audits) of U.S. flag operators' SMS, there were 188 
audits with no nonconformities. Those companies with audit 
nonconformities were documented and tracked for corrective action(s), 
as appropriate.
    b)  Of a total number of 1132 U.S. flag vessel SMC audits, there 
were 830 audits with no nonconformities. Those vessels with audit 
nonconformities were documented and tracked for corrective action(s), 
as appropriate.
    c)  All major nonconformities and nonconformities are documented 
and tracked until each one is followed up for confirmation of being 
fully resolved.

    Question 6. Are there any changes to vessel safety requirements or 
the processes used by the Coast Guard or ROs to enforce the 
requirements that warrant being amended to make them more efficient 
and/or effective?
    Answer. ABS maintains a commitment to continual improvement and is 
always open to additional improvements and opportunities to enhance the 
overall processes and work that we carry out.
    ABS is constantly updating our Rules and Guides based on feedback 
from the industry, ABS Technical Committees and ABS staff, as well as 
requirements from the Coast Guard, other Flag States and IACS. ABS also 
updates our internal quality system instructions to improve the 
guidance to Surveyors/Auditors and Engineers as result of survey and 
audit feedback, requirements from IMO and requests from individual flag 
administrations on whose behalf ABS conducts survey and audits. The 
purpose of these changes is to improve safety and to address the latest 
technology.
    In addition, ABS works within IACS at all levels to provide IMO 
proposed amendments and improvements to international conventions.
    Based upon this robust structure and improvements to date, no other 
changes have been identified at this time.

   Questions from Hon. Salud O. Carbajal for Colleen Stephens, Vice 
                President, Passenger Vessel Association

    Question 1. The NTSB believes the Coast Guard could be doing more 
to improve safety on small passenger vessels. Do you concur with the 
NTSB's recommendations increase safety regulations to required enhanced 
fire detection, protection and suppression technologies required on 
Passenger Vessels and require two routes of escape from passenger 
accommodations?
    Answer. The Passenger Vessel Association works closely with the 
National Transportation Safety Board. The NTSB's Director of Marine 
Safety, at our invitation, will make a presentation at PVA's Annual 
Convention in Tampa this coming first week of February. In the past, 
when NTSB has made safety recommendations to PVA, our organization has 
responded appropriately, and the NTSB has classified PVA's actions as 
``satisfactory.'' In fact, in one instance, the NTSB advised PVA that 
``Your efforts exceed the level of implementation we expected for 
Safety Recommendation M-16-28, which is classified CLOSED--EXCEEDS 
RECOMMENDED ACTION.''
    PVA wishes the subcommittee to understand that while a relatively 
few of its members operate vessels with overnight accommodations for 
passengers, most of the membership does not. Of the no more than three 
dozen PVA vessels with overnight accommodations, nearly all have the 
passenger cabins above deck (not below deck, as was the case with the 
Conception, operated by a company not a member of PVA).
    With respect to the issues of two routes of escape from passenger 
accommodations, this is already required by Coast Guard regulations. 
For example, section 177.500 (``Means of Escape'') of title 46 Code of 
Federal Regulations reads: ``(a) Except as otherwise provided in this 
section, each space accessible to passengers or used by the crew on a 
regular basis, must have at least two means of escape, one of which 
must not be a watertight door. (b) The two required means of escape 
must be widely separated and, if possible, at opposite ends or sides of 
the space to minimize the possibility of one incident blocking both 
escapes.'' This regulation applies to a small passenger vessel of less 
than 100 gross tons with a passenger capacity of no more than 150 or 
with overnight accommodations for no more than 49 passengers (commonly 
referred to as a subchapter T vessel). Section 116.500 of title 46 Code 
of Federal Regulations has a similar requirement for a small passenger 
vessel of less than 100 gross tons with a passenger capacity of more 
than 150 or with overnight accommodations for more than 49 passengers 
(commonly referred to as a subchapter K vessel).
    PVA will gladly work with the Subcommittee and the Coast Guard for 
enhanced requirements regarding (1) the use of rechargeable devices on 
passenger-carrying vessels; (2) interconnected fire detection devices; 
and (3) monitoring devices for the required night watch on a vessel 
with overnight accommodations. In addition, PVA suggests a mandate for 
a monthly fire drill during the vessel's operating season. The current 
Coast Guard rule calls for quarterly firefighting training, as well as 
before a new crew member assumes his or her responsibilities. The Coast 
Guard would be charged to ensure that this enhanced training 
requirement is adhered to. The new crew member requirement should be 
retained as well.
    To ensure safety on U.S. passenger vessels and small passenger 
vessels, it is absolutely essential that the Coast Guard's safety 
functions be preserved. PVA reminds the Subcommittee that in 2007 
Chairmen Oberstar and Cummings convened a hearing to press the Coast 
Guard to reinvigorate its marine safety mission and resources, which 
had been allowed to deteriorate as the Coast Guard emphasized security 
after the 2001 terrorist attacks. Then-Commandant Thad Allen promised 
corrective action, and the result was the action plan entitled 
Enhancing the Coast Guard's Marine Safety Program. After its issuance, 
things improved. However, PVA encourages this Subcommittee to review 
the objectives of Enhancing the Coast Guard's Marine Safety Program. 
Are they still being met? Specifically, are the goals for the number of 
marine inspector billets being filled? With the intervening advent of 
the inspection program for thousands of towing vessels (subchapter M), 
does the number of marine inspector billets need to be increased? Has 
Congress appropriated enough funds to fill all required billets in the 
marine safety mission?

    Question 2. What measures does PVA take to encourage members to 
follow and go above current safety requirements set in place by the 
Coast Guard?
    Answer. PVA has developed and makes available to its vessel-
operating members a Safety Management System (SMS) tailored to U.S.-
flagged passenger vessels of all types, sizes, and routes. We call it 
FLAGSHIP. PVA conferred regularly with the U.S. Coast Guard as we 
developed FLAGSHIP, and Coast Guard officers participated in some 
drafting sessions that led up to production of the document. In June 
2017, the Coast Guard's Director of Inspections and Compliance 
characterized FLAGSHIP as a ``remarkable achievement'' and advised PVA 
that ``Flagship SMS meets the objectives and functional requirements 
for a SMS as per 33 Code of Federal Regulations (CFR) Part 96, and this 
voluntary program can be accepted by the Coast Guard as it endeavors to 
enhance regulatory compliance and safety on domestic passenger 
vessels.'' Please see the attached letter.
    In addition, PVA has produced other safety-related materials for 
use by its members. These include:
    1.  On-line training portal on which safety and security training 
materials are posted;
    2.  Five safety training manuals with videos, addressing the topics 
of firefighting; lifesaving equipment; line handling; preventing slips, 
trips, and falls; and personal safety;
    3.  Preventative maintenance checklists and guidance documents;
    4.  A template for those members who must have a Coast Guard-
approved Nontank Vessel Response Plan;
    5.  A Coast Guard-approved Alternate Security Plan which can be 
used by PVA members to satisfy their obligations under the Maritime 
Transportation Safety Act (MTSA);
    6.  Rail jumper guidance;
    7.  Crew drug testing tools;
    8.  A white paper focusing on mitigating ``slips, trips, and 
falls'' aboard passenger vessels;
    9.  Numerous speakers and panels on safety issues at PVA's Annual 
National Convention and its five region meetings each fall. For 
example, at its upcoming Annual Convention in Tampa in early February, 
we have several presentations by senior Coast Guard officials and the 
head of the National Transportation Safety Board's marine division. In 
addition, there will be extensive information about conducting active 
shooter drills; and
    10.  Regular articles on safety topics in PVA's monthly magazine 
FOGHORN. See the attached article about the Subcommittee's recent 
hearing and the statement by PVA's witness, Colleen Stephens of Valdez, 
Alaska.

    Question 3. Does PVA provide supplemental safety training to its 
members in addition to required training?
    Answer. Please see the discussion to the question above about our 
extensive outreach to members on safety topics. While PVA does not 
conduct formal safety classes itself, our associate members have 
recently provided training and education on safety management systems. 
Additionally, last fall local Coast Guard units provided damage control 
training to our members at two of our region meetings.

    Question 4. Safety Management Systems, which include details 
ranging from safely conducting day-to-day operations to procedures for 
emergencies, drills, and training, are required by the US Code for 
certain classes of vessels. What is the current and future role and 
importance of Safety Management Systems in small passenger vessels and 
how they could improve vessel safety?
    Answer. Under current law, most U.S.-flagged vessels that operate 
on foreign voyages must have a Safety Management System that meets the 
criteria set out in section 3203(a) of title 46 United States Code. 
This requirement embraces a passenger-carrying vessel with a capacity 
more than 12 passengers. This statutory provision is how the U.S. 
implements the requirements of the International Safety Management 
(ISM) Code.
    In addition, in section 610 of the Coast Guard Authorization Act of 
2010 (Public Law 111-281 ), Congress directed the Coast Guard to 
implement a rule that requires an appropriate SMS for certain 
passenger-carrying vessels in domestic service. See Sections 3202(b) 
and 3203(c) of title 46 United States Code. The Secretary of the 
department in which the Coast Guard is operating is to determine which 
domestic passenger-carrying vessels are to be subject to the SMS 
mandate based on ``the number of individuals on the vessel that could 
be killed or injured in a marine casualty.'' In developing the 
regulation, the Secretary is to consider ``(1) the characteristics, 
methods of operation, and nature of the service of these vessels; and 
(2) with respect to vessels that are ferries, the sizes of the ferry 
systems within with the vessels operate.''
    The Coast Guard has yet to issue a rule implementing section 610 of 
Public Law 111-281. With the availability of the FLAGSHIP SMS 
(discussed above), PVA believes that it and its members are well-
positioned to comply with an eventual final rule on SMS for vessels 
within the domestic passenger fleet.
    As noted above, section 610 of Public Law 111-281 provides broad 
authority as to what domestic passenger vessels should be covered by 
the eventual SMS rule. However, PVA does not believe that it is 
necessary or efficient for every inspected domestic passenger vessel to 
have an SMS. Keep in mind that SMS represents an effort to ``go 
beyond'' regulatory requirements for vessel safety. Many domestic 
vessels are authorized to carry only limited numbers of passengers (in 
many cases, as few as 6), and their crews may consist of only a captain 
(frequently) the owner and a part-time mate. For such vessels, an SMS 
requirement is likely to be regulatory overkill.
    PVA recommends that the Subcommittee exert its efforts to seeing 
that the Coast Guard promptly finalizes a rule implementing section 610 
of the 2010 Coast Guard Authorization Act. Perhaps the leaders of the 
Subcommittee could send a letter to the Coast Guard Commandant 
emphasizing the importance of completing this regulatory project. If 
the Congress were to consider a legislative response, PVA offers the 
following possible statutory language:

        ``SEC.__. EXPEDITIOUS RULEMAKING FOR SAFETY MANAGEMENT SYSTEMS.

        The Congress directs the Secretary of the Department in which 
        the Coast Guard is operating to expeditiously finalize the 
        required rulemaking on Safety Management System for certain 
        passenger vessels and small passenger vessels, pursuant to 
        section 610 of Public Law 111-281, the Coast Guard 
        Authorization Act of 2010 (Title 46 section 3202(b) of United 
        States Code).''

                               __________

                 Attachments to Ms. Stephens Responses

                                 letter
                                                     June 12, 2017.
Passenger Vessel Association
Attn: Mr. John Groundwater
103 Oronoco Street, Suite 200, Alexandria, VA 22314
    Dear Mr. Groundwater:
    This letter is a follow-up to my letter dated April 21, 2017, which 
was in response to your letter dated December 20, 2016, seeking review 
and acceptance of PVA's ``Flagship Safety Management System (SMS) for 
Members of the Passenger Vessel Association.'' The U.S. Coast Guard 
completed its review and has determined that Flagship SMS meets the 
objectives and functional requirements for a SMS as per 33 Code of 
Federal Regulation (CFR) Part 96, and this voluntary program can be 
accepted by the Coast Guard as it endeavors to enhance regulatory 
compliance and safety on domestic passenger vessels.
    With the recognition of Flagship by the Coast Guard, it is worth 
noting that external third party safety audits are not required under 
this program; however, if a participating company schedules an external 
audit, external auditing personnel shall be independent of the company 
being audited. Both external and internal audit results, and associated 
documentation, may be examined by the local Officer In Charge, Marine 
Inspection (OCMI) to help determine the effective implementation of 
Flagship.
    In addition, Flagship will be recognized and considered by the 
local OCMIs when carrying out the Coast Guard's risk-based decision 
making (RBDM) policy letter for small passenger vessels (CVC Policy 
Letter 16-05 (series)); and in particular when determining the proper 
scope for a vessel's annual inspection. It is important to point out 
that it is our intention that vessels with a history of being in 
substantial compliance with the regulations will be eligible for a 
reduced scope inspection, and a vessel's enrollment in a CG recognized 
SMS, such as Flagship, should improve the OCMI's factorization with the 
RBDM policy.
    This represents a significant milestone and I commend you, your 
staff, and members of the Flagship Working Group on this remarkable 
accomplishment, and look forward to our continued work on the 
development of policies and procedures that will enhance passenger 
vessel safety. It is also worth acknowledging this as an important 
first step in instilling a culture of safety industry wide, and I 
greatly value PVA's partnership and commitment to achieving this common 
goal.
    If you have any questions concerning this matter, please feel free 
to contact Captain Matt Edwards, Chief of the Office of Commercial 
Vessel Compliance (CG-CVC).
        Sincerely,
                                              J.F. Williams
                                          Captain, U.S. Coast Guard
                             Director of Inspections and Compliance
                                                       By direction

                               __________
                                article
    [The artcle entitled ``Passenger Vessel Casualties Prompt 
Congressional Legislation,'' by Ed Welch, PVA legislative director, is 
retained in committee files and appears below. It is also available 
online in the January/February 2020 issue of Foghorn Magazine on pages 
42-43 at http://foghornmagazine.com/issues/2020/0120_FH_flipbook/
?page=42 and http://foghornmagazine.com/issues/2020/0120_FH_flipbook/
?page=43]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                    
</pre></body></html>
